No. ____________
_______________________________________
IN THE
SUPREME COURT OF UNITED STATES
_______________________
Isidro Sauceda, Petitioner,
v.
David Shinn, Director of Arizona Department of Corrections, and the
Attorney General of the State of Arizona, Respondents
On Petition For Writ Of Certiorari
To The Ninth Circuit Court of Appeals
________________________________
APPENDIX
_________________________________
Sandra Slaton, Counsel of Record
HORNE SLATON PLLC
6720 N. Scottsdale Road, Suite 285
Scottsdale, Arizona 85253
Telephone: (480 518-2154
slaton@horneslaton.com
February 21, 2021
______________________________________________________________

TABLE OF CONTENTS
Date
11/23/2021
11/02/2021
4/29/2020
4/13/2020
12/07/2020
11/16/2020
6/29/2020
5/27/2020
4//27/2020
6/20/2019
05/21/2019
04/05/2019
02/19/2019
02/19/2019

02/19/2019

Description
Order
Order
Order Dismissing Habeas Petition
Magistrate’s Report and Recommendation
Petition for Rehearing En Banc
Motion for Reconsideration/Panel Rehearing
Motion for Certificate of Appealability
Notice of Appeal
Objections To Magistrate’s Report and
Recommendation
Reply To State’s Limited Answer To Petition
For Writ Of Habeas Corpus and Appendix A
Limited Answer to Petition for Writ of Habeas
Corpus
State’s Motion for Extension Of Time
Petition for Habeas Corpus
Petitioner’s Memorandum In Support Of
Petition Under 28 U.S.C. § 2254 For A Writ Of
Habeas Corpus By A Person In State Custody
(Non-Death Penalty)
Appendix To Petitioner’s Memorandum In
Support Of Petition Under 28 U.S.C. § 2254
For A Writ Of Habeas Corpus By A Person In
State Custody (Non-Death Penalty)

ii

Pages
1
2
3
4-29
30-54
55-79
80-115
116-117
118-136
137-151
152-169
170-172
173-183
184-209

210-224

Case: 20-16038, 11/02/2020, ID: 11878973, DktEntry: 3, Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED
NOV 2 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ISIDRO SAUCEDA,

No.

Petitioner-Appellant,

20-16038

D.C. No. 2:19-cv-01132-NVW
District of Arizona,
Phoenix

v.
DAVID SHINN, Director, Arizona
Department of Corrections; ATTORNEY
GENERAL FOR THE STATE OF
ARIZONA,

ORDER

Respondents-Appellees.

Before:

TALLMAN and LEE, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 2) is denied
because appellant has not made a “substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2); see also Miller-El v. Cockrell, 537
U.S. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

1

Case: 20-16038, 11/02/2020, ID: 11878973, DktEntry: 3, Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED
NOV 2 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ISIDRO SAUCEDA,

No.

Petitioner-Appellant,

20-16038

D.C. No. 2:19-cv-01132-NVW
District of Arizona,
Phoenix

v.
DAVID SHINN, Director, Arizona
Department of Corrections; ATTORNEY
GENERAL FOR THE STATE OF
ARIZONA,

ORDER

Respondents-Appellees.

Before:

TALLMAN and LEE, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 2) is denied
because appellant has not made a “substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2); see also Miller-El v. Cockrell, 537
U.S. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

2

Case 2:19-cv-01132-NVW Document 15 Filed 04/29/20 Page 1 of 1

1
2
3
4
5
6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8
9

Isidro Sauceda,
Petitioner,

10
11

v.

12

Charles L Ryan, et al.,

13

NO. CV-19-01132-PHX-NVW
JUDGMENT IN A CIVIL CASE

Respondents.

14
15
16

Decision by Court. This action came for consideration before the Court. The
issues have been considered and a decision has been rendered.

17

IT IS ORDERED AND ADJUDGED adopting the Report and Recommendation

18

of the Magistrate Judge as the order of this Court. Petitioner’s Petition for Writ of

19

Habeas Corpus pursuant to 28 U. S. C. § 2254 is denied and this action is hereby

20

dismissed with prejudice.
Debra D. Lucas
Acting District Court Executive/Clerk of Court

21
22
23
24

April 29, 2020
By

25
26
27
28

3

s/ Rebecca Kobza
Deputy Clerk

Case 2:19-cv-01132-NVW Document 12 Filed 04/13/20 Page 1 of 26

1
2
3
4
5
6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8
9

Isidro Sauceda,

No. CV 19-01132 PHX NVW (CDB)
Petitioner,

10

REPORT AND
RECOMMENDATION

11

v.

12

David Shinn,1 Attorney General of the State
of Arizona,

13

Respondents.

14
15

TO THE HONORABLE NEIL V. WAKE:

16

Petitioner Isidro Sauceda, who is represented by counsel in this matter, filed a

17

petition seeking a writ of habeas corpus pursuant to 28 U.S.C. § 2254 on February 19,

18

2019, challenging his state court convictions on one count of first-degree murder, two

19

counts of attempted first-degree murder, and one count each of aggravated assault and

20

assisting a criminal street gang. Respondents docketed a Limited Answer to Petition for

21

Writ of Habeas Corpus, (ECF No. 10), and Sauceda replied to the answer to his petition

22

(ECF No. 11). Sauceda contends he is entitled to habeas relief because he was denied his

23

right to the effective assistance of counsel and he has discovered new facts establishing his

24

actual innocence. Respondents contend the petition is not timely and Sauceda’s newly

25

discovered facts do not establish his actual innocence.

26
27
28

1

Effective October 21, 2019, David Shinn replaced Charles Ryan as Director of the
Arizona Department of Corrections. Pursuant to Federal Rule of Civil Procedure 25(d), Shinn is
automatically substituted as the party of record.

4

Case 2:19-cv-01132-NVW Document 12 Filed 04/13/20 Page 2 of 26

1

I.

Background

2

A.

State court proceedings

3

A grand jury indictment returned May 6, 2005, charged Sauceda with one count of

4

first-degree murder, two counts of attempted first-degree murder, one count of aggravated

5

assault, and one count of assisting a criminal street gang. (ECF No. 10-1 at 3-6).2 The State

6

noticed its intent to seek the death penalty and also filed a notice of aggravating factors.

7

(ECF No. 10-1 at 8-9). “Prior to trial, [Sauceda] moved to dismiss the indictment, claiming

8

it was obtained with false testimony from the investigating officer at the grand jury

9

proceedings. The trial court summarily denied the motion.” State v. Sauceda, 2011 WL

10

2517250, at *1 (Ariz. Ct. App. June 23, 2011). The motion to dismiss the indictment was

11

filed July 16, 2007, more than two years after the grand jury indictment was returned. See

12

Appellee’s Answering Brief, State v. Sauceda, 2010 WL 9446084, at *18 (Ariz. Ct. App.

13

2010).

14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Citing portions of the trial transcript, Respondents have summarized the testimony
presented at Sauceda’s trial as follows:
On December 13, 2003, David and several friends held a party at his
Glendale home while his parents were away. (Exh. D, at 108-11.) To ensure
the party was “safe,” partygoers were patted down and asked if they had
weapons. (Id. at 49-50.) While this was not intended to be a gang party, many
members of rival gangs attended. The first to arrive were three members of
the Phoeniqueras, a local gang known for wearing red clothes. (Exh. F,
at 138-39.) The three were Sauceda, Marcus, and Marcus’ brother, Khris.
(Id.)3 At trial, four witnesses identified Sauceda as a member of the
2

Sauceda was not arrested until seventeen months after the shooting, which occurred in
the early morning hours of December 14, 2003. Appellant’s Brief, State v. Sauceda, 2010 WL
3391172, at *10 (Ariz. Ct. App. July 14, 2010). “No one was apprehended despite extensive
interviews immediately following the shooting and no one would identify who was the shooter at
the party.” Id. at *8.
3

The Arizona Court of Appeals noted:
Our review of the record finds there was substantial information developed
by the Detective during his investigation of the shooting that would permit him to
testify that Defendant was a member of the Phoeniqueras. This information
included witness statements that: (1) Defendant claimed the Glendale gang and
threw up signs and said “Glendale,” which is a “gang type of thing;” (2) Defendant
arrived at the party with other documented members or associates of the

5

-2-

Case 2:19-cv-01132-NVW Document 12 Filed 04/13/20 Page 3 of 26

1

18

Phoeniqueras and remembered him wearing dark clothes and a red bandana.
(Exh. C, at 62 (Marcus); Exh. E, at 27, 44, 47 (Ivan), 125, 133, 136 (Jose);
Exh. G, at 50, 72-73 (German).) As Marcus remembered, Sauceda brought a
gun inside the house. (Exh. C, at 65-66.)
Later, members of the Califas, a local gang known for wearing blue
clothes, also arrived at the party. (Id. at 143.) These included Carlos, Jose,
German, and Ivan. (Exh. G, at 43.) One of David’s cousins noticed the rival
gang members wearing their colors and feared there might be trouble. (Exh.
F, at 122, 123, 139, 141.) He warned Carlos it was a bad idea for the Califas
to go inside because people were drunk and “everybody [didn’t] know what
they were doing.” (Id. at 144.) But Carlos reassured him not to worry, that
nothing bad was going to happen, and that they were there “to party, no big
deal.” (Id. at 144-45.) Inside, Sauceda and members of both gangs formed a
circle. (Exh. G, at 60.) German and Carlos refused to shake hands with the
Phoeniqueras and made an insult about the color red. (Exh. E, at 52-53; Exh.
G, at 60-62.) In response, Sauceda began firing his gun. (Exh. C, at 81, 119.)
One person identified Sauceda as the shooter to police, and he and two other
witness identified Sauceda at trial. (Id. at 89, 119 (Marcus); Exh. E, at 55–
57, 68–69 (Ivan), 133, 136 (Jose).) Sauceda shot Khris, and “went down to
his knees, starting telling [sic] Marcus sorry.” (Exh. E at 60.) Sauceda then
exited the house and fired at least another five shots. (Id. at 63-64.)
Ultimately, Sauceda shot Carlos in the forehead (Exh. H, at 25-26.); Jose in
the chin, arm, and back (Exh. E, at 133-34, 137, 146-47.); German in the
head and wrist (Exh. G, at 60-62.); and Khris in the forehead—killing him
(Exh. J, at 5, 15, 23.). About a week after the shooting, Sauceda came to
Marcus’ house and apologized to him and his brothers, saying he was “sorry
for what [he] did to [Marcus’] brother.” (Exh. G, at 97, 131.)

19

(ECF No. 10 at 2-3). At trial the defense argued, inter alia, “that there could have been

20

more than one person with a gun; and that person may have killed the victim and shot

21

Sanchez.” Appellant’s Opening Brief, State v. Sauceda, 2010 WL 3391172, at *15 (Ariz.

22

Ct. App. June 3, 2011). Defense counsel also challenged the testimony that the shooting

23

was gang-related, and confronted the witnesses who testified Sauceda was the shooter with

2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17

24
25
26
27
28

Phoeniqueras, which is significant because in “gang culture,” a person is judged
“by the company he keeps,” and accordingly, if an individual is “hanging out with
Phoeniqueras [he’s] pretty much considered an associate” of that gang; and (3)
Defendant was wearing various items of red clothing to the party, the color
associated with the Phoeniqueras.
At trial, the Detective acknowledged that police records did not indicate
Defendant was affiliated with any particular gang. . . .
State v. Sauceda, 2011 WL 2517250, at *2 (Ariz. Ct. App. June 23, 2011).

6

-3-

Case 2:19-cv-01132-NVW Document 12 Filed 04/13/20 Page 4 of 26

1

their prior statements that they had not seen or could not identify the shooter. Appellant’s

2

Brief, State v. Sauceda, 2010 WL 3391172, at *8-10 (Ariz. Ct. App. July 14, 2010).

3

At the conclusion of a three-week trial (ECF No. 10-1 at 82), the jury found Sauceda

4

guilty as charged. (ECF No. 10-1 at 82-83). At the punishment phase the jury deadlocked

5

with regard to the imposition of sentence on the charge of first-degree murder, and the trial

6

court declared a mistrial as to the penalty phase on this count only. (ECF No. 10-1 at 86).4

7

At the conclusion of a sentencing hearing conducted November 10, 2008, (ECF No. 10-1

8

at 88-93), Sauceda was “sentenced [] to life without the possibility of release for twenty-

9

five years for first-degree murder, to be served consecutively to the concurrent and

10

consecutive terms imposed for his other offenses, which totaled 37.5 years’ imprisonment.”

11

State v. Sauceda, 2015 WL 3648019, at *1 (Ariz. Ct. App. June 11, 2015).

12

Sauceda appealed his conviction and sentence, asserting “the trial court erred by:

13

(1) denying his motion to dismiss the indictment; (2) refusing his request for a Willits

14

instruction; (3) improperly instructing on reasonable doubt; and (4) failing to instruct on a

15

lesser-included offense in regard to the charges of attempted first degree murder.” Sauceda,

16

2011 WL 2517250, at *1. The state appellate court denied all of these claims on the merits.

17

(Id.). Sauceda sought review by the Arizona Supreme Court, which denied relief on

18

January 10, 2012, (ECF No. 1 at 3), and he did not seek a writ of certiorari. (Id.).

19

Sauceda initiated an action for state post-conviction relief pursuant to Rule 32 of the

20

Arizona Rules of Criminal Procedure on February 13, 2012. (ECF No. 11 at 2). He was

21

appointed counsel, who informed the state court they could find no colorable issue to raise

22

on Sauceda’s behalf. Sauceda, 2015 WL 3648019, at *1. Sauceda filed a pro se petition,

23

asserting four claims of ineffective assistance of counsel:

24
25

He argued trial counsel had been ineffective in: (1) failing to seek
suppression of various in-court and out-of-court identifications; (2) failing to
timely file a motion to dismiss based on purported perjury presented to the

26
27
28

“A new jury was impaneled for the second penalty trial, however, on August 24, 2009,
before evidence was presented to the jury the state dismissed the notice to seek the death penalty.
(RT 08/24/09, pp. 3-4).” Appellant’s Brief, State v. Sauceda, 2010 WL 3391172, at *3 (Ariz. Ct.
App. July 14, 2010).
4

7

-4-

Case 2:19-cv-01132-NVW Document 12 Filed 04/13/20 Page 5 of 26

1

7

grand jury and to seek special action relief from the trial court’s denial of that
motion; (3) “creat[ing] a conflict of interest” by bolstering the state’s case
during cross-examination of a witness; and (4) failing to object to the absence
of instructions for lesser-included offenses of attempted first-degree murder.
Sauceda further argued that appellate counsel had been ineffective by
failing to: (1) “include all of the perjured testimony” in arguing the motion
to dismiss should have been granted; (2) argue the trial court erred in
rejecting his request for an intoxication instruction; (3) raise on appeal the
court’s denial of his motion for new trial; and (4) argue that his first-degree
murder conviction could not be based on “transferred intent.”

8

Id. The state trial court denied Rule 32 relief on May 29, 2013, addressing the merits of

9

each of Sauceda’s claims. (ECF No. 1-6 at 2-8).

2
3
4
5
6

10

Sauceda appealed the denial of Rule 32 relief, “repeat[ing] several of his claims of

11

ineffective assistance of counsel.” Sauceda, 2015 WL 3648019, at *1. The Arizona Court

12

of Appeals granted review but denied relief in an order issued June 11, 2015. Id. at *1-3.

13

Sauceda sought review in the Arizona Supreme Court, which denied review on April 11,

14

2016. (ECF No. 1-8 at 17).

15
16

Sauceda filed a second Rule 32 action on May 18, 2016. (ECF No. 1-8 at 69). In his
second Rule 32 action he asserted

24

. . . his Rule 32 counsel had been ineffective, there was newly
discovered evidence (specifically, a doctor’s report and exculpatory
statements by Sauceda’s then-girlfriend and a childhood friend), and he was
actually innocent. The trial court summarily denied relief. It noted, first, that
Sauceda or his counsel clearly had been aware of the purportedly new
evidence or could have discovered it through the exercise of due diligence,
given that the report was disclosed to trial counsel and Sauceda obviously
knew the two potential witnesses and their potential testimony. It further
observed that, whatever exculpatory value that evidence may have had, it did
not establish his innocence in light of eyewitness testimony identifying him
as the shooter. And, the court noted, Sauceda was not entitled to the effective
assistance of Rule 32 counsel and his claims were not colorable in any event.

25

State v. Sauceda, 2018 WL 1467377, at *1 (Ariz. Ct. App. Mar. 26, 2018). The state trial

26

court summarily denied relief on March 3, 2017. (ECF No. 1 at 5). The trial court concluded

27

“the issues raised by Defendant in his Second PCR are not colorable.” (ECF No. 1-8 at 69).

17
18
19
20
21
22
23

28

8

-5-

Case 2:19-cv-01132-NVW Document 12 Filed 04/13/20 Page 6 of 26

1
2

The court concluded Sauceda had not raised a colorable claim of newly discovered

6

evidence pursuant to Rule 32.1(e), finding:
the information in the medical record, the Declaration of Sherise Ulibarri,
and the Affidavit of Steven Deleon is not newly discovered. Rather those
documents merely confirm what Defendant knew either on the night in
question or, with respect to the medical record, what his attorney knew
several years before trial. Thus, Defendant has failed to establish a colorable
claim for post-conviction relief based upon newly discovered material facts.

7

(ECF No. 1-8 at 70-71). The court further found Sauceda had not presented “newly

8

discovered evidence” demonstrating his “actual innocence” of the crimes of conviction

9

13

pursuant to Rule 32.1(h), concluding:
Defendant’s position seems to be that the sworn testimony of the mother of
his daughter and his childhood friend conclusively establish that Defendant
did not have a gun on him when he left for the evening or at the party, was
not wearing red, was not the shooter, and was not in a gang. What Defendant
overlooks, however, is that multiple witnesses at the trial who either came to
the party with Defendant or saw him there, testified otherwise.

14

(ECF No. 1-8 at 72).5

3
4
5

10
11
12

15

The trial court also found Sauceda was not entitled to the effective assistance of

16

counsel in his post-conviction action because he had been represented by appointed counsel

17

in his appeal, and also found Sauceda had not specified any valid claim that post-conviction

18

counsel failed to present, thus failing to establish prejudice. Sauceda, 2018 WL 1467377,

19

at *1.

20

Sauceda sought review by the Arizona Court of Appeals, which granted review but

21

denied relief in a decision issued March 26, 2018. Sauceda, 2018 WL 1467377, at *1. The

22

appellate court concluded, inter alia:

23
24
25
26
27
28

Sauceda repeats his claim of actual innocence in light of the witness
statements and report. To prevail on a claim of actual innocence under Rule
5

The state habeas trial court, which was also the convicting court, further found:
Based upon the evidence the State presented at the trial of this matter Defendant
simply cannot establish by clear and convincing evidence that if the information
contained in Exhibits “A”, “B”, and “C” to his Second PCR was presented at trial,
no reasonable fact-finder could find defendant guilty of the underlying offenses
beyond a reasonable doubt. Rule 32.1(h), Ariz. R. Crim. P.
(ECF No. 1-8 at 72).

9

-6-

Case 2:19-cv-01132-NVW Document 12 Filed 04/13/20 Page 7 of 26

1
2
3
4
5
6

32.1(h), Sauceda is required to show “by clear and convincing evidence that
the facts underlying the claim would be sufficient to establish that no
reasonable fact-finder would find the defendant guilty beyond a reasonable
doubt.” As the trial court pointed out, Sauceda has ignored the evidence
presented at trial identifying him as the shooter. In light of that evidence, we
agree with the court that Sauceda has not shown that “no reasonable factfinder” could have rejected the testimony of both his then-girlfriend and his
childhood friend and found him guilty.

7

Id. at *2. Sauceda did not seek review of the denial of relief by the Arizona Supreme Court,

8

and the Court of Appeals’ mandate issued July 3, 2018. (ECF No. 10-1 at 112).

9

B.

Federal Habeas Claims

10

Sauceda asserts: he was denied the effective assistance of counsel; there are “newly

11

discovered facts” which would have changed the jury’s verdict; and he is actually innocent

12

of the crimes of conviction. (ECF No. 1 at 6-7). Respondents assert Sauceda’s habeas

13

petition is barred by the statute of limitations. (ECF No. 10).

14

II.

Statute of limitations

15

Relief on the merits of Sauceda’s petition for a writ of habeas corpus is not barred

16

by the statute of limitations provision of the Antiterrorism and Effective Death Penalty Act

17

(“AEDPA”). The AEDPA imposed a one-year statute of limitations on state prisoners

18

seeking federal habeas relief from their state convictions. 28 U.S.C. § 2244(d)(1). The one-

19

year statute of limitations on habeas petitions generally begins to run on “the date on which

20

the judgment became final by conclusion of direct review or the expiration of the time for

21

seeking such review.” Id. at § 2244(d)(1)(A). The limitations period is tolled during the

22

time a “properly filed” state action for post-conviction relief is pending in the state courts.

23

Id. at § 2244(d)(2).

24

Sauceda’s conviction became final on April 9, 2012, when the time for seeking a

25

writ of certiorari in his direct appeal expired. See Lambrix v. Singletary, 520 U.S. 518, 527

26

(1997); Bowen v. Roe, 188 F.3d 1157, 1158-59 (9th Cir. 1999). Prior to that date Sauceda

27

had initiated an action for state post-conviction relief pursuant to Rule 32 of the Arizona

28

Rules of Criminal Procedure, which tolled the statute of limitations until April 11, 2016,

10

-7-

Case 2:19-cv-01132-NVW Document 12 Filed 04/13/20 Page 8 of 26

1

when the Arizona Supreme Court denied review in that matter. The statute of limitations

2

then ran for 105 days until Sauceda filed a second Rule 32 action on July 25, 2016, which

3

the state courts did not find successive or untimely, and therefore the statute of limitations

4

was again tolled. The state appellate court denied review in Sauceda’s second Rule 32

5

action on March 26, 2018. He did not seek review by the Arizona Supreme Court, and the

6

mandate issued July 3, 2018. At that time Sauceda had 260 days to file his federal habeas

7

petition, i.e., the petition was due March 20, 2019. Therefore, the petition, filed February

8

19, 2019, is timely.6

9

III.

Analysis

10

A.

Standard of Review

11

Pursuant to the Anti-Terrorism and Effective Death Penalty Act of 1996

12

(“AEDPA”), the Court may not grant a writ of habeas corpus to a prisoner on a claim

13

adjudicated on the merits in a state court unless the state court’s decision denying the claim

14

was “‘contrary to, or involved an unreasonable application of, clearly established Federal

15

law, as determined by the Supreme Court of the United States.’” Harrington v. Richter,

16

562 U.S. 86, 98 (2011), quoting 28 U.S.C. § 2254(d). See also Lafler v. Cooper, 566 U.S.

17

166, 172-73 (2012). A state court decision is contrary to federal law if it contradicts the

18

governing law established by United States Supreme Court, or if it reached a different result

19

from that of the Supreme Court on a set of materially indistinguishable facts. See, e.g.,

20

Brown v. Payton, 544 U.S. 133, 141 (2005); Yarborough v. Alvarado, 541 U.S. 652, 663

21

(2004). Furthermore, the state court’s decision constitutes an unreasonable application of

22

clearly established federal law only if it is objectively unreasonable. See, e.g., Renico v.

23
24
25
26
27
28

6

For purposes of the timeliness of a § 2254 petition, in cases wherein the Arizona Court
of Appeals’ decision is not appealed to the Arizona Supreme Court, the date the mandate issues is
the date the statute of limitations begins to run on the federal habeas action. However, if the
intermediate appellate court’s decision denying Rule 32 relief is appealed to the Arizona Supreme
Court, it is the date of the Arizona Supreme Court’s decision, not the issuance of the Court of
Appeals’ mandate, that concludes the post-conviction process and determines when the tolling
period has terminated. See Hemmerle v. Schriro, 495 F.3d 1069, 1077 (9th Cir. 2007). See also
Martinez v. Ryan, 2018 WL 3110045, at *3 & n.3 (D. Ariz. 2018), distinguishing Celaya v.
Stewart, 691 F. Supp. 2d 1046, 1053 (D. Ariz. 2010).

11

-8-

Case 2:19-cv-01132-NVW Document 12 Filed 04/13/20 Page 9 of 26

1

Lett, 559 U.S. 766, 773 (2010); Runningeagle v. Ryan, 686 F.3d 758, 785 (9th Cir. 2012).

2

An unreasonable application of federal law is different from an incorrect one. See

3

Harrington, 562 U.S. at 101. “‘A state court’s determination that a claim lacks merit

4

precludes federal habeas relief so long as fairminded jurists could disagree on the

5

correctness of the state court’s decision.’” Woods v. Etherton, 136 S. Ct. 1149, 1151 (2016),

6

quoting Harrington, 562 U.S. at 101. See also Dixon v. Ryan, 932 F.3d 789, 801 (9th Cir.

7

2019).

8

Additionally, on federal habeas review, “a determination of a factual issue made by

9

a State court shall be presumed to be correct. The applicant shall have the burden of

10

rebutting the presumption of correctness by clear and convincing evidence.” 28 U.S.C.A.

11

§ 2254(e)(1). See also Miller-El v. Cockrell, 537 U.S. 322, 340 (2003). Furthermore,

12

“[u]nlike § 2254(d), § 2254(e)(1)’s application is not limited to claims adjudicated on the

13

merits. Rather, it appears to apply to all factual determinations made by state courts.”

14

Kirkpatrick v. Chappell, 926 F.3d 1157, 1170 (9th Cir. 2019).

15

B.

16

1. Ineffective assistance of counsel

17

Sauceda asserts his trial, appellate, and post-conviction counsel’s performance was

18
19
20
21
22
23
24
25
26
27
28

Merits

unconstitutionally ineffective:
Mr. Sauceda was appointed Rule 32 counsel which was ineffective,
and so Mr. Sauceda filed a Rule 32 Petition pro per. Mr. Sauceda provided
an affidavit from trial counsel that swore that his performance fell below the
reasonableness standards. Trial counsel failed to timely file a special action
to challenge dismissal of a Rule 12.9 challenge of the grand jury proceedings.
Trial counsel failed to object to no lesser-included offense instructions. Mr.
Sauceda’s trial counsel already has stated that his assistance fell below the
objectively reasonable standard. Appellant counsel failed to include an issue
of denied jury instruction on “intoxication” and “premeditation.” Appellant
counsel was ineffective when it failed to argue reversible error when it denied
a request for new trial.
. . . Defense counsel failed to introduce the medical records of Carlos
Sanchez and bring Dr. Zacher’s report to the attention of the jury. Defense
counsel failed to object to a lack of a Willits instruction to the jury, which
would have allowed the jury to take a negative prejudicial inference and

12

-9-

Case 2:19-cv-01132-NVW Document 12 Filed 04/13/20 Page 10 of 26

1
2
3
4

limited Mr. Sauceda’s challenge to fundamental error rather than abuse of
discretion. Then, post-conviction counsel filed a no-issue claim despite all of
this. Mr. Sauceda was appointed counsel by statute and no has no remedy to
challenge counsel’s effectiveness.
(ECF No. 1 at 6).7

5

To prevail on an ineffective assistance of counsel claim a habeas petitioner must

6

demonstrate his attorney’s performance was deficient and he was prejudiced by the alleged

7

deficiency. See Strickland v. Washington, 466 U.S. 668, 687 (1984). Counsel’s

8

performance will be found deficient only if counsel’s actions “fell below an objective

9

standard of reasonableness,” as measured by “prevailing professional norms.” Id. at 688.

10

See also Cheney v. Washington, 614 F.3d 987, 994 (9th Cir. 2010). When evaluating

11

defense counsel’s performance, the Court “must indulge a strong presumption that

12

counsel’s conduct falls within the wide range of reasonable professional assistance . . .”

13

Strickland 466 U.S. at 689 (internal quotations omitted). To establish prejudice the

14

petitioner must demonstrate “a reasonable probability that, but for counsel’s unprofessional

15

errors, the result of the proceeding would have been different.” Id. at 694. “A reasonable

16

probability is a probability sufficient to undermine confidence in the outcome.” Id.

17

It is the petitioner’s burden to satisfy both prongs of the Strickland test. See Wong v.

18

Belmontes, 558 U.S. 15, 16-17 (2009); Knowles v. Mirzayance, 556 U.S. 111, 122 (2009);

19

Vega v. Ryan, 757 F.3d 960, 969 (9th Cir. 2014). However, if a habeas petitioner cannot

20

meet “the highly demanding and heavy burden of establishing actual prejudice,” it is

21

unnecessary to determine whether his counsel’s performance was deficient. Allen v.

22

Woodford, 395 F.3d 979, 1000 (9th Cir. 2005). See also Strickland, 466 U.S. at 697;

23

Rhoades v. Henry, 611 F.3d 1133, 1141 (9th Cir. 2010); Rios v. Rocha, 299 F.3d 796, 805

24

(9th Cir. 2002) (“Failure to satisfy either prong of the Strickland test obviates the need to

25

consider the other.”).

26
27
28

7

To be entitled to a jury instruction pursuant to the holding in State v. Willits, 96 Ariz. 184
(1964), a defendant must prove both that the state failed to preserve exculpatory, material,
accessible evidence, and resulting prejudice. See Arizona v. Fulminante, 193 Ariz. 485, 503
(1999). If the defendant makes this showing, they are entitled to an instruction informing the jury
it may draw an adverse inference from the state’s action.

13

- 10 -

Case 2:19-cv-01132-NVW Document 12 Filed 04/13/20 Page 11 of 26

1

Additionally, on federal habeas review a Strickland claim adjudicated on the merits

2

by a state court is reviewed under a “highly deferential” or “doubly deferential” standard.

3

Atwood v. Ryan, 870 F.3d 1033, 1057 (9th Cir. 2017); Visciotti v. Martel, 862 F.3d 749,

4

770 (9th Cir. 2016). The “highly deferential” standard of review “‘requires that every effort

5

be made to eliminate the distorting effects of hindsight, to reconstruct the circumstances of

6

counsel’s challenged conduct, and to evaluate the conduct from counsel’s perspective at

7

the time.’” Visciotti, 862 F.3d at 770, quoting Strickland, 466 U.S. at 689. The “doubly

8

deferential” standard of review requires the habeas court applying Strickland to determine

9

whether there is a “reasonable argument that counsel satisfied Strickland’s deferential

10

standard . . .” Harrington, 562 U.S. at 788 (emphasis added). Even if the Court could

11

conclude on de novo review that the petitioner might satisfy both prongs of the Strickland

12

test, the “AEDPA requires that a federal court find the state court’s contrary conclusion”

13

“objectively unreasonable before granting habeas relief.” Woods v. Sinclair, 764 F.3d

14

1109, 1132 (9th Cir. 2014) (emphasis added).

15

Sauceda contends his trial counsel’s performance was deficient because he failed to

16

timely file a special action to appeal the trial court’s dismissal of Sauceda’s challenge to

17

the grand jury proceedings. Sauceda challenged the denial of the motion to dismiss the

18

indictment in his direct appeal; his appellate counsel thoroughly and persuasively briefed

19

the issue to the state appellate court. Appellant’s Opening Brief, Sauceda, 2010 WL

20

3391172 at *12-26. The Arizona Court of Appeals noted: “Prior to trial, Defendant moved

21

to dismiss the indictment, claiming it was obtained with false testimony from the

22

investigating officer at the grand jury proceedings. The trial court summarily denied the

23

motion.” Sauceda, 2011 WL 2517250, at *1. In denying relief on this substantive claim the

24

state appellate court then extensively reviewed the record and the applicable law and

25

concluded: “There was no abuse of discretion by the trial court in denying the motion to

26

dismiss.” Id. at *3.

27

In his first Rule 32 petition Sauceda asserted the claim raised herein, i.e., trial

28

counsel’s performance was deficient because he failed to timely file a special action to

14

- 11 -

Case 2:19-cv-01132-NVW Document 12 Filed 04/13/20 Page 12 of 26

1

appeal the trial court’s dismissal of Sauceda’s challenge to the grand jury proceedings. The

2

Arizona Court of Appeals affirmed the habeas trial court’s denial of relief on this claim,

3

concluding:

4
5
6
7
8
9
10
11
12

[A]lthough he claims the trial court denied his motion solely on the
basis of timeliness, the record does not support that claim. Instead, the court
stated it had “reviewed” the motion before denying it and did not state it was
denying it as untimely. And, although Sauceda additionally argues the
motion should have been granted on its merits, we rejected that argument on
appeal. It therefore cannot be raised in a Rule 32 proceeding, nor can
counsel’s performance in regard to the motion be said to be deficient. Ariz.
R.Crim. P. 32.2(a)(2). For the same reason, we reject Sauceda’s claim that
counsel should have challenged the court’s ruling by special action. Sauceda
has not explained how raising the issue in a special action instead of on
appeal could have changed the result.
Sauceda, 2015 WL 3648019, at *2.

13

The denial of relief, because Sauceda was not prejudiced by his counsel’s

14

performance, was not an unreasonable application of Strickland because the appellate

15

court’s finding that it would not have granted relief on the special action, a matter of state

16

law, is entitled to deference by this Court. See Menendez v. Terhune, 422 F.3d 1012, 1029

17

(9th Cir. 2005); Hartman v. Summers, 120 F.3d 157, 161 (9th Cir. 1997). Because the state

18

appellate court determined a special action challenging the grand jury proceedings was not

19

likely to succeed, Sauceda is unable to establish any prejudice arising from counsel’s

20

performance in failing to file a special action.

21

Sauceda also argues his trial counsel was ineffective for failing to object to the jury

22

instructions because they did not include a lesser-included offense instruction. In his direct

23

appeal the state appellate court concluded:

24
25
26
27
28

Prior to settlement of jury instructions, Defendant submitted a
memorandum requesting that the jury be instructed on the lesser-included
offenses of second degree murder and manslaughter in regard to the charge
of first degree murder (Count One) and to attempted second degree murder
with respect to the two charges of attempted first degree murder (Counts Two
and Three). The trial court granted the request for the lesser-included offense
instructions in regard to Count One. There was, however, no discussion by
the trial court and counsel as to lesser-included offense instructions in regard

15

- 12 -

Case 2:19-cv-01132-NVW Document 12 Filed 04/13/20 Page 13 of 26

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26

to Counts Two and Three, and no objection by Defendant to the absence of
such instructions in the final instructions to the jury. Because Defendant did
not object to the trial court’s failure to instruct on attempted second degree
murder as a lesser-included offense on the two counts of attempted first
degree murder, our review of this claim of error is limited to fundamental
error. See Ariz. R. Crim. P. 21.3.c []; State v. Rivera, 152 Ariz. 507, 516 []
(1987) [].
The lack of the lesser-included offense instruction in regard to the two
counts of attempted first degree murder does not rise to the level of
fundamental error because it did not interfere with defendant’s ability to
conduct his defense. The defense at trial was that Defendant was not the
shooter, not that he acted with a lesser culpable mental state. Defendant was
fully able to present this defense even in the absence of an instruction on the
lesser-included offense of attempted second degree murder.
Moreover, to obtain relief under fundamental error review, the
defendant bears the burden of establishing not only the existence of
fundamental error, but also that the error in his case caused him actual
prejudice. State v. Henderson, 210 Ariz. 561, 567 [] (2005). The showing of
prejudice that must be made depends on the type of error that occurred and
the facts of the particular case. Id. at 568 [].
In the present case, the trial court instructed on two lesser-included
offenses in regard to the charge of first degree murder, but the jury
nevertheless found Defendant guilty on the greater offense as charged. The
victim, with respect to the first degree murder charge, was Defendant’s best
friend. The State’s theory on this charge was that Defendant accidently killed
his friend while attempting to deliberately kill the other victims and was
therefore guilty of first degree murder based on “transferred intent.” Under
the doctrine of transferred intent, when an assailant aims at one person and
hits another, the felonious intent toward the intended victim is transferred to
the actual victim. State v. Johnson, 205 Ariz. 413, 419 [] (App. 2003).
Consequently, to find Defendant guilty of premeditated first degree murder
of his friend, the jury had to necessarily conclude that Defendant deliberately
and with premeditation attempted to kill the other victims. Under these
circumstances, Defendant cannot meet his burden of showing any likelihood
that the jury would have found him guilty of a lesser offense on the two
counts of attempted first degree murder if a lesser-included offense
instruction had been given.
Sauceda, 2011 WL 2517250, at *5-6 (emphasis added and parentheticals omitted).

27

In his first Rule 32 action Sauceda asserted counsel’s failure to seek a lesser-

28

included offense instruction constituted ineffective assistance of counsel. The state

16

- 13 -

Case 2:19-cv-01132-NVW Document 12 Filed 04/13/20 Page 14 of 26

1

appellate court denied relief on this claim, determining: “We agree with the [state habeas

2

trial] court that Sauceda cannot show prejudice. We determined on appeal that Sauceda

3

was not prejudiced by the absence of those instructions. Thus, he cannot demonstrate

4

prejudice based on counsel’s failure to object.” Sauceda, 2015 WL 3648019, at *2. This

5

conclusion was not an unreasonable application of Strickland, because counsel’s choice of

6

a sound defense strategy, and any decisions made regarding the implementation of that

7

strategy, are “virtually unchallengeable.” Strickland, 466 U.S. at 690. See also Ayala v.

8

Chappell, 829 F.3d 1081, 1103 (9th Cir. 2016). It is well settled that “counsel’s tactical

9

decisions at trial . . . are given great deference and must similarly meet only objectively

10

reasonable standards.” Elmore v. Sinclair, 799 F.3d 1238, 1250 (9th Cir. 2015). See also

11

Reynoso v. Giurbino, 462 F.3d 1099, 1112 (9th Cir. 2006) (“trial counsel is typically

12

afforded leeway in making tactical decisions regarding trial strategy”). A defense attorney

13

may make a “strategic decision” not to request a lesser-included offense instruction. See

14

Matylinsky v. Budge, 577 F.3d 1083, 1092 (9th Cir. 2009); Butcher v. Marquez, 758 F.2d

15

373, 376 (9th Cir. 1985) (“Under the Strickland test, counsel’s strategic choice to forgo [a

16

lesser-included] instruction for voluntary manslaughter was reasonable because counsel

17

had good cause to believe that further efforts to obtain such an instruction would harm [the

18

defendant’s] case.”). The Ninth Circuit Court of Appeals has recognized that it can “be

19

reasonable for a defense attorney to opt for an ‘all-or-nothing’ strategy, forcing the jury to

20

choose between convicting on a severe offense and acquitting the defendant altogether.”

21

Crace v. Herzog, 798 F.3d 840, 852 (9th Cir. 2015).

22

The petitioner bears the burden of demonstrating that his attorney’s decision to not

23

request a lesser-included offense instruction was other than a “reasonable strategic

24

decision.” Matylinksy, 577 F.3d at 1092. Sauceda makes no such showing. Furthermore,

25

when considering whether a habeas petitioner was prejudiced by his counsel’s alleged

26

errors, “the question is whether there is a reasonable probability that, absent the errors, the

27

factfinder would have had a reasonable doubt respecting guilt.” Strickland, 466 U.S. at 695.

28

When answering this question the federal habeas court must necessarily consider the

17

- 14 -

Case 2:19-cv-01132-NVW Document 12 Filed 04/13/20 Page 15 of 26

1

strength of the state’s case against the petitioner. Djerf v. Ryan, 931 F.3d 870, 883 (9th Cir.

2

2019); Allen v. Woodford, 395 F.3d 979, 999 (9th Cir. 2005) (“even if counsel’s conduct

3

was arguably deficient, in light of the overwhelming evidence of guilt, [the petitioner]

4

cannot establish prejudice”); Johnson v. Baldwin, 114 F.3d 835, 839-40 (9th Cir. 1997). In

5

this matter, the evidence against Sauceda was extensive. Sauceda has not met his burden

6

of demonstrating his attorney’s decision to not request the lesser-included instruction was

7

other than a strategic choice, and he fails to establish the requisite prejudice.

8

Sauceda also alleges his appellate counsel failed to include an issue of jury

9

instructions on “intoxication” and “premeditation.” In his first Rule 32 action the appellate

10

court determined this claim was procedurally defaulted:

15

Sauceda briefly discusses his claims that appellate counsel was
ineffective in failing to raise on appeal the denial of his new trial motion and
his request for an intoxication instruction. However, he does not argue the
trial court erred in rejecting those claims, instead stating he wishes to
preserve them for future proceedings. The failure to argue a claim on review
constitutes waiver of that claim, and we therefore do not address these issues
further. Cf. Bolton, 182 Ariz. at 298, 896 P.2d at 838.

16

Sauceda, 2015 WL 3648019, at *3. The state appellate court found these claims waived by

17

an adequate and independent state procedural rule and, therefore, these claims are

18

procedurally barred. See, e.g., Ylst v. Nunnemaker, 501 U.S. 797, 802 (1991); Coleman v.

19

Thompson, 501 U.S. 722, 727-28 (1991); Szabo v. Walls, 313 F.3d 392, 395 (7th Cir. 2002).

20

“If a prisoner has defaulted a state claim by ‘violating a state procedural rule which would

21

constitute adequate and independent grounds to bar direct review . . . he may not raise the

22

claim in federal habeas, absent a showing of cause and prejudice or actual innocence.’”

23

Ellis v. Armenakis, 222 F.3d 627, 632 (9th Cir. 2000), quoting Wells v. Maass, 28 F.3d

24

1005, 1008 (9th Cir. 1994). However, notwithstanding the procedural default, Sauceda’s

25

claim asserting ineffective assistance of appellate counsel may be denied on the merits. See

26

Ayala v. Chappell, 829 F.3d 1081, 1096 (9th Cir. 2016); Wafer v. Hedgpeth, 627 F. App’x

27

586, 587 (9th Cir. 2015), citing Runningeagle, 686 F.3d at 777 n.10; Salvador Montes v.

28

Ryan, 2019 WL 2011065, at *6 (D. Ariz. Apr. 3, 2019.

11
12
13
14

18

- 15 -

Case 2:19-cv-01132-NVW Document 12 Filed 04/13/20 Page 16 of 26

1

To succeed on a claim of ineffective assistance of appellate counsel,

2

. . . the petitioner [must] demonstrate that counsel acted unreasonably
in failing to discover and brief a merit-worthy issue. Smith, 528 U.S. at 285;
Wildman v. Johnson, 261 F.3d 832, 841-42 (9th Cir. 2001). Second, the
petitioner must show prejudice, which in this context means that the
petitioner must demonstrate a reasonable probability that, but for appellate
counsel’s failure to raise the issue, the petitioner would have prevailed in his
appeal.

3
4
5
6
7

Moormann v. Ryan, 628 F.3d 1102, 1106 (9th Cir. 2010).

8

Appellate counsel “need not (and should not) raise every nonfrivolous claim, but

9

rather may select from among them in order to maximize the likelihood of success on

10

appeal,” and to establish prejudice the habeas petitioner must demonstrate the issue counsel

11

failed to raise was “stronger” than the issues counsel did raise. Smith v. Robbins, 528 U.S.

12

259, 288 (2000).

17

In many instances, appellate counsel will fail to raise an issue because she
foresees little or no likelihood of success on that issue; indeed, the weeding
out of weaker issues is widely recognized as one of the hallmarks of effective
appellate advocacy. . . . Appellate counsel will therefore frequently remain
above an objective standard of competence (prong one) and have caused her
client no prejudice (prong two) for the same reason—because she declined
to raise a weak issue.

18

Miller v. Keeney, 882 F.2d 1428, 1434 (9th Cir. 1989) (citations and footnotes omitted),

19

quoted in Hurles v. Ryan, 188 F. Supp. 3d 907, 922 (D. Ariz. 2016).

13
14
15
16

20

A thorough review of the entire record in this matter, including the appellate briefs

21

filed by counsel on Sauceda’s behalf, reveal that appellate counsel was thoroughly familiar

22

with the entire record in this matter, raised all plausible claims on Sauceda’s behalf, and

23

thoroughly and persuasively argued and briefed each plausible claim to the Arizona Court

24

of Appeals. See Appellant’s Opening Brief, Sauceda, 2010 WL 3391172; Appellant’s

25

Supplemental Brief, State v. Sauceda, 2010 WL 5484521 and 2010 WL 5484521 (Ariz.

26

Ct. App. Nov. 12, 2010); Appellant’s Reply Brief, State v. Sauceda, 2011 WL 10549412

27

(Ariz. Ct. App. June 3, 2011). Sauceda makes only a conclusory, unsupported allegation

28

that appellate counsel’s performance was deficient because counsel failed to assert he

19

- 16 -

Case 2:19-cv-01132-NVW Document 12 Filed 04/13/20 Page 17 of 26

1

should have been given a jury instruction on intoxication and premeditation, and he makes

2

no showing that these claims “merit-worthy.”8

3

Sauceda maintains his trial counsel was ineffective for failing to introduce the

4

medical records of Carlos Sanchez and to bring the report of Dr. Zacher, who treated Mr.

5

Sanchez, to the attention of the jury. Sauceda did not exhaust this claim in the state courts

6

and the claim is procedurally defaulted. However, the claim may be denied on the merits

7

because Sauceda is unable to establish any prejudice, i.e., that had counsel presented this

8

specific evidence to the jury the verdict would have been different. The state habeas trial

9

court concluded, in considering this evidence in a different context, that “whatever

10

exculpatory value that evidence may have had, it did not establish [Sauceda’s] innocence

11

in light of eyewitness testimony identifying him as the shooter.” Sauceda, 2018 WL

12

1467377, at *1.

13

Sauceda’s trial counsel explored the relevant issue with regard to Dr. Zacher’s report

14

in his examination of Dr. Zacher. On appeal, with regard to Sauceda’s Willits claim, the

15

State cited the trial transcript:

16
17
18
19
20
21
22
23
24
25
26
27
28

[DEFENSE COUNSEL]: All right then. Going to [Carlos], you
testified that he had a gunshot wound to the head?
[Dr. Zacher]. Yeah, that’s correct.
First one.
Q. I believe he had two entry wounds and one on the left front parietal
and the other on the left frontal and the other was right parietal, does that
sound right?
A. Uh-hum.
Q. Now, there were no exit wounds, correct?
A. Correct.
Q. And, in fact, he underwent surgery where later some of the bullet
fragments were removed?
A. They were.
8

And, as found by the trial court:
As Defendant was not entitled to an intoxication instruction under Arizona law,
appellate counsel’s failure to challenge the trial court’s denial of such an instruction
does not constitute deficient performance under prevailing professional norms. Nor
can Defendant show he was prejudiced by the trial court’s failure to give an
instruction that is contrary to existing law and to which Defendant was not entitled.
(ECF No. 1-6 at 6).

20

- 17 -

Case 2:19-cv-01132-NVW Document 12 Filed 04/13/20 Page 18 of 26

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Q. And those fragments would have been provided to the police,
correct?
A. Yes.
Q. Protocol for that?
A. I don’t know about protocol. We handed those directly off to the
police officers usually waiting right outside the operating room.
Q. If they’re not there, there is a procedure that you utilize?
A. I believe there is.
Q. Are you personally aware of the procedure?
A. No.
(R.T. 8/12/08 [p.m.], at 42-43.) After this testimony, neither the prosecutor
nor the jurors had any questions of Dr. Zacher, and he was excused as a
witness.
Detective Lowe also testified that, throughout the investigation,
detectives spoke to Ivan, Marcus, Jose Peter and German, and they “all
identified [Appellant] as the person who shot the gun and the person firing
it,” and that “there was no evidence of any other type of weapon [that] was
used inside the house.” (R.T. 8/05/08, at 123.)
Jurors asked Detective Lowe “[h]ow many nine millimeter casings
were recovered,” and he responded, “Seven.” (R.T. 8/05/08, at 124.) Jurors
asked Lowe “[h]ow many nine millimeter projectiles were recovered,” and
he responded, “Well, we recovered five projectiles at the scene itself. They
were all consistent with a nine millimeter .38 caliber which is almost exactly
the same and then there were two that were in [Jose].” (Id. at 124-25.)
Detective Lowe testified that “all of the casings were fired by the same
weapon.” (Id. at 136.)
On August 14, 2008, defense counsel filed a memorandum in support
of the defenses request for a Willits instruction, asserting that the police, “by
failing to preserve the bullets and or bullet fragments that entered Carlos[’]
[] head, Sauceda was deprived of a meaningful opportunity to contest the
conclusions of the state’s witnesses regarding the state’s theory behind how
the shooting was committed. . .” (R.O.A., Item 363, at 2.) The defense
asserted that there were at least two projectiles “that [were not accounted for
because they never exited Carlos[’] head,” arguing that “while the state did
not literally rely on the unpreserved projectiles, it did rely on their absence
to support its case.” (R.O.A., Item 363, at 3-4.) Defense counsel contended
that failure “to recover or preserve the projectiles in Carlos has eliminated
any opportunity to examine the projectiles to determine if they are of a
different caliber or different type of projectile and/or if they contain markings
similar to the projectiles recovered at the scene.” (R.O.A., Item 363, at 5.)
The State did not file a written response to Appellant’s Willits request.
The court and the parties discussed jury instructions prior to
submitting the matter to the jury. The court stated it “found no basis in the

21

- 18 -

Case 2:19-cv-01132-NVW Document 12 Filed 04/13/20 Page 19 of 26

1
2
3
4

evidence for the Court to give a Willits instruction, meaning that somehow
the State mishandled or destroyed or otherwise did something improper
regarding the handling of the casings or the bullets or any other evidence in
which were - which were found at the scene.” (R.T. 8/15/09, at 3.)
Appellee’s Answering Brief, Sauceda, 2010 WL 9446084, at *34-37.

5

Counsel’s choice to explore the information available from Dr. Zacher through

6

examination of this witness, rather than through introducing his report as evidence, was

7

presumably a strategic decision and Sauceda has not established he was prejudiced by

8

counsel’s failure to introduce the report in addition to Dr. Zacher’s testimony. Furthermore,

9

given the weight of the evidence against Sauceda, there was no reasonable probability that

10

presenting the additional evidence would have resulted in a different verdict. See

11

Wainwright v. Sykes, 433 U.S. 72, 91 (1977) (“A petitioner suffers no actual prejudice

12

when ‘[t]he other evidence of guilt presented at trial . . . was substantial to a degree that

13

would negate’ the alleged prejudice caused by the allegedly unconstitutional action.”).

14

Sauceda contends trial counsel was ineffective because counsel failed to object to

15

the lack of a Willits instruction, which limited the appellate court to reviewing Sauceda’s

16

Willits claim under the fundamental error standard rather than the more lenient abuse of

17

discretion standard. In denying Sauceda’s Willits claim the appellate court found and

18

concluded:

19
20
21
22
23
24
25
26
27
28

Defendant next argues that the trial court erred by refusing his request
for a Willits instruction based on the absence at trial of bullet fragments
removed from the head of one of the wounded victims. See generally State
v. Willits, 96 Ariz. 184, 393 P.2d 274 (1964). A Willits instruction permits
the jury to draw an inference from the State’s failure to preserve material
evidence that the lost or destroyed evidence would be unfavorable to the
State. State v. Fulminante, 193 Ariz. 485, 503 [] (1999). Defendant maintains
that the absence of the bullet fragments deprived him of the ability to test the
fragments and prove another gunman may have been responsible for the
murder and attempted murder charges. In denying Defendant’s request, the
trial court ruled that the evidence was insufficient to show “that the police
had and discarded or destroyed, lost, or otherwise mishandled any of those
fragments.”
To be entitled to a Willits instruction, Defendant must show: (1) the
State failed to preserve accessible, material evidence that “might tend to

22

- 19 -

Case 2:19-cv-01132-NVW Document 12 Filed 04/13/20 Page 20 of 26

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23

exonerate him;” and (2) prejudice resulted. Id. A defendant, however, is not
entitled to a Willits instruction “merely because a more exhaustive
investigation could have been made.” State v. Murray, 184 Ariz. 9, 33 []
(1995). “Whether either showing has been made . . . is a question for the trial
court,” and the refusal to give a Willits instruction “will not be reversed
absent a clear abuse of discretion.” State v. Perez, 141 Ariz. 459, 464 []
(1984).
We agree with the trial court that the evidence at trial does not show
that the State lost, destroyed, or failed to preserve the bullet fragments. A
surgeon [Dr. Zacher] testified that bullet fragments were removed from the
victim who had been shot twice in the head. When asked what happened to
the fragments, the surgeon indicated such items are “usually” given to an
officer waiting outside the operating room. The surgeon further testified that
when an officer is not present, there is some other procedure followed by the
hospital but that he had no knowledge of that procedure. This evidence does
not establish that the fragments were lost or destroyed by the police. There
was no evidence the fragments were actually given to the police. Nor was
there any evidence the fragments are not still in the possession of the hospital.
Absent evidence that the hospital does not have the fragments in its
possession (and, therefore, available for testing by Defendant), there was no
abuse of discretion by the trial court in refusing to give a Willits instruction.
Further, Defendant fails to show that the bullet fragments have
exculpatory value. The police recovered seven nine-millimeter casings and
five nine-millimeter projectiles at the scene. A criminalist testified all seven
casings were fired from the same weapon. Defendant does not offer any
specifics regarding the nature or size of the fragments of the other two
projectiles removed from the victim’s head at the hospital or make any
showing that testing of the fragments would tend to exculpate him or
otherwise support his theory of more than one shooter. On this record, we
cannot conclude that Defendant was prejudiced by any unavailability of the
bullet fragments. See State v. Dunlap, 187 Ariz. 441, 464 [] (App. 1996)
(holding defendant not entitled to Willits instruction when claim that lost or
destroyed evidence is exculpatory is “entirely speculative”).
Sauceda, 2011 WL 2517250, at *4.

24

This ineffective assistance of counsel claim fails because Sauceda is unable to

25

establish that, but for his counsel’s alleged error, the result of his criminal proceeding, i.e.,

26

his appeal, would have been different. As evidenced by the appellate court’s consideration

27

and rejection of the substantive Willits claim as recited supra, under either standard of

28

review Sauceda’s Willits claim was without merit. Counsel “is not necessarily ineffective

23

- 20 -

Case 2:19-cv-01132-NVW Document 12 Filed 04/13/20 Page 21 of 26

1

for failing to raise even a non-frivolous claim,” much less a frivolous claim. Sexton v.

2

Cozner, 679 F.3d 1150, 1157 (9th Cir. 2012). See also Juan H. v. Allen, 408 F.3d 1262,

3

1273 (9th Cir. 2005); Rupe v. Wood, 93 F.3d 1434, 1445 (9th Cir. 1996) (holding counsel’s

4

failure to take a futile action can never be deficient performance). Cf. Moormann, 628 F.3d

5

at 1107) (holding that, if there is no underlying error, “appellate counsel did not act

6

unreasonably in failing to raise a meritless claim” and petitioner “was not prejudiced by

7

appellate counsel’s omission”).

8

Sauceda contends his post-conviction counsel’s performance was unconstitutionally

9

deficient. He raised this claim in his second Rule 32 action and the state appellate court

10
11
12
13
14
15
16
17
18
19
20
21

concluded:
Sauceda next asserts, citing Martinez v. Ryan, 566 U.S. 1 (2012), that
he is entitled to raise a claim of ineffective assistance of Rule 32 counsel as
an “equitable remedy” because he was appointed counsel. In Martinez, the
United States Supreme Court concluded that defendants have an “equitable”
but not constitutional, “right to the effective assistance of initial postconviction counsel,” but “it limited its decision to the application of
procedural default in federal habeas review.” State v. Escareno–Meraz, 232
Ariz. 586, ¶ 5 (App. 2013). As this court has explained, “Martinez does not
alter established Arizona law,” id. ¶ 6, that a non-pleading defendant cannot
raise a claim of ineffective post-conviction counsel, id. ¶ 4. Further, in
Escareno–Meraz, we concluded we lacked the authority to disregard our
supreme court and “create a right for non-pleading defendants to effective
representation in Rule 32 proceedings” and, in any event, found “no basis to
do so.” Id. ¶ 6. Sauceda has offered nothing to suggest we can or should chart
a different course here.
Sauceda, 2018 WL 1467377, at *2.

22

The state court’s denial of relief on this claim was not contrary to clearly established

23

federal law because the United States Supreme Court has never held that a state defendant

24

has a Sixth Amendment right to the effective assistance of counsel beyond his first appeal

25

“as of right.” Martinez did not establish a federal constitutional right to the effective

26

assistance of post-conviction counsel; instead, in Martinez the Supreme Court held that a

27

pleading defendant can assert his post-conviction counsel was ineffective as cause for their

28

failure to properly exhaust an ineffective assistance of trial counsel claim in the state courts.

24

- 21 -

Case 2:19-cv-01132-NVW Document 12 Filed 04/13/20 Page 22 of 26

Newly discovered “facts”

1

2.

2

Sauceda asserts he is entitled to federal habeas relief because he has presented newly

3

discovered “facts” which, if presented to the jury, would probably have changed the

4

verdict. The allegedly newly discovered evidence is:

5
6
7
8
9
10
11
12
13
14
15
16
17
18

(i) Dr. Zacher’s Medical Report. Mr. Sauceda was unaware during the
trial that in the medical records of Carlos Sanchez was the report of Dr.
Zacher, which stated the bullet fragments were turned over to the authorities.
Mr. Sauceda’s defense counsel never attempted to have the medical records
admitted to evidence. The court and jury were never made aware of definitive
proof that Dr. Zacher had turned the bullet fragments over to the police. . . .
The jury did not have before it the fact that bullet fragments were recovered
from the head of one of the victims. The State’s ballistics expert testified that
certain shell casings had marks that he would never expect to see from a
Glock. There are bullets that were never tested and shell casings that were
not accounted for.
(ii) The Declaration of Sherise Ulibarri. Neither defense counsel nor
the State called this witness at trial. While she was with Mr. Sauceda on the
night of the incident, defense counsel did not subpoena her or call her as
witness in the trial. The jury never heard any testimony she would give.
(iii) The Declaration of Steven Deleon. Neither defense counsel nor
the State called this witness at trial. While he was with Mr. Sauceda on the
night of the incident, defense counsel did not subpoena him or call him as
witness in the trial. The jury never heard any testimony he would give.
(ECF No. 1 at 6-7).

19

Sauceda presented a claim of newly discovered evidence in his second Rule 32

20

action. The state court analyzed Sauceda’s claim that newly discovered evidence entitled

21

him to relief under the standard for review set out in Rule 32, and affirmed the state habeas

22

trial court’s conclusion that the evidence was not newly discovered. Sauceda, 2018 WL

23

1467377, at *2.

24

Even if the evidence was “newly discovered,” the Court can grant habeas relief

25

“only on the ground that [a petitioner] is in custody in violation of the Constitution or laws

26

or treaties of the United States.” 28 U.S.C. § 2254(a). The mere existence of newly

27

discovered evidence relevant to guilt is not grounds for federal habeas relief. E.g., Gordon

28

v. Duran, 895 F.2d 610, 614 (9th Cir. 1990). The Supreme Court has never recognized

25

- 22 -

Case 2:19-cv-01132-NVW Document 12 Filed 04/13/20 Page 23 of 26

1

factual innocence as a free-standing constitutional claim, but rather has specifically held it

2

is not a free-standing constitutional claim. Herrera v. Collins, 506 U.S. 390, 400 (1993)

3

(“Claims of actual innocence based on newly discovered evidence have never been held to

4

state a ground for federal habeas relief absent an independent constitutional violation

5

occurring in the underlying state criminal proceeding.”). Post-conviction evidence serving

6

only to “undercut the evidence presented at trial” does not warrant federal habeas relief.

7

Carriger v. Stewart, 132 F.3d 463, 477 (9th Cir. 1997). Furthermore, “[n]ewly discovered

8

evidence is a ground for habeas relief only when it bears on the constitutionality” of the

9

petitioner’s conviction and “would probably produce an acquittal.” Spivey v. Rocha, 194

10

F.3d 971, 979 (9th Cir. 1999), citing Swan v. Peterson, 6 F.3d 1373, 1384 (9th Cir. 1993).

11

See also Turner v. Calderon, 281 F.3d 851, 872 (9th Cir. 2002) (rejecting habeas claim

12

based upon newly discovered evidence because the petitioner “neither allege[d] an

13

independent constitutional violation nor present[ed] affirmative proof of his innocence”).

14

“This rule is grounded in the principle that federal habeas courts sit to ensure that

15

individuals are not imprisoned in violation of the Constitution— not to correct errors of

16

fact.” Herrera, 506 U.S. at 400, citing Moore v. Dempsey, 261 U.S. 86, 87-88 (1923)

17

(“[W]hat we have to deal with [on habeas review] is not the petitioners’ innocence or guilt

18

but solely the question whether their constitutional rights have been preserved”).

19

“New” evidence does not meet the requisite standard if the evidence does not

20

undermine the structure of prosecution’s case. Spivey, 194 F.3d at 979. “Evidence which

21

suggests only that some other individual might have committed the crime rather than

22

showing that the defendant did not commit the crime is insufficient to meet the ‘probability

23

of acquittal’ standard.” Jeffries v. Blodgett, 5 F.3d 1180, 1188 (9th Cir. 1993). Evidence

24

that merely casts doubt on the petitioner’s guilt, but does not affirmatively prove innocence,

25

is insufficient to merit relief on a claim of actual innocence. See House v. Bell, 547 U.S.

26

518, 555 (2006) (rejecting freestanding actual innocence claim even though the petitioner

27

had “cast considerable doubt on his guilt”); Jackson v. Calderon, 211 F.3d 1148, 1165 (9th

28

26

- 23 -

Case 2:19-cv-01132-NVW Document 12 Filed 04/13/20 Page 24 of 26

1

Cir. 2000) (rejecting a freestanding actual innocence claim even though the petitioner’s

2

new evidence “certainly cast doubt on his conviction”).

3

Sauceda is unable to establish that the “newly discovered” evidence is either newly

4

discovered or that it would probably produce an acquittal, and he has not established the

5

violation of a constitutional right in his state criminal proceedings. To the extent Sauceda’s

6

claim can be understood as a freestanding claim that the newly discovered evidence shows

7

that he is actually innocent, as explained more fully infra, his claim is also not cognizable

8

on habeas review.

9

3.

Actual innocence

10

Sauceda argues:

11

Mr. Sauceda demonstrated through the medical report of Dr. Zacher and the
declarations of Mr. Deleon and Ms. Ulibarri his actual innocence. Had this
evidence been presented no reasonable jury would have convicted Mr.
Sauceda. Contrary to the Court’s statements, the testimony of Mr.
Dominguez, Mr. Villagrana, and Mr. Borja were inconsistent with prior
statements. The only testimony that could have been presented without
impeachment is the testimony by Mr. Deleon and Ms. Ulibarri. Both of their
declarations corroborate each other.

12
13
14
15
16
17
18
19
20
21
22
23
24
25
26

(ECF No. 1 at 7).
Sauceda raised this claim in his second Rule 32 action. The state trial court denied
relief, and the state appellate court affirmed the denial of relief:
To prevail on a claim of actual innocence under Rule 32.1(h), Sauceda is
required to show “by clear and convincing evidence that the facts underlying
the claim would be sufficient to establish that no reasonable fact-finder
would find the defendant guilty beyond a reasonable doubt.” As the trial
court pointed out, Sauceda has ignored the evidence presented at trial
identifying him as the shooter. In light of that evidence, we agree with the
court that Sauceda has not shown that “no reasonable fact-finder” could have
rejected the testimony of both his then-girlfriend and his childhood friend
and found him guilty.
Sauceda, 2018 WL 1467377, at *2.

27

Sauceda is not entitled to federal habeas relief on his claim of actual innocence of

28

the criminal acts underlying his conviction. See Coley v. Gonzalez, 55 F.3d 1385, 1387 (9th

27

- 24 -

Case 2:19-cv-01132-NVW Document 12 Filed 04/13/20 Page 25 of 26

1

Cir. 1995). Even if his claim of innocence was a cognizable claim in this habeas

2

proceeding, Sauceda has not offered any evidence that affirmatively proves his innocence.

3

See Jones v. Taylor, 763 F.3d 1242, 1251 (9th Cir. 2014) (“The most that can be said of

4

the new testimony is that it undercuts the evidence presented at trial. Evidence that merely

5

undercuts trial testimony or casts doubt on the petitioner’s guilt, but does not affirmatively

6

prove innocence, is insufficient to merit relief on a freestanding claim of actual

7

innocence.”). In Carriger the Ninth Circuit Court of Appeals noted that, to be entitled to

8

habeas relief based on a claim of actual innocence, the evidence presented by the petitioner

9

to the habeas court would have to be “truly persuasive.” 132 F.3d at 476-77 (holding the

10

petitioner would have to go beyond establishing doubt about his guilt and affirmatively

11

establish his innocence, noting the petitioner had “presented no evidence, for example,

12

demonstrating he was elsewhere at the time of the murder, nor [was] there any new and

13

reliable physical evidence, such as DNA, that would preclude the possibility of guilt.”).

14

Thus, to the extent that Sauceda asserts a free-standing claim of actual innocence based on

15

newly discovered evidence, the claim must be denied.

16

IV.

17

Sauceda’s federal habeas petition was filed within the one-year statute of limitations

18

specified by the AEDPA. The state court’s denial of relief on his ineffective assistance of

19

counsel claims was not an unreasonable application of Strickland and the claims that were

20

procedurally defaulted in the state courts may be denied on the merits. Sauceda’s claim

21

that he has newly discovered evidence warranting habeas relief is both not cognizable and

22

without merit and his claim of actual innocence is not cognizable.

Conclusion

23
24
25

IT IS THEREFORE RECOMMENDED that Sauceda’s petition seeking a
federal writ of habeas corpus (ECF No. 1) be DENIED.

26

This recommendation is not an order that is immediately appealable to the Ninth

27

Circuit Court of Appeals. Any notice of appeal pursuant to Rule 4(a)(1), Federal Rules of

28

Appellate Procedure, should not be filed until entry of the District Court’s judgment.

28

- 25 -

Case 2:19-cv-01132-NVW Document 12 Filed 04/13/20 Page 26 of 26

1

Pursuant to Rule 72(b), Federal Rules of Civil Procedure, the parties shall have

2

fourteen (14) days from the date of service of a copy of this recommendation within which

3

to file specific written objections with the Court. Thereafter, the parties have fourteen (14)

4

days within which to file a response to the objections. Pursuant to Rule 7.2, Local Rules of

5

Civil Procedure for the United States District Court for the District of Arizona, objections

6

to the Report and Recommendation may not exceed seventeen (17) pages in length.

7

Failure to timely file objections to any factual or legal determinations of the

8

Magistrate Judge will be considered a waiver of a party’s right to de novo appellate

9

consideration of the issues. See United States v. Reyna–Tapia, 328 F.3d 1114, 1121 (9th

10

Cir. 2003) (en banc). Failure to timely file objections to any factual or legal determinations

11

of the Magistrate Judge will constitute a waiver of a party’s right to appellate review of the

12

findings of fact and conclusions of law in an order or judgment entered pursuant to the

13

recommendation of the Magistrate Judge.

14

Pursuant to 28 U.S.C. foll. § 2254, R. 11, the District Court must “issue or deny a

15

certificate of appealability when it enters a final order adverse to the applicant.” The

16

undersigned recommends that, should the Report and Recommendation be adopted and,

17

should Sauceda seek a certificate of appealability, a certificate of appealability should be

18

denied because he has not made a substantial showing of the denial of a constitutional right.

19

Dated this 13th day of April, 2020.

20
21
22
23
24
25
26
27
28

29

- 26 -

Case: 20-16038, 12/07/2020, ID: 11917502, DktEntry: 6, Page 1 of 25

Sandra L. Slaton, Bar No. 006454
HORNE SLATON, PLLC
6720 N. Scottsdale Rd., Suite 285
Scottsdale, Arizona 85253
Tel. 480-483-2178
Fax. 480-367-0691 fax
slaton@horneslaton.com
Attorney for Petitioner Isidro Sauceda
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Isidro Sauceda,

Case No.: 20-16038
Petitioner/Appellant,

V.
Charles L. Ryan, Director of the
Arizona Department of Corrections,
Respondent/Appellee,
And
The Attorney General of the State of
Arizona,
Additional
Respondent.

30

D.C. No. 2:19-cv-01132-NVW
District of Arizona
Petition for Rehearing En Banc

Case: 20-16038, 12/07/2020, ID: 11917502, DktEntry: 6, Page 2 of 25

TABLE OF CONTENTS
TABLE OF AUTHORITIES ............................................................................... ii
I.

INTRODUCTION ......................................................................................1

II.

REASON WHY COURT SHOULD GRANT EN BANC REVIEW ......... 2

III.

STANDARD OF REVIEW........................................................................ 5

IV.

ARGUMENT..............................................................................................5

V.

A.

Appellant Has Made A Substantial Showing Of The Denial Of His
Sixth Amendment Constitutional Right To Effective Assistance Of
Counsel Regarding Trial Counsel’s Admitted Failure To Ensure
That There Was A Lesser-Included Instruction Or To Even Create
A Record On Such Issue: ................................................................. 5

B.

Appellant Made A Substantial Showing Of The Denial Of His
Sixth Amendment Constitutional Right To Effective Assistance
Of Counsel Regarding His Trial Counsel’s Failure To Object To
The Lack Of A Willits Instruction When He Had No Counsel
During His State Court PCR Proceeding Which Was The First
Time Appellant Could Bring Ineffective Assistance Of Counsel
Claims: .............................................................................................8

C.

Appellant Made A Substantial Showing Of The Denial Of His
Constitutional Right Of Effective Assistance of Counsel When His
Trial Attorney Did Not Duly Investigate Exculpatory Witness
Testimony Establishing That Appellant Was Factually Innocent
And Not The Shooter: ....................................................................12

D.

Appellant Has Presented A Convincing Claim Of Actual Innocence
When Exculpatory Evidence Would Have Shown: (1) He Was Not
Wearing “Red” Clothing, As The State Argued Throughout Its
Case; (2) Was Not In A Gang; and (3) Did Not Have A Gun On
The Night In Question, Establishing By Definition That He Was
Not The Shooter: ............................................................................16

CONCLUSION ........................................................................................18

31

Case: 20-16038, 12/07/2020, ID: 11917502, DktEntry: 6, Page 3 of 25

CERTIFICATE OF SERVICE ...........................................................................19
CERTIFICATE OF COMPLIANCE ..................................................................20

32

Case: 20-16038, 12/07/2020, ID: 11917502, DktEntry: 6, Page 4 of 25

TABLE OF AUTHORITIES
Page(s)

Federal Cases
Atonio v. Wards Cove Packing Co.,

810 F.2d 1477 (9th Cir. 1987) ............................................................................. 3
Beck v. Alabama,
447 U.S. 625 (1980) ............................................................................................ 7
Canales v. Davis,
740 F. App'x 432 (5th Cir. 2018) ...................................................................... 11
Carriger v. Stewart,
132 F.3d 463 (9th Cir. 1997) ............................................................................... 4
Crace v. Herzog,
798 F.3d 840 (9th Cir. 2015) ............................................................................... 7
Detrich v. Ryan,
740 F.3d 1237 (9th Cir. 2013) ............................................................................. 9
Henry v. Ryan,
766 F.3d 1059 (9th Cir. 2014) ............................................................................. 3
Jones v. Ryan,
691 F.3d 1093 (9th Cir. 2012) ............................................................................. 8
Lambright v. Stewart,
220 F.3d 1022 (9th Cir. 2000) ..................................................................... 4, 6, 7
Lord v. Wood,
184 F.3d 1083 (9th Cir. 1999) ........................................................................... 13
Martinez v. Ryan,
566 U.S. 1 (2012) ................................................................................................ 9
Mayfield v. Woodford,
270 F.3d 915 (9th Cir. 2001) ............................................................................... 5
33

Case: 20-16038, 12/07/2020, ID: 11917502, DktEntry: 6, Page 5 of 25

McQuiggin v. Perkins,
569 U.S. 383 (2013) .......................................................................................... 16
Miller-El v. Cockrell,
537 U.S. 322 (2003) ............................................................................................ 5
Reynoso v. Giurbino,
462 F.3d 1099 (9th Cir. 2006) ....................................................................... 4, 12
Rios v. Rocha,
299 F.3d 796 (9th Cir. 2002) ....................................................................... 12, 13
Roybal v. Davis,
148 F. Supp. 3d 958 (S.D. Cal. 2015) ............................................................... 16
Slack v. McDaniel,
529 U.S. 473 (2000) ............................................................................................ 5
Strickland v. Washington,
466 U.S. 668 (1984) ............................................................................................ 6
Turner v. Calderon,
281 F.3d 851 (9th Cir. 2002) ......................................................................... 4, 11
United States v. Vargas-Lopez,
243 F.3d 552 (9th Cir. 2000) ............................................................................... 6
State Cases
State v. Willits,
96 Ariz. 184 (1964) ............................................................................................. 9
Federal Rules
Federal Rules of Appellate Procedure, Rule 35 .................................................... 3
Federal Rules of Appellate Procedure, Rule 40 .................................................... 3
Ninth Circuit Rule 27-10 ....................................................................................... 3

34

Case: 20-16038, 12/07/2020, ID: 11917502, DktEntry: 6, Page 6 of 25

I.

INTRODUCTION
Appellant, at the age of 29 years-old, was convicted of charges of first-

degree murder, two counts of attempted first-degree murder, one count of
aggravated assault, and one count of assisting a criminal street gang (which are
alleged to have occurred when he was just 24 years old) without any direct
evidence. This is one of the rare cases when Appellant’s assertion of innocence
is consistent with the undisputed facts. He was charged with being responsible
for the shooting spree that killed one person and injured three others. However,
there was no weapon presented at trial. Two of the bullets from the spree of shots
fired on the night in question were never made available to the defense for testing.
Although Appellant had never been part of a gang in his life, on the inconsistent
and contradictory testimony of prosecution witnesses, the State argued that
Appellant was the shooter because of gang affiliations based upon clothing color.
He was accused by the State of wearing “red” on the night in question.
During and after the trial, Appellant suffered from ineffective assistance of
counsel: Trial counsel admitted in an affidavit that he was ineffective in not
preserving the record on a lesser-included instruction to the jury.

Further,

Appellant’s counsel failed to request a Willits instruction even though the medical
witness established that bullets taken from the head of Carlos Sanchez had been
given to the police after they were removed in surgery.

35

Case: 20-16038, 12/07/2020, ID: 11917502, DktEntry: 6, Page 7 of 25

Years after the trial, counsel undersigned obtained affidavits from two
witnesses, never called at the jury trial, who testified that on the night in question
Appellant was not wearing the color red, did not possess a gun, and had never
been in a gang. These key witnesses would have been integral in exonerating
Appellant in his jury trial. Unfortunately, his defense counsel never bothered to
call them. This is a travesty.
Without this Court’s intervention, Appellant, an innocent man, will most
probably never receive the fair trial that he deserves. As discussed below, the
issues presented easily rise to the level of being “debatable among jurists,” thereby
justifying a certificate of appealability to issue. Otherwise, Appellant will remain
in prison for the rest of his life because the prosecution convinced the jury that he
was wearing red, which meant he was in a gang, and, therefore, was guilty of the
shooting death of the victim.
Appellant urges this Court to hear the certificate of appealability matter
en banc, reopen the case, and reverse the district court’s order denying Appellant
the certificate of appealability that he deserves.
II.

REASON WHY COURT SHOULD GRANT EN BANC REVIEW
Appellant was denied a Certificate of Appealability (“COA”) by the district

court. He moved for a COA in this Court which was denied on November 4, 2020.
(Docket Entry (“Docket”) 2, 3). Appellant timely moved for reconsideration,

36

Case: 20-16038, 12/07/2020, ID: 11917502, DktEntry: 6, Page 8 of 25

which was denied by a two-judge panel on November 23, 2020. (Docket 4, 5). In
denying the motion, the Motion Panel closed the case. (Docket 5).
Pursuant to Rule 35, FRAP, and Ninth Circuit Rule 27-10, Appellant
requests that this Court reopen the case and grant a rehearing en banc. Rule 2710 reads in pertinent part: “A party seeking further consideration of an order that
disposes of the entire case on the merits, terminates a case, or otherwise concludes
the proceedings in this Court must comply with the time limits of FRAP 40(a)(1).”
As stated by Judge Fletcher, in his concurrence in Henry v. Ryan, 766 F.3d 1059,
1061 (9th Cir. 2014):
Ninth Circuit Rule 27–10(b) specifically contemplates that orders
issued in response to motions may be reheard en banc, as does our
General Order 6.11. Our long-standing and consistent practice has
been to allow en banc calls of orders, [citation] even when those
orders have been entered after the panel's decision on the merits of a
case. See, e.g., Garcia v. Google, Inc., No. 12–57302, Docket Entry
No. 46 (9th Cir. Mar. 6, 2014) (order issued by our en banc
coordinator notifying the parties that an order of the three judge panel
“denying a stay of the panel's prior orders” had been called en banc,
and noting that “[t]he en banc call is confined to the stay order only,
and the parties should address only the order in the briefing”).
Id. at 1060. Similarly, here, Appellant timely and properly requests that this Court
consider his case en banc, only for the purpose of whether a Certificate of
Appealability should be issued.
En banc rehearing is permitted under Rule 35, FRAP. As stated in Atonio
v. Wards Cove Packing Co., 810 F.2d 1477, 1478–79 (9th Cir. 1987): “We now

37

Case: 20-16038, 12/07/2020, ID: 11917502, DktEntry: 6, Page 9 of 25

hold that the appropriate mechanism for resolving an irreconcilable conflict is an
en banc decision.” It is submitted that there is an internal conflict among the
decisions regarding the issuance of COAs. As discussed below, the Ninth Circuit
has granted COAs in cases similar to Appellant’s case, including in cases
regarding ineffective assistance of counsel for: (1) failing to make a record
regarding a lesser-included offense instruction (Lambright v. Stewart, 220 F.3d
1022, 1028 (9th Cir. 2000); (2) procedurally defaulted claims (Turner v. Calderon,
281 F.3d 851, 874 (9th Cir. 2002); and (3) failure to duly investigate exculpatory
evidence (Reynoso v. Giurbino, 462 F.3d 1099, 1112 (9th Cir. 2006).
Furthermore, rehearing en banc is warranted regarding questions of
exceptional importance. Carriger v. Stewart, 132 F.3d 463, 466 (9th Cir. 1997)
(granting en banc review because of the exceptional importance of issues
regarding whether a state may execute an individual whose guilt is shrouded in
doubt and who has raised serious claims of constitutional error). Similarly, in the
present case, (although not a death penalty one) Appellant has presented a
question of exceptional importance regarding factual innocence coupled with his
claims of ineffective assistance of counsel causing Appellant to be greatly
prejudiced. Absent a rehearing en banc by this Court, Appellant, an innocent man,
will be forced to spend the rest of his life behind bars.

38

Case: 20-16038, 12/07/2020, ID: 11917502, DktEntry: 6, Page 10 of 25

III.

STANDARD OF REVIEW
In Miller-El v. Cockrell, 537 U.S. 322, 327 (2003), Justice Kennedy stated:

“We do not require petitioner to prove, before the issuance of the certificate of
appealability, that some jurists would grant the petition for habeas corpus. Indeed,
a claim can be debatable even though every jurist of reason might agree, after the
certificate of appealability has been granted and the case received full
consideration, that petitioner will not prevail.” Id. at 338.
In so reasoning, the Court concluded inter alia: “[W]hen a habeas applicant
seeks permission to initiate appellate review of the dismissal of his petition, the
court of appeals should limit its examination to a threshold inquiry into the
underlying merit of his claims.” Id. at 327 (emphasis added) (citing Slack v.
McDaniel, 529 U.S. 473, 481 (2000)). The “debatable amongst jurists of reason”
inquiry has been interpreted as a very low barrier to the issuance of a COA. Id. at
338.
The Ninth Circuit has held “we resolve any doubt regarding whether to
issue a COA in favor of [the petitioner].”. Mayfield v. Woodford, 270 F.3d 915,
922 (9th Cir. 2001).
IV.

ARGUMENT
A.

Appellant Has Made A Substantial Showing Of The Denial Of
His Sixth Amendment Constitutional Right To Effective
Assistance Of Counsel Regarding Trial Counsel’s Admitted

39

Case: 20-16038, 12/07/2020, ID: 11917502, DktEntry: 6, Page 11 of 25

Failure To Ensure That There Was A Lesser-Included
Instruction Or To Even Create A Record On Such Issue:
At trial, not only did Appellant’s counsel fail to ensure that there was a
lesser-included offense instruction, but he also failed to create any record
regarding this issue. The affidavit of trial counsel specifically admitted that: “It
was my responsibility as counsel to object and make the necessary record so that
the denial of these lesser-included instructions would be preserved for appeal.”
(Docket 2, 6:15-23).
The affidavit by Appellant’s trial counsel establishes that his performance
was deficient. Where counsel admits their own error, the effective assistance of
counsel claim is ripe for consideration. See United States v. Vargas-Lopez, 243
F.3d 552 (9th Cir. 2000) (vacating conviction and sentence when counsel admitted
that his inadvertent failure to execute plea agreement was ineffective assistance of
counsel).
As explained by Justice O’Connor in Strickland v. Washington, 466 U.S.
668, 683 (1984), the test to determine whether a person’s right to effective
assistance of counsel was violated is: “First, the defendant must show that
counsel’s performance was deficient. […] Second, the defendant must show that
deficient performance prejudiced the defense.” Id. at 687.
Here, Appellant established
performance.

his trial counsel’s admitted deficient

(Docket 2, 6:13-24). The admitted deficient performance of

40

Case: 20-16038, 12/07/2020, ID: 11917502, DktEntry: 6, Page 12 of 25

Appellant’s trial counsel also prejudiced Appellant. In Lambright, this Court
determined a petitioner was entitled to a COA on the issue that the petitioner was
entitled to a lesser-included offense instruction. 220 F.3d at 1028. There, based
upon the holding in Beck v. Alabama, 447 U.S. 625 (1980), that the Due Process
Clause requires a lesser-included offense instruction, the Lambright court granted
a COA. In the present case, trial counsel’s ineffectiveness prejudiced Appellant
because his counsel failed to make a record, thereby denying him a direct appeal
on that issue.
As Justice Stevens opined in Beck, “providing the jury with the ‘third option’
of convicting on a lesser-included offense ensures that the jury will accord the
defendant the full benefit of the reasonable-doubt standard[.]” Beck, 447 U.S. at
634–35. Here, the evidence established that a lesser-included offense instruction
should have been given, and, thus, as in Lambright, Appellant was entitled to a
COA.
The district court improperly ruled that there was no prejudice from the
lack of lesser-included offense instructions. Directly contrary to the district court’s
determination is Crace v. Herzog, 798 F.3d 840, 847 (9th Cir. 2015). There, this
Court held that Strickland did not require the court to presume that because a jury
convicted the defendant of a particular offense, that the jury would not convict of
a lesser-included offense if presented with that option. Id. at 847: “The

41

Case: 20-16038, 12/07/2020, ID: 11917502, DktEntry: 6, Page 13 of 25

Washington Supreme Court thus was wrong to assume that, because there was
sufficient evidence to support the original verdict, the jury necessarily would have
reached the same verdict even if instructed on an additional lesser included
offense.” Id. at 847 (emphasis added). Similarly, Appellant was denied the lesserincluded offense instruction, but the district court presumed that because
Appellant was convicted of the offense without the option of a lesser-included
offense instruction that Appellant was not prejudiced.
Appellant has presented an issue on which reasoned jurists could disagree,
or an issue adequate to deserve encouragement to proceed further. Jones v. Ryan,
691 F.3d 1093, 1100 (9th Cir. 2012) (granted expanded COA “ineffective
assistance of trial counsel related to trial counsel's failure to discover and use the
inconsistencies in the testimony regarding the kicked-in door in Jones's trial, the
testimony at Scott Nordstrom's trial, and several police reports”). Therefore, this
Court should grant Appellant a COA so that he can present this substantial
showing of the denial of his Sixth Amendment right on the merits.
B.

Appellant Made A Substantial Showing Of The Denial Of His
Sixth Amendment Constitutional Right To Effective Assistance
Of Counsel Regarding His Trial Counsel’s Failure To Object To
The Lack Of A Willits Instruction When He Had No Counsel
During His State Court PCR Proceeding Which Was The First
Time Appellant Could Have Brought Ineffective Assistance Of
Counsel Claims:

42

Case: 20-16038, 12/07/2020, ID: 11917502, DktEntry: 6, Page 14 of 25

The district court erred when it determined that Appellant was procedurally
defaulted from making his ineffective assistance of counsel claim regarding the
lack of a Willits 1 instruction. In fact, Appellant presented this issue to the state
court in his timely filed second post-conviction petition. (Docket 2, 9:22-10:4).
Even assuming arguendo that Appellant was procedurally defaulted, that is
overcome by his substantial claim of ineffective assistance of counsel pursuant to
Martinez v. Ryan, 566 U.S. 1, 17 (2012). The Martinez court determined that
where, as here, ineffective assistance of counsel must be raised in a collateral postconviction proceeding, procedural default does not bar the federal court from
hearing a “substantial claim of ineffective assistance of counsel at trial if, in the
initial-review collateral proceeding, there was no counsel or counsel in that
proceeding was ineffective.” Martinez, 566 U.S. at 17. Here, Appellant’s
appointed PCR counsel stated there was “no claim”; therefore, Appellant
effectively had no counsel during his state court PCR proceedings, which was the
first available opportunity for him to be able to bring his ineffective assistance of
counsel claims.
In Detrich v. Ryan, 740 F.3d 1237, 1245 (9th Cir. 2013), regarding the
definition of an “insubstantial” claim, this Court explained: “Stated otherwise, a
State v. Willits, 96 Ariz. 184, 185 (1964), which allows a jury instruction
permitting the jury to make a negative inference against the state when there is
loss or destruction of evidence.
1

43

Case: 20-16038, 12/07/2020, ID: 11917502, DktEntry: 6, Page 15 of 25

claim is ‘insubstantial’ if ‘it does not have any merit or … is wholly without
factual support.’” Id. at 1245 (quoting Martinez, 566 U.S. at 16). Here, Appellant
has presented a meritorious claim with specific factual support that his trial
counsel’s performance was ineffective.
Appellant’s trial counsel failed to object when no Willits instruction was
given to the jury. The Willits instruction, given when the state has lost or
destroyed evidence, would have allowed the jury to form a negative inference
against the State. The police did not have the bullets recovered from the skull of
Sanchez. Therefore, Appellant’s defense could not test those bullets, let alone
determine the caliber of them.
Dr. Zacher, the surgeon that removed the bullets, testified that the procedure
was for the hospital to turn over those bullets to the authorities. At trial, Detective
Lowe was asked if the Police had the bullets from Sanchez’s head, Detective Lowe,
specifically responded: “Not that I’m aware of.”

(Docket 2, p. 12:14-16).

Appellant’s trial attorney knew that Sanchez had been shot in the head and those
bullets were still in his skull when he went to the hospital. Trial counsel knew
that those bullets were removed at the hospital, but never made any record on the
lack of the State’s production of this evidence and inability of the defense to test
them, let alone attempting to introduce Dr. Zacher’s report into evidence.
Appellant’s trial counsel never attempted to introduce into evidence Dr. Zacher’s

44

Case: 20-16038, 12/07/2020, ID: 11917502, DktEntry: 6, Page 16 of 25

medical report done at the time of the surgery on Sanchez. That medical report,
created on the day of the surgery, stated: “These bullets were sent to the authorities
via the standard protocol. The only specimens from this procedure were the bullet
fragments.” (District Court Docket, 1, Exhibit A).
In Turner, 281 F.3d at 874, although denying relief on the merits, a COA
was granted on defendant’s claim of ineffective assistance of counsel when trial
counsel failed to test blood evidence. There, the trial counsel failed to arrange for
the comparison of the blood samples drawn from the defendant six days after the
homicide and those from the samples taken from the buck knife. Id. at 874. Those
tests would have revealed the defendant’s excessive drug use as a mitigating fact.
Here, trial counsel failed to object to the lack of a Willits instruction after the State
failed to produce the bullets recovered from Sanchez’s head. That lack of
production prevented Appellant’s trial counsel from testing those bullets or even
determining their caliber.
Appellant argued, contrary to the State’s argument, that there may have
been more than one gun. Indeed, seven bullets were fired inside the house, five
bullets were recovered together with the two remaining in Sanchez’s head.
However, only five casings were recovered from inside of the house.

By

definition, the lack of that jury instruction prejudiced Appellant and a COA should
issue.

45

Case: 20-16038, 12/07/2020, ID: 11917502, DktEntry: 6, Page 17 of 25

Appellant submits that reasoned jurists could disagree as to whether
Appellant’s right to effective assistance of counsel was violated, or that he has
presented an issue adequate to deserve encouragement to proceed further.
Canales v. Davis, 740 F. App'x 432 (5th Cir. 2018) (determining a COA was
warranted for ineffective assistance of counsel claim that was otherwise
procedurally defaulted). On this basis, a COA should issue on the Appellant’s
constitutional claim regarding the lack of a Willits instruction.
C.

Appellant Made A Substantial Showing Of The Denial Of His
Constitutional Right Of Effective Assistance of Counsel When
His Trial Attorney Did Not Duly Investigate Exculpatory
Witness Testimony Establishing That Appellant Was Factually
Innocent And Not The Shooter:

Appellant has presented substantial evidence regarding the denial of his
Sixth Amendment right to effective assistance of counsel, where his trial counsel
failed to investigate. The failure to investigate is a substantial claim for ineffective
assistance of counsel. See Reynoso, 462 F.3d at 1112; see also Rios v. Rocha, 299
F.3d 796, 799 (9th Cir. 2002).
The Reynoso Court stated: “The duty to investigate is especially pressing
where, as here, the witnesses and their credibility are crucial to the State’s case.”
Reynoso, 462 F.3d at 1113.

There, had defense counsel investigated and

questioned the witnesses about their expectation of reward money in return for
their testimony inculpating Reynoso, she would have been able to provide the jury

46

Case: 20-16038, 12/07/2020, ID: 11917502, DktEntry: 6, Page 18 of 25

an explanation of the incentive to identify, regardless of their lack of knowledge.
Id. at 1118. Here, had Appellant’s trial counsel investigated and called Ulibarri
and DeLeon to testify during the guilt phase, it would have provided the jury with
specific exculpatory evidence contradicting the State’s weak argument regarding
gang affiliation and color of clothing.
In Rios, this Court reversed the denial of a habeas petition because of
counsel’s failure to adequately investigate witnesses who would have testified that
the defendant was not the shooter. 299 F.3d at 800. The Rios court, quoting Lord
v. Wood, 184 F.3d 1083, 1093 (9th Cir. 1999) opined: “the failure to investigate
is especially egregious when a defense attorney fails to consider potentially
exculpatory evidence.” Id. at 805. Here, Appellant’s trial counsel also failed to
investigate actual exculpatory testimony provided by Ulibarri and DeLeon.
Here, the State’s circumstantial case hinged on the theory that Appellant
was wearing red, and therefore, was a rival gang member. The State argued this
in their opening statement, during trial, and in their closing argument. By example
only, the State argued in closing: “We already heard from more than one person
he was wearing red clothing. He had some kind of red shoelaces, red bandana.
[…] The red color associated is associated with the Phoeniqueras gang, all right.”
(Docket 2, 14:11-14 (quoting RT, 8/13/2008, p. 25:15-21)).

47

Case: 20-16038, 12/07/2020, ID: 11917502, DktEntry: 6, Page 19 of 25

Dominguez also testified inconsistently at trial about the identity and
location of shooter. On direct examination, Dominguez testified: “They [the
shots] were coming from Isidro up there, from on top.” (Docket 2, 15:7-8,
(quoting RT, 7/9/2008, 81:11-12)). On cross-examination, Dominguez’s
testimony flip-flopped, answering “Yes” to the question: “You told them you
didn’t know if he was the shooter or was simply running from the shooting;
correct?” (Id., 15:8 (quoting RT, 8/7/2008, 113:16-18)). On redirect, Dominguez
again flip-flopped his testimony. (Id., 15:9-10 (quoting RT, 8/7/2008, 125:14-22)).
The other “eyewitnesses”, Villagrana, Razo, and Borja, failed to even
identify Appellant as the shooter during their testimony. Villagrana was asked:
“You don’t know who the shooter was, correct”, to which he responded “Correct.”
(Id., 16:1-3 (quoting RT, 7/14/2008, 85:13-14). Razo, did not make any in-court
identification at all, and only testified that the shooter was wearing what “looked
like a lot of red.” (Id., 16:4-7 (quoting RT, 7/14/2008, 136:16)). Borja testified
that he did not even know who the shooter was, or that Appellant was even at the
party. (Id., 16:8-12 (quoting RT, 7/16/2008, 80:3-8)).
Appellant’s trial counsel failed to investigate how Ulibarri 2 or DeLeon
would have testified during the guilt phase of the trial nor were these key defense
Ulibarri testified during the penalty phase of the trial but was never called to
testify during jury trial. She was never asked any questions about the issues
presented in her subsequent affidavit.
2

48

Case: 20-16038, 12/07/2020, ID: 11917502, DktEntry: 6, Page 20 of 25

witnesses

even subpoenaed to testify during

trial.

Counsel undersigned

investigated these two witnesses which resulted in sworn affidavits. (Docket 2,
17).
Ulibarri’s affidavit reads in pertinent part:
7. On that particular day, December 13, 2003, I personally bought
Isidro a pair of Jordan tennis shoes as a Christmas present. The shoes
were all black with black shoelaces.
[…]
9. I personally remember that Isidro was not wearing any garment
that night which was red in color.
10. I remember that Isidro was dressed in jeans and a dark colored
sweatshirt on the night in question.
[…]
12. To my personal knowledge, Isidro Sauceda was never in a gang,
and I never saw any indication of gang related activity or affiliation
on his part.
13. Also, I did not see any gun on Isidro Sauceda ever, including
December 13, 2003, and to my personal knowledge he did not own a
weapon or [sic] any type.
(Id., 17:3-12).
Deleon’s sworn affidavit reads in pertinent part:
5. I remember being with Isidro during the entire day on December
13, 2003 and into the early morning hours of December 14, 2003.
6. On that particular day of December 13, 2003, I specifically
remember that Isidro was wearing dark blue or black clothing and a
pair of brand new black colored ‘Jordan’ tennis shoes, who Isidro
told me, were bought for him by his then girlfriend Cherise [sic]
Ulibarri.
[…]
9. I remember that Isidro was not wearing any garment that night
which was red in color.
[…]

49

Case: 20-16038, 12/07/2020, ID: 11917502, DktEntry: 6, Page 21 of 25

12. [sic] To my personal knowledge Isidro Sauceda did not have a
gun on the night of December 13, 2003 because I personally saw the
individual at the entrance of the party search Isidro, myself and others.
I did not see any gun emerge from the person of Isidro at that time.
[…]
14.[sic] To my personal knowledge Isidro was not then, nor has he
ever been, a gang member or affiliated with any gang.
(Id., 17:15-18:9). These affidavits establish Appellant’s factual innocence and
specifically contradict the State’s flimsy theory together with the inconsistent
testimony of the State’s witnesses.
Just as in Reynoso and Rios, prejudice is shown here. A COA should have
issued because, at the very least, jurists of reason would disagree with the district
court’s conclusion that Appellant failed to present a constitutional violation or has
presented an issue adequate to deserve encouragement to proceed further. Roybal
v. Davis, 148 F. Supp. 3d 958, 1125 (S.D. Cal. 2015) (granting COA regarding
claim of ineffective assistance of counsel for failure to investigate). Appellant was
denied his constitutional right to effective assistance of counsel when defense
counsel failed to duly investigate defense exculpatory witnesses.
D.

Appellant Has Presented A Convincing Claim Of Actual
Innocence When Exculpatory Evidence Would Have Shown: (1)
He Was Not Wearing “Red” Clothing, As The State Argued
Throughout Its Case; (2) Was Not In A Gang; and (3) Did Not
Have A Gun On The Night In Question, Establishing By
Definition That He Was Not The Shooter:

Since the moment Appellant was charged with the crimes on which he was
convicted (on flimsy circumstantial evidence) he has always asserted his actual

50

Case: 20-16038, 12/07/2020, ID: 11917502, DktEntry: 6, Page 22 of 25

innocence.

McQuiggin v. Perkins, 569 U.S. 383 (2013) (actual innocence

defeated a claim that habeas issues were procedurally defaulted). Appellant
presented an actual innocence defense during trial and maintains his actual
innocence as he currently sits in prison for crimes he did not commit.
As stated above, the State’s entire case was based upon the weak argument
that Appellant was a gang member, which they attempted to establish through the
color of his clothing as red. The State also failed to produce any gun. Moreover,
the State’s case was built upon the weak theory that Appellant was shooting at
rival gang members as the motive and intent for the crimes, supported by
Appellant’s purported red clothing on the night in question.

The affidavits

presented by Ulibarri and DeLeon confirmed that Appellant was not wearing any
red, but rather dark colored clothing.
The State’s theory was that all of the bullets matched the casings found.
There were seven bullets fired inside the house, but only five casings were
recovered from the inside of the house. The State recovered two additional
casings outside of the house. Two of the bullets remained in Sanchez’s head, and
those bullets were removed in surgery. Dr. Zacher’s medical report established
that those bullets were turned over to the authorities. The police did not have the
bullets. Appellant was prevented from any testing on the type or caliber of bullets
that were in Sanchez’s skull.

51

Case: 20-16038, 12/07/2020, ID: 11917502, DktEntry: 6, Page 23 of 25

The testimony of DeLeon and Ulibarri establishes Appellant was not in a
gang. Both would have been able to testify that Appellant did not own a gun, and
DeLeon would have confirmed that Appellant was searched at the door of the
party before entering and no gun was ever discovered on Appellant’s person.
Appellant has demonstrated his actual innocence, has illustrated that he
received ineffective assistance of counsel at his trial, and has shown he was
prejudiced by such ineffectiveness.
V.

CONCLUSION
Therefore, based upon the foregoing, Appellant requests that this Court

grant a rehearing en banc, reopen the case, and issue a Certificate of Appealability.
Respectfully submitted this 7th day of December, 2020.
HORNE SLATON PLLC
By: /s/ Sandra Slaton
Sandra Slaton, Esq.
Attorney for Petitioner

52

Case: 20-16038, 12/07/2020, ID: 11917502, DktEntry: 6, Page 24 of 25

CERTIFICATE OF SERVICE
I electronically transmitted the above document, Petition For Rehearing En
Banc, to the Clerk’s office using the CM/ECF system for filing and sent a Notice
of Electronic Filing to the following ECF registrant:
Terry Michael Crist, III
Office of the Attorney General – Phoenix
2005 N Central Ave.
Phoenix, AZ 85004-1592
terry.crist@azag.gov
By: /s/ Sandra Slaton

53

Case: 20-16038, 12/07/2020, ID: 11917502, DktEntry: 6, Page 25 of 25

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Form 11. Certificate of Compliance for Petitions for Rehearing or Answers
Instructions.for this.form: http://www. ca9. uscourts. gov/forms/form! I instructions.pd(

._I

9th Cir. Case Number(s) _2_0-_ 1_6_0_38____________ _
_ �
I am the attorney or self-represented party.
I certify that pursuant to Circuit Rule 35-4 or 40-1 , the attached petition for
panel rehearing/petition for rehearing en bane/answer fo petition is (select one):
Prepared in a format, typeface, and type style that complies with Fed. R. App.

Ce,) P. 32(a)(4)-(6) and contains the following number of words: 14,118
(Petitions and answers must not exceed 4,200 words)

I.

OR
(' In compliance with Fed. R. App. P. 32(a)(4)-(6) and does not exceed 15 pages.

Signature

I Isl Sandra Slaton

I

Date 12/07/2020

(use "s/[typed name]" to sign electronically-filed documents)

54 20

Case: 20-16038, 11/16/2020, ID: 11894124, DktEntry: 4, Page 1 of 25

Sandra L. Slaton, Bar No. 006454
HORNE SLATON, PLLC
6720 N. Scottsdale Rd., Suite 285
Scottsdale, Arizona 85253
Tel. 480-483-2178
Fax. 480-367-0691 fax
slaton@horneslaton.com
Attorney for Petitioner Isidro Sauceda
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Isidro Sauceda,

Case No.: 20-16038
Petitioner/Appellant,

V.
Charles L. Ryan, Director of the
Arizona Department of Corrections,
Respondent/Appellee,
And
The Attorney General of the State of
Arizona,
Additional
Respondent.

55

D.C. No. 2:19-cv-01132-NVW
District of Arizona
Motion For Reconsideration On
Denial Of Certificate Of
Appealability

Case: 20-16038, 11/16/2020, ID: 11894124, DktEntry: 4, Page 2 of 25

TABLE OF CONTENTS
TABLE OF AUTHORITIES ............................................................................... ii
I.

INTRODUCTION ......................................................................................1

II.

STANDARD OF REVIEW........................................................................ 2

III.

ARGUMENT..............................................................................................3

IV.

A.

Appellant Made A Substantial Showing Of The Denial Of His Sixth
Amendment Constitutional Right To Effective Assistance Of
Counsel Regarding Trial Counsel’s Admitted Failure To Object Or
Create A Record On The Lack Of Lesser-included Offense
Instruction: .......................................................................................3

B.

Appellant Made A Substantial Showing Of The Denial Of His Sixth
Amendment Constitutional Right To Effective Assistance Of
Counsel When His Trial Counsel Failed To Object To The Lack Of
A Willits Instruction And His Post-Conviction Counsel Filed A
“No Claim” Statement, Leaving Him To Proceed Pro Se In Those
Proceedings: .....................................................................................7

C.

Appellant Made A Substantial Showing Of The Denial Of His Sixth
Amendment Constitutional Right Of Effective Assistance of
Counsel When His Trial Attorney Did Not Duly Investigate
Exculpatory Witness Testimony Establishing That Appellant Was
Factually Innocent And Not The Shooter: .....................................12

D.

Appellant Has Presented A Convincing Claim Of Actual
Innocence When Exculpatory Evidence Would Have Shown: (1)
He Was Not Wearing “Red” Clothing, As The State Argued
Throughout Its Case; (2) Was Not In A Gang; and (3) Did Not
Have A Gun On The Night In Question, Establishing By
Definition That He Was Not The Shooter: ...................................17

CONCLUSION ........................................................................................19

CERTIFICATE OF COMPLIANCE..................................................................20
CERTIFICATE OF SERVICE ...........................................................................21
56

Case: 20-16038, 11/16/2020, ID: 11894124, DktEntry: 4, Page 3 of 25

TABLE OF AUTHORITIES
Page(s)

Federal Cases
Beck v. Alabama,

447 U.S. 625 (1980) ........................................................................................ 5, 6
Canales v. Davis,
740 F. App'x 432 (5th Cir. 2018) ...................................................................... 12
Crace v. Herzog,
798 F.3d 840 (9th Cir. 2015) ............................................................................... 6
Detrich v. Ryan,
740 F.3d 1237 (9th Cir. 2013) ......................................................................... 8, 9
Hoffman v. Arave,
236 F.3d 523 (9th Cir. 2001) ............................................................................... 4
Jones v. Ryan,
691 F.3d 1093 (9th Cir. 2012) ............................................................................. 7
Lambright v. Stewart,
220 F.3d 1022 (9th Cir. 2000) ............................................................................. 5
Lee v. Ryan,
2019 WL 2617052 (D. Ariz. June 26, 2019) ..................................................... 17
Lopez v. Pollard,
2008 WL 11485628 (E.D. Wis. May 2, 2008) .................................................... 7
Lord v. Wood,
184 F.3d 1083 (9th Cir. 1999) ........................................................................... 13
Martinez v. Ryan,
566 U.S. 1 (2012) ............................................................................................ 8, 9
Mayfield v. Woodford,
270 F.3d 915 (9th Cir. 2001) ............................................................................... 3
57

Case: 20-16038, 11/16/2020, ID: 11894124, DktEntry: 4, Page 4 of 25

McQuiggin v. Perkins,
569 U.S. 383 (2013) ................................................................................ 8, 10, 12
Miller-El v. Cockrell,
537 U.S. 322 (2003) ........................................................................................ 2, 3
Reynoso v. Giurbino,
462 F.3d 1099 (9th Cir. 2006) ..................................................................... 12, 13
Rios v. Rocha,
299 F.3d 796 (9th Cir. 2002) ....................................................................... 12, 13
Roybal v. Davis,
148 F. Supp. 3d 958 (S.D. Cal. 2015) ........................................................... 7, 16
Slack v. McDaniel,
529 U.S. 473 (2000) ............................................................................................ 3
Strickland v. Washington,
466 U.S. 668 (1984) ........................................................................................ 4, 5
Turner v. Calderon,
281 F.3d 851 (9th Cir. 2002) ............................................................................... 9
United States v. Vargas-Lopez,
243 F.3d 552 (9th Cir. 2000) ............................................................................... 4
State Cases
State v. Willits,
96 Ariz. 184 (1964) ............................................................................................. 8
Federal Statutes
28 U.S.C. § 2253(c)(2)........................................................................................... 3

58

Case: 20-16038, 11/16/2020, ID: 11894124, DktEntry: 4, Page 5 of 25

I.

INTRODUCTION
Isidro Sauceda (“Appellant”), now 41 years old, is serving a life sentence

on a first-degree murder conviction for which he is innocent. As discussed below,
Appellant made a substantial showing of a denial of his Sixth Amendment
constitutional right to effective assistance of Counsel throughout his case, and
even in the post-conviction relief phase of the state proceedings. His trial attorney
filed an affidavit admitting that he committed ineffective assistance of counsel
during trial. The State’s case was entirely based on circumstantial evidence. No
gun was ever produced. Three of the four State’s witnesses were unable to
identify Appellant as the shooter. The one witness who did identify him, was
impeached on cross-examination, and flip-flopped on the identification. The
State’s case hinged mainly on the flimsy theory that Appellant was a gang member
(he was not) and to prove this theory the State relied heavily on the fact that
Appellant was wearing the color “red” on the night in question. On top of this
“color” theme, the State’s mission was to convince the jury that the Appellant’s
supposed gang affiliation served as the motive for the shooting.
On the most crucial evidence in the trial—the color of clothing Appellant
was wearing and the ballistics/gun evidence—trial counsel failed to investigate.
If trial counsel had done his investigation he would have known that: Two
witnesses would have testified Appellant did not wear “red” clothing the night of

59

Case: 20-16038, 11/16/2020, ID: 11894124, DktEntry: 4, Page 6 of 25

the shooting, was not a member of a gang, and did not possess a gun. The jury
did not receive a Willits instruction on the ballistics evidence, even though two of
the bullets were unavailable to be tested by the defense. Self-admitted ineffective
trial counsel never made a record by failing to object to the trial court’s refusal to
instruct the jury on a lesser-included offense.
Other than Supreme Court review, this Court will be Appellant’s last
avenue to seek relief on a circumstantial case for which he maintains his innocence.
Appellant urges this Court to grant him a Certificate of Appealability so that he
may brief and argue his case here.
II.

STANDARD OF REVIEW
In Miller-El v. Cockrell, 537 U.S. 322, 327 (2003), Justice Kennedy stated:

“We do not require petitioner to prove, before the issuance of the certificate of
appealability, that some jurists would grant the petition for habeas corpus. Indeed,
a claim can be debatable even though every jurist of reason might agree, after the
certificate of appealability has been granted and the case received full
consideration, that petitioner will not prevail.” Id. at 338.
In so reasoning, the Court concluded inter alia: “[W]hen a habeas applicant
seeks permission to initiate appellate review of the dismissal of his petition, the
court of appeals should limit its examination to a threshold inquiry into the

60

Case: 20-16038, 11/16/2020, ID: 11894124, DktEntry: 4, Page 7 of 25

underlying merit of his claims.” Id. at 327 (emphasis added) (citing Slack v.
McDaniel, 529 U.S. 473, 481 (2000)). Former Justice Kennedy further held:
Consistent with our prior precedent and the text of the habeas corpus
statute, we reiterate that a prisoner seeking a COA need only
demonstrate “a substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2). A petitioner satisfies this standard by
demonstrating that jurists of reason could disagree with the district
court's resolution of his constitutional claims or that jurists could
conclude the issues presented are adequate to deserve
encouragement to proceed further.
Id. at 327 (emphasis added).

The “debatable amongst jurists of reason” inquiry

has been interpreted as a very low barrier to the issuance of a COA. Id. at 338.
The Ninth Circuit has held that any doubt about whether to issue a COA is
resolved in favor of petitioner whose habeas petition has been denied on the merits.
Mayfield v. Woodford, 270 F.3d 915, 922 (9th Cir. 2001).
III.

ARGUMENT
A.

Appellant Made A Substantial Showing Of The Denial Of His
Sixth Amendment Constitutional Right To Effective Assistance
Of Counsel Regarding Trial Counsel’s Admitted Failure To
Object Or Create A Record On The Lack Of Lesser-included
Offense Instruction:

At trial, not only did Appellant’s counsel fail to ensure that there was a
lesser-included offense instruction, but counsel also failed to create any record
regarding a lesser-included offense instruction. The affidavit of trial counsel reads
in pertinent part:

61

Case: 20-16038, 11/16/2020, ID: 11894124, DktEntry: 4, Page 8 of 25

4. As the Count of Appeals memorandum decision in this case noted,
there is no on-the-record discussion of the request for the lesserincluded instructions nor is there an on-the-record denial of the
request for attempted second degree murder instructions. Further,
there is no objection by defense counsel when these instructions were
not read when the jury was instructed on the law.
5. The most likely explanation for this is that there was an off-therecord discussion about these particular instructions and the court
denied them. It was my responsibility as counsel to object and make
the necessary record so that the denial of these lesser-included
instructions would be preserved for appeal. Assuming this is what
happened, I failed to object and make the necessary record.
(Motion, 6:15-23).
The sworn affidavit by Appellant’s trial counsel establishes that his
performance was deficient. Where a counsel admits their own error, the effective
assistance of counsel claim is ripe for consideration. See United States v. VargasLopez, 243 F.3d 552 (9th Cir. 2000) (counsel admitted that his inadvertent failure
to execute plea agreement was ineffective assistance of counsel); see also
Hoffman v. Arave, 236 F.3d 523, 535 (9th Cir. 2001) (counsels’ admission that
their advice to client to reject plea offer on their misinterpretation of death penalty
statute would be held unconstitutional ineffective assistance).
As explained by Justice O’Connor in Strickland v. Washington, 466 U.S.
668, 683 (1984), the test to determine whether a person’s right to effective
assistance of counsel was violated is: “First, the defendant must show that
counsel’s performance was deficient. […] Second, the defendant must show that

62

Case: 20-16038, 11/16/2020, ID: 11894124, DktEntry: 4, Page 9 of 25

deficient performance prejudiced the defense.” Id. at 687. In the present case,
Appellant established deficient performance by his trial counsel’s admitted
deficient performance. (Docket Entry (“DE”) 2, 6:13-24).
Here, the Magistrate’s Report, adopted by the District Court, changed the
standard of Strickland to require Appellant to establish that the outcome “would”
have been different. Instead of requiring that there be a reasonable probability
that the outcome would have been different, the District Court placed the burden
on Appellant to prove a much stricter requirement than was required.
The admitted deficient performance of Appellant’s trial counsel prejudiced
his defense by failing to object, or create a record, on the lack of lesser-included
offense instructions. In Lambright v. Stewart, 220 F.3d 1022, 1028 (9th Cir. 2000),
this Court determined a petitioner was entitled to a COA on the issue that the
petitioner was entitled to a lesser-included offense instruction. There, based upon
the holding in Beck v. Alabama, 447 U.S. 625 (1980), that the Due Process Clause
requires a lesser-included offense instruction, the Lambright court granted a COA.
In the present case, the evidence at trial establishes that a lesser-included offense
instruction should have been given, and therefore, a COA should issue.
As Justice Stevens opined in Beck, “providing the jury with the ‘third option’
of convicting on a lesser-included offense ensures that the jury will accord the
defendant the full benefit of the reasonable-doubt standard[.]” Beck, 447 U.S. at

63

Case: 20-16038, 11/16/2020, ID: 11894124, DktEntry: 4, Page 10 of 25

634–35. Appellant was not presented with that option because his trial counsel
failed to object, or even make a record, regarding the lack of lesser-included
offense instructions.
The District Court improperly accepted the Magistrate’s Report, which
determined that because Appellant was convicted of first-degree murder, there
was no prejudice from the lack of lesser-included offense instructions. This is the
very situation with which the Beck court was presented, and rejected: “Where one
of the elements of the offense charged remains in doubt, but the defendant is
plainly guilty of some offense, the jury is likely to resolve its doubts in favor of
conviction.” Beck, 447 U.S. at 634. The Magistrate’s determination, adopted by
the District Court, defeats the holdings in Beck and Strickland:
Furthermore, as stated by this Court in Crace v. Herzog, 798 F.3d 840, 847
(9th Cir. 2015), Strickland:
[D]oes not require a court to presume … that, because a jury
convicted the defendant of a particular offense at trial, the jury could
not have convicted the defendant on a lesser included offense based
upon evidence that was consistent with the elements of both. […]
The Washington Supreme Court thus was wrong to assume that,
because there was sufficient evidence to support the original verdict,
the jury necessarily would have reached the same verdict even if
instructed on an additional lesser included offense.
(Emphasis added). Similarly, Appellant, here, was denied the lesser-included
offense instruction, when his trial counsel failed to object, or even create a record,
resulting in a constitutional violation.

64

Case: 20-16038, 11/16/2020, ID: 11894124, DktEntry: 4, Page 11 of 25

Appellant has presented an issue on which reasoned jurists could disagree
and should be permitted to bring his appeal on the District Court’s denial of his
Petition for Habeas Corpus. Alternatively, the issue presented regarding trial
counsel’s admitted failure to object, or even create a record, on the lack of lesserincluded offense instructions was adequate to deserve encouragement to proceed
further. See Jones v. Ryan, 691 F.3d 1093, 1100 (9th Cir. 2012) (granted expanded
COA regarding ineffective assistance of counsel claim for failing to discover and
utilize inconsistencies in the testimony); Roybal v. Davis, 148 F. Supp. 3d 958,
1125 (S.D. Cal. 2015) (COA granted for ineffective assistance of counsel claim);
Lopez v. Pollard, No. 05-C-0999, 2008 WL 11485628, at *2 (E.D. Wis. May 2,
2008) (granted COA regarding ineffective assistance of counsel for failure to
request lesser-included offense instruction).
B.

Appellant Made A Substantial Showing Of The Denial Of His
Sixth Amendment Constitutional Right To Effective Assistance
Of Counsel When His Trial Counsel Failed To Object To The
Lack Of A Willits Instruction And His Post-Conviction Counsel
Filed A “No Claim” Statement, Leaving Him To Proceed Pro Se
In Those Proceedings:

The District Court incorrectly adopted the Magistrate’s Report which
determined that Appellant was procedurally defaulted from making his ineffective

65

Case: 20-16038, 11/16/2020, ID: 11894124, DktEntry: 4, Page 12 of 25

assistance of counsel claim regarding the lack of a Willits 1 instruction. However,
Appellant presented this issue to the state court in his timely filed second postconviction petition. (Motion, 9:22-10:4).
Even assuming arguendo that Appellant was procedurally defaulted, that
is overcome by the substantial claim of ineffective assistance of counsel pursuant
to Martinez v. Ryan, 566 U.S. 1, 17 (2012), or Appellant’s actual innocence claim
pursuant to McQuiggin v. Perkins, 569 U.S. 383 (2013).
The Martinez court determined that where, as here, ineffective assistance
of counsel must be raised in a collateral post-conviction proceeding, procedural
default does not bar the federal court from hearing a “substantial claim of
ineffective assistance of counsel when there was no counsel or counsel was
ineffective.” Martinez, 566 U.S. at 17. Appellant’s appointed PCR counsel stated
there was “no claim” forcing Appellant to proceed in his post-conviction
proceedings pro se.
In Detrich v. Ryan, 740 F.3d 1237, 1245 (9th Cir. 2013), the test for
overcoming procedural default would require the petitioner to show “a substantial
claim for ineffective assistance of counsel” and:
We conclude, for the narrow purpose of satisfying the second
Martinez requirement to establish “cause,” that a prisoner need show
State v. Willits, 96 Ariz. 184, 185 (1964), which allows a jury instruction
permitting the jury to make a negative inference against the state when there is
loss or destruction of evidence.
1

66

Case: 20-16038, 11/16/2020, ID: 11894124, DktEntry: 4, Page 13 of 25

only that his PCR counsel performed in a deficient manner. A
prisoner need not show actual prejudice resulting from his PCR
counsel's deficient performance, over and above his required
showing that the trial-counsel IAC claim be “substantial” under the
first Martinez requirement.
Id. at 1245–46. As the Detrich court reasoned: “Stated otherwise, a claim is
‘insubstantial’ if ‘it does not have any merit or … is wholly without factual
support.’” Id. at 1245 (quoting Martinez, 566 U.S. at 16). In the present case,
Appellant has presented a meritorious claim with specific factual support that his
trial counsel’s performance was ineffective.
Appellant’s trial counsel failed to object when no Willits instruction was
given to the jury. The Willits instruction, given when the state has lost or
destroyed evidence, would have allowed the jury to form a negative inference
against the State. The police did not have the bullets recovered from the skull of
Sanchez. Therefore, Appellant’s defense team could not inspect, review, or test
those bullets, let alone determine the caliber of them. No Willits instruction was
provided to the jury, and Appellant’s trial counsel failed to object.
Dr. Zacher, the surgeon that removed the bullets, testified that the procedure
was for the hospital to turn over those bullets to the authorities. At trial, Detective
Lowe was asked if the Police had the bullets from Sanchez’s head, Detective
Lowe, specifically responded: “Not that I’m aware of.” (Motion, p. 12:14-16).

67

Case: 20-16038, 11/16/2020, ID: 11894124, DktEntry: 4, Page 14 of 25

In Turner v. Calderon, 281 F.3d 851, 874 (9th Cir. 2002), although denying
relief on the merits, a COA was granted on defendant’s claim of ineffective
assistance of counsel when trial counsel failed to test blood evidence. Similarly,
a COA should issue in the present case.
Appellant’s trial attorney knew that Sanchez had been shot in the head and
those bullets were still in his skull when he went to the hospital. Trial counsel
knew that those bullets were removed at the hospital, but never made any record
on the lack of evidence or his inability to test the evidence.
Appellant’s trial counsel never even attempted to introduce into evidence
Dr. Zacher’s medical report done at the time of the surgery on Sanchez. That
medical report stated: “These bullets were sent to the authorities via the standard
protocol. The only specimens from this procedure were the bullet fragments.”
(Motion, Exhibit A, 1).
PCR counsel filed a “no issue” statement on post-trial remedies. Pursuant
to Martinez, as clarified by Detrich, Appellant was forced to present a claim of
ineffective assistance of counsel without an attorney. Appellant has presented a
meritorious claim that has significant factual support.
It has been held that “manifest injustice” or “actual innocence” is a remedy
to procedural default and statute of limitations claims regarding federal habeas
petitions. McQuiggin, 569 U.S. at 394. There, a convincing claim of actual

68

Case: 20-16038, 11/16/2020, ID: 11894124, DktEntry: 4, Page 15 of 25

innocence resulted in the issuance of a COA. Id. at 401. Here, Appellant’s actual
innocence claim provides an exception to the determination by the District Court
that Appellant’s claim for ineffective assistance of counsel was procedurally
barred.
Since the moment he was originally charged Appellant has maintained his
innocence. Two witnesses (who never testified during the guilt phase) were
discovered after and gave sworn affidavits regarding how they would have
testified. (Motion, p. 13-14). Ulibarri confirmed that Appellant:
• Was not wearing red, but rather dark clothing and black shoes with black
shoelaces.
• Was not a member of a gang.
• Never had a gun on the night in question, and to her knowledge did not own
a weapon of any type.
DeLeon, corroborated Ulibarri’s testimony, and also stated:
• He was with Appellant during the entire time in question, including the day
prior.
• Appellant was wearing dark clothing with black shoes. Appellant was not
wearing any red clothing on the night in question.
• He and Appellant were searched at the front door of the party and no
weapon was found.

69

Case: 20-16038, 11/16/2020, ID: 11894124, DktEntry: 4, Page 16 of 25

• He never saw Appellant with a gun.
• Appellant was not a member of a gang.
(Motion, 17:3-18:19).
Reasoned jurists could disagree as to whether Appellant’s right to effective
assistance of counsel was violated. At the very least, Appellant has presented an
issue adequate enough to deserve encouragement to proceed further. McQuiggin,
569 U.S. at 387 (COA was granted in underlying appeal by Sixth Circuit
regarding procedural default and statute of limitations issue); Canales v. Davis,
740 F. App'x 432 (5th Cir. 2018) (determining a COA was warranted for
ineffective assistance of counsel claim that was otherwise procedurally defaulted).
On this basis, a COA should issue on the Appellant’s constitutional claim
regarding the lack of a Willits instruction.
C.

Appellant Made A Substantial Showing Of The Denial Of His
Constitutional Right Of Effective Assistance of Counsel When
His Trial Attorney Did Not Duly Investigate Exculpatory
Witness Testimony Establishing That Appellant Was Factually
Innocent And Not The Shooter:

Appellant is entitled to COA: He has presented substantial evidence
regarding the denial of his constitutional right to effective assistance of counsel,
where his trial counsel failed to investigate. The failure to investigate is a
substantial claim for ineffective assistance of counsel. See Reynoso v. Giurbino,

70

Case: 20-16038, 11/16/2020, ID: 11894124, DktEntry: 4, Page 17 of 25

462 F.3d 1099, 1112 (9th Cir. 2006); see also Rios v. Rocha, 299 F.3d 796, 799
(9th Cir. 2002).
In Reynoso, this Court determined that trial counsel was ineffective for
failing to investigate. 462 F.3d at 1120. The Reynoso Court stated: “The duty to
investigate is especially pressing where, as here, the witnesses and their credibility
are crucial to the State’s case.” Id. at 1113. Had defense counsel investigated and
questioned the witnesses about their expectation of reward money in return for
their testimony inculpating Reynoso, she would have been able to provide the jury
an explanation of the incentive to identify, regardless of their lack of knowledge.
Id. at 1118.
In Rios, this Court reversed the denial of a habeas petition because of
counsel’s failure to adequately investigate witnesses who would have testified that
the defendant was not the shooter. Rios, 299 F.3d at 800. This Court, quoting
Lord v. Wood, 184 F.3d 1083, 1093 (9th Cir. 1999) opined: “the failure to
investigate is especially egregious when a defense attorney fails to consider
potentially exculpatory evidence.” Id. at 805. Appellant’s trial counsel also failed
to investigate actual exculpatory testimony.
Here, the State’s circumstantial case hinged on the theory that Appellant
was wearing red, and therefore, was a rival gang member. The State peppered
this theory throughout its opening and closing arguments together with the

71

Case: 20-16038, 11/16/2020, ID: 11894124, DktEntry: 4, Page 18 of 25

testimony of law enforcement officers. By example only, the State argued in
closing: “There’s also clothing or color. We already heard from more than one
person he was wearing red clothing. He had some kind of red shoelaces, red
bandana. It’s the night of the party, okay. As we heard from person after person,
lay witnesses, we know about gangs – as well as detectives, okay. The red color
associated is associated with the Phoeniqueras gang, all right.” (Motion, p. 14:1114).
Marcus Dominguez testified inconsistently at trial. On direct examination,
Dominguez testified: “They [the shots] were coming from Isidro up there, from
on top.”

(Motion, 15:7-8, (quoting RT, 7/9/2008, 81:11-12)). On cross-

examination, Dominguez’s testimony flip-flopped, answering “Yes” to the
question: “You told them you didn’t if he was the shooter or was simply running
from the shooting; correct?” (Id., 15:8 (quoting RT, 8/7/2008, 113:16-18)). On
redirect, Dominguez again flip-flopped his testimony. (Id., 15:9-10 (quoting RT,
8/7/2008, 125:14-22)).
The other “eyewitnesses,” Villagrana, Razo, and Borja, failed to even
identify Appellant as the shooter. Villagrana was asked: “You don’t know who
the shooter was, correct”, to which he responded “Correct.” (Motion, 16:1-3
(quoting RT, 7/14/2008, 85:13-14). Razo, did not make any in-court identification
at all, and only testified that the shooter was wearing what “looked like a lot of

72

Case: 20-16038, 11/16/2020, ID: 11894124, DktEntry: 4, Page 19 of 25

red.” (Motion, 16:4-7 (quoting RT, 7/14/2008, 136:16)). Borja testified that he
did not even know who the shooter was, or that Appellant was even at the party.
(Motion, 16:8-12 (quoting RT, 7/16/2008, 80:3-8)).
Appellant’s trial counsel did not investigate how Sherise Ulibarri 2 or
Steven DeLeon would have testified during the guilt phase of the trial. These key
defenses witnesses were not called to testify. Counsel undersigned investigated
these two witnesses which resulted in sworn affidavits. (Motion, 16). Ulibarri
was Appellant’s girlfriend at the time, and DeLeon actually went to the party with
Appellant on the night in question.
Ulibarri’s affidavit reads in pertinent part:
7. On that particular day, December 13, 2003, I personally bought
Isidro a pair of Jordan tennis shoes as a Christmas present. The shoes
were all black with black shoelaces.
8. I personally tied Isidro’s new shows [sic] right before Isidro left
for the party on December 13, 2003.
9. I personally remember that Isidro was not wearing any garment
that night which was red in color.
10. I remember that Isidro was dressed in jeans and a dark colored
sweatshirt on the night in question.
[…]
12. To my personal knowledge, Isidro Sauceda was never in a gang,
and I never saw any indication of gang related activity or affiliation
on his part.
13. Also, I did not see any gun on Isidro Sauceda ever, including
December 13, 2003, and to my personal knowledge he did not own a
weapon or [sic] any type.
Ulibarri testified during the penalty phase of the trial but was never called to
testify during the guilt phase of the trial.
2

73

Case: 20-16038, 11/16/2020, ID: 11894124, DktEntry: 4, Page 20 of 25

(Motion, 17:3-12).
Deleon’s sworn affidavit corroborates Ulibarri’s affidavit as well as
providing additional information:
5. I remember being with Isidro during the entire day on December
13, 2003
and into the early morning hours of December 14, 2003.
6. On that particular day of December 13, 2003, I specifically
remember that Isidro was wearing dark blue or black clothing and a
pair of brand new black colored ‘Jordan’ tennis shoes, who Isidro
told me, were bought for him by his then girlfriend Cherise [sic]
Ulibarri.
[…]
9. I remember that Isidro was not wearing any garment that night
which was red in color.
10. [sic] On December 13, 2003 I was with Isidro and other friends
when we were all searched at the front door of the party for weapons.
12. [sic] To my personal knowledge Isidro Sauceda did not have a
gun on the night of December 13, 2003 because I personally saw the
individual at the entrance of the party search Isidro, myself and others.
I did not see any gun emerge from the person of Isidro at that time.
13. [sic] Also, I did not see any gun on Isidro Sauceda ever, including
December 13, 2003, and to my best personal knowledge he did not
own a weapon of any type.
14.[sic] To my personal knowledge Isidro was not then, nor has he
ever been, a gang member or affiliated with any gang.
(Motion, 17:15-18:9). These affidavits establish Appellant’s factual innocence
and specifically contradict the State’s flimsy theory together with the inconsistent
testimony of the State’s witnesses.
Just as in Reynoso and Rios, defense counsel failed to investigate witnesses
which exculpated Appellant. By definition, prejudice is shown here. A COA
should have issued because jurists of reason would disagree with the District

74

Case: 20-16038, 11/16/2020, ID: 11894124, DktEntry: 4, Page 21 of 25

Court’s conclusion that Appellant failed to present a constitutional violation. At
the very least, Appellant has presented an issue adequate enough to deserve
encouragement to proceed further. Roybal, 148 F. Supp. 3d at 1125 (granting
COA regarding claim of ineffective assistance of counsel for failure to investigate);
Lee v. Ryan, No. CV-01-2178-PHX-GMS, 2019 WL 2617052, at *14 (D. Ariz.
June 26, 2019) (same). Appellant was denied his constitutional right to effective
assistance of counsel when defense counsel failed to duly investigate exculpatory
witness testimony.
D.

Appellant Has Presented A Convincing Claim Of Actual
Innocence When Exculpatory Evidence Would Have Shown: (1)
He Was Not Wearing “Red” Clothing, As The State Argued
Throughout Its Case; (2) Was Not In A Gang; and (3) Did Not
Have A Gun On The Night In Question, Establishing By
Definition That He Was Not The Shooter:

Since the moment Appellant was charged with the crimes on which he was
convicted (on 100% circumstantial evidence) he has always asserted his actual
innocence. Appellant presented an actual innocence defense.
The State’s entire case was based upon nothing more than circumstantial
evidence. The State failed to produce any gun. Moreover, the State’s case was
premised on the fact the Appellant was a member of a gang who shot other
competing gang members. The State based this entire theory on the fact that they
claimed Appellant was wearing a lot of red clothing on the night in question. The

75

Case: 20-16038, 11/16/2020, ID: 11894124, DktEntry: 4, Page 22 of 25

affidavits presented by Ulibarri and DeLeon confirmed that Appellant was not
wearing any red, but rather dark colored clothing.
Without any gun, the State’s theory was that all of the bullets matched the
casings found. There were seven bullets fired inside the house, but only five
casings were recovered. The State recovered two additional casings outside of the
house. However, the State argued that all of the bullets and all of the casings were
recovered.
Two of the bullets remained in Sanchez’s head, and those bullets were
removed in surgery. Dr. Zacher’s medical report established that those bullets
were turned over to the authorities. The police did not have the bullets. Appellant
was prevented from any testing on the type or caliber of bullets that were in
Sanchez’s skull.
The testimony of DeLeon and Ulibarri establishes Appellant was not in a
gang. Both would have been able to testify that Appellant did not own a gun, and
DeLeon would have confirmed that Appellant was searched at the door where no
gun was ever discovered on Appellant’s person.
Appellant has not only established that reasonable doubt existed to prevent
his conviction, but also that Appellant is actually innocent. Therefore, this Court
should issue a COA to allow him to present his issues to this Court.

76

Case: 20-16038, 11/16/2020, ID: 11894124, DktEntry: 4, Page 23 of 25

IV.

CONCLUSION
Therefore, based upon the foregoing, Appellant requests that this Court

grant his Motion For Reconsideration and issue a Certificate of Appealability.
Respectfully submitted this 16th day of November, 2020.
HORNE SLATON PLLC
By: /s/ Sandra Slaton
Sandra Slaton, Esq.
Attorney for Petitioner

77

Case: 20-16038, 11/16/2020, ID: 11894124, DktEntry: 4, Page 24 of 25

CERTIFICATE OF COMPLIANCE
I, Sandra Slaton, attorney for Appellant Isidro Sauceda, hereby certify:
1.

This Motion for Reconsideration is presented pursuant to Ninth

Circuit Rule 26-10.
2.

Pursuant to Ninth Circuit Rule 40-1, this Motion contains less than

4,200 words.
3.

The word count in this Motion is 4,189 words as determined by

Microsoft Word 365.
Respectfully submitted this 16th day of November, 2020.
HORNE SLATON PLLC
By: /s/ Sandra Slaton
Sandra Slaton, Esq.
Attorney for Petitioner/Appellant

78

Case: 20-16038, 11/16/2020, ID: 11894124, DktEntry: 4, Page 25 of 25

CERTIFICATE OF SERVICE
I

electronically

transmitted

the

above

document,

Motion

For

Reconsideration On Denial Of Certificate Of Appealability, to the Clerk’s office
using the CM/ECF system for filing and sent a Notice of Electronic Filing to the
following ECF registrant:
Terry Michael Crist, III
Office of the Attorney General – Phoenix
2005 N Central Ave.
Phoenix, AZ 85004-1592
602-542-8578
Fax: 602-542-4849
Email: terry.crist@azag.gov
By: /s/ Sandra Slaton

79

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 1 of 36

Sandra L. Slaton, Bar No. 006454
HORNE SLATON, PLLC
6720 N. Scottsdale Rd., Suite 285
Scottsdale, Arizona 85253
Tel. 480-483-2178
Fax. 480-367-0691 fax
slaton@horneslaton.com
Attorney for Petitioner Isidro Sauceda
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Isidro Sauceda,

Case No.: 20-16038
Petitioner/Appellant,

D.C. No. 2:19-cv-01132-NVW
District of Arizona

V.
Charles L. Ryan, Director of the Arizona
Department of Corrections,
Respondent/Appellee,
And

Motion For Certificate Of Appealability

The Attorney General of the State of
Arizona,
Additional Respondent.
Petitioner/Appellant, Isidro Sauceda (“Mr. Sauced”), by and through counsel
undersigned, hereby submits his Motion for Certificate of Appealability. On April 13,
2020, the Magistrate filed the Report and Recommendation and sua sponte stated that a
certificate of appealability should not issue. On April 27, 2020, Mr. Sauceda, through
counsel undersigned, timely filed objections to the Magistrate’s Report and
Recommendation. On April 29, 2020, the District Court adopted the Magistrate’s
Report and Recommendation, dismissed Mr. Sauceda’s petition for a writ of habeas

80

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 2 of 36

corpus and also denied a certificate of appealability to appeal from such order to the
United States Court of Appeals for the Ninth Circuit.
Mr. Sauceda respectfully requests that this Court issue a certificate of
appealability, pursuant to provisions of 28 U.S.C. § 2253, and Rule 22(b) of the Federal
Rules of Appellate Procedure and also submits that he is entitled to redress on appeal.
I.

Introduction
Mr. Sauceda, an innocent man, still sits in prison for a crime he did not commit.

The State of Arizona used a case built on circumstantial evidence and conjecture to
convict Mr. Sauceda of first-degree murder, attempted first-degree murder, aggravated
assault, and assisting a criminal street gang. At no point, was any gun, the weapon used
in the crimes charged, ever located, or presented to the jury. Mr. Sauceda was convicted
on the State’s theory that he was the member of a rival gang which provided him with
the motive to kill.
The State’s theory was built on inconsistent testimony and purported
circumstantial symbols of gang affiliation. For example, the State’s evidence centered
around Mr. Sauceda wearing red colored clothing. None the witnesses who testified at
trial, as fully discussed below, were able to unequivocally identify Mr. Sauceda as the
shooter, nor did they testify that Mr. Sauceda was the one wearing the red clothing.
Indeed, three out of four witnesses were completely unable to identify Mr. Saucedo as
the shooter. The one witness who arguably could identify him, gave inconsistent and
contradictory testimony as to his identification.
Mr. Sauceda’s trial attorney failed to provide effective assistance of counsel.
Indeed, Mr. Sauceda’s trial counsel submitted a sworn affidavit that his failure to object
to the lack of a lesser included offense instruction was ineffective assistance of counsel.
His defense counsel also failed to secure a jury instruction allowing the jury to make a

81

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 3 of 36

negative inference against the state regarding the bullets recovered from Carlos
Sanchez’s skull when Dr. Zacher’s Report specifically illustrated that such bullets were
provided to the police department. Additionally, Mr. Sauceda asserts that his postconviction counsel failed to provide effective assistance of counsel when she submitted
a no-colorable claims notice.
Mr. Sauceda also asserts that trial counsel was ineffective for failure to
investigate. Trial counsel failed to include the medical report of Dr. Zacher in evidence.
As discussed below, the medical report, provides proof that the bullets recovered from
Mr. Sanchez’s head were provided to the police. Dr. Zacher’s Report provided specific
evidence that after the bullets were recovered from Carlos Sanchez’s skull, they were
provided to the police department. Such evidence, written at the time of the surgery,
establishes that the police department was provided the bullets, but at some point lost or
misplaced them, making them unavailable for production to Mr. Sauceda. Mr. Sauceda’s
defense counsel also failed to investigate the testimony of Sherise Ulibarri and Steven
DeLeon who would have provided contradictory testimony to the State’s witness.
In adopting the Report and Recommendation, the District Court wrongly failed
to consider established federal law. The dismissal of Mr. Sauceda’s Petition for Habeas
Corpus was, at the very least, debatable and this Court should issue a certificate of
appealability. Mr. Sauceda has demonstrated a substantial constitutional violation.
II.

A Certificate of Appealability Is Warranted Because Mr. Sauceda Has Made
A Substantial Showing Of A Constitutional Violation:
Pursuant to 28 U.S.C. § 2253(c) and Rule 22(b) of the Federal Rules of Appellate

Procedure, Mr. Sauceda seeks a Certificate of Appealability with respect to all issues
raised in his Petition for Writ of Habeas Corpus. It is respectfully submitted that Mr.
Sauceda has demonstrated a substantial showing of a constitutional violation in arguing
that he was denied his Sixth Amendment right to effective assistance of counsel, was

82

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 4 of 36

denied his Fifth Amendment right to a new trial on the basis of newly discovered
evidence, and was denied his Fifth Amendment right to a new trial and to have his
conviction reversed based upon actual innocence, as more fully set forth below.
The standard for determining when a Certificate of Appealability is warranted
was explained by the Supreme Court in Miller-El v. Cockrell, 537 U.S. 332 (2003). As
former Justice Kennedy opined:
[O]ur opinion in Slack held that a C[ertificate] O[f] A[ppealability] does
not require a showing that the appeal will succeed. Accordingly, a court
of appeals should not decline the application for a COA merely because it
believes the applicant will not demonstrate an entitlement to relief. The
holding in Slack would mean very little if appellate review were denied
because the prisoner did not convince a judge, or, for that matter, three
judges, that he or she would prevail. It is consistent with § 2253 that a
COA will issue in some instances where there is no certainty of ultimate
relief. After all, when a COA is sought, the whole premise is that the
prisoner “‘has already failed in that endeavor.’” (internal citations
omitted).
Id. at 337 (citing Slack v. McDaniel, 529 U.S. 473, 489 (2000). As the Supreme Court
went on to explain: “We do not require petitioner to prove, before the issuance of the
COA, that some jurists would grant the petition for habeas corpus. Indeed, a claim can
be debatable even though every jurist of reason might agree, after the COA has been
granted and the case received full consideration, that petitioner will not prevail.” Id. at
338.
Mr. Sauceda asserts that he has raised at a minimum, and much more, factual and
legal claims of a constitutional magnitude that he has “demonstrate[d] that his petition
involves issues which are debatable among jurists of reason, that another court could

83

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 5 of 36

resolve the issue differently, or that the issues are adequate to deserve encouragement to
proceed further.” Id. at 327.
III.

Mr. Sauceda Has Presented Constitutional Claims That His Sixth
Amendment Right To Effective Assistance Of Counsel Was Violated:
Pursuant to Strickland v. Washington, 466 U.S. 668, 687 (1984), the Supreme

Court has stated: “First, the defendant must show that counsel's performance was
deficient. This requires a showing that counsel made errors so serious that counsel was
not functioning as the ‘counsel’ guaranteed the defendant by the Sixth Amendment.
Second, the defendant must show that the deficient performance prejudiced the defense.”
Specifically, former Justice O’Connor opined in Strickland: “The defendant must show
that there is a reasonable probability that, but for counsel's unprofessional errors, the
result of the proceeding would have been different. A reasonable probability is a
probability sufficient to undermine confidence in the outcome.” Id. at 694 (1984)
(emphasis added).
In the present case, the District Court wrongly adopted the Magistrate’s Report
and Recommendation which repeatedly equivocated the standard set forth in Strickland
with a requirement that Mr. Sauceda illustrate that the outcome “would” have been
different. (Report and Recommendation (“R&R”), p. 17:7-8; 20:24-26). The District
Court essentially “converted Strickland’s prejudice inquiry into a sufficiency-of-theevidence question.” Crace v. Herzog, 798 F.3d 840, 849 (9th Cir. 2015). Mr. Sauceda
was not required to show that the verdict would have been different. Instead, pursuant

84

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 6 of 36

to Strickland and its progeny, Mr. Sauceda was merely required to demonstrate a
“reasonable probability” that undermined the confidence in the outcome.
A.

Ineffective Assistance Of Counsel For Failure To Object To Lack of
Lesser Included Offense Instruction:

The Magistrate determined, and the District Court wrongly adopted such
determination, that the state court’s finding that Sauceda could not show prejudice
through the absence of lesser-included offense instructions “was not an unreasonable
application of Strickland, because counsel’s choice of a sound defense strategy, and any
decisions made regarding the implementation of that strategy, are “virtually
unchallengeable.” R&R at 14:1-8. The failure to request a lesser-included offense
instruction was not a reasonable strategic decision. Mr. Sauceda’s trial counsel himself
admitted that his representation was unreasonable on this basis:
3. During the jury trial of this case, I submitted a memorandum to the court
requesting lesser-included offense instructions of attempted second degree
murder for Counts II and III, which both charged attempted first degree
murder.
4. As the Count of Appeals memorandum decision in this case noted, there
is no on-the-record discussion of the request for the lesser-included
instructions nor is there an on-the-record denial of the request for attempted
second degree murder instructions. Further, there is no objection by defense
counsel when these instructions were not read when the jury was instructed
on the law.
5. The most likely explanation for this is that there was an off-the-record
discussion about these particular instructions and the court denied them. It
was my responsibility as counsel to object and make the necessary record so
that the denial of these lesser-included instructions would be preserved for
appeal. Assuming this is what happened, I failed to object and make the
necessary record.
(Objections to Report and Recommendation (“Objections”), 4/27/2020, p. 2-3 (citing,
Petition for Writ of Habeas Corpus, Appendix Tab A).

85

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 7 of 36

The District Court also wrongly adopted the Magistrate’s Report and
Recommendation that it cannot presume that trial counsel’s performance was ineffective.
Mr. Sauceda was not requesting that the District Court presume that his defense counsel
was ineffective. Instead, through defense counsel’s sworn affidavit, Mr. Sauceda
established that his defense counsel was ineffective in failing to object to a lesser
included offense instruction.

Under Strickland, trial counsel’s affidavit by itself

established that the prong of ineffectiveness was met. Where counsel admits their own
inadvertence in failing to timely execute a plea agreement, the record is sufficiently
developed for examination of an ineffective assistance of counsel claim. United States
v. Vargas-Lopez, 243 F.3d 552 (9th Cir. 2000); See also Hoffman v. Arave, 236 F.3d
523, 535 (9th Cir. 2001).
The failure of counsel to request a lesser included offense instruction
unequivocally interfered with Mr. Sauceda’s defense. “Where one of the elements of the
offense charged remains in doubt but the defendant is plainly guilty of some offense, the
jury is likely to resolve its doubts in favor of conviction.” Beck v. Alabama, 447 U.S.
625, 634 (1980). Defense counsel must seek a lesser-included offense instruction to
avoid the risk of “unwarranted conviction.” Id. at 638. A defendant is not precluded from
receiving a lesser-included offense instruction even where he asserts an all-or-nothing
defense. United State v. Crutchfield, 547 F.2d 496, 501 n. 4 (9th Cir. 1977). Providing
the jury with the “third option” of convicting on a lesser included offense ensures that
the jury will accord the defendant the full benefit of the reasonable-doubt standard. This
procedural safeguard is especially important in cases such as this one. The State’s entire

86

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 8 of 36

case was built on circumstantial evidence. However, because Mr. Sauceda’s counsel
failed to object to the trial court’s own failure to provide a lesser included offense jury
instruction, the jury was only presented with two options: convict of first-degree murder
or acquit.
The

District

Court

wrongly

adopted

the

Magistrate’s

Report

and

Recommendation which determined that there was “not an unreasonable application of
Strickland” and accepted the Arizona appellate court’s conclusions on the issue finding
that as a consequence of transferred intent:
[T]o find Defendant guilty of premeditated first degree murder of his friend,
the jury had to necessarily conclude that Defendant deliberately and with
premeditation attempted to kill the other victims. Under these circumstances,
Defendant cannot meet his burden of showing any likelihood that the jury
would have found him guilty of a lesser offense on the two counts of
attempted first degree murder if a lesser-included offense instruction had
been given.
R&R at13:14-25. Such an analysis, however, presumes that the jury would have found
premeditation for any/all of the victims, even if it were provided a lesser-included
offense instruction. Pursuant to Beck, which concluded that if given a lesser-included
offense instruction, a jury would not have resolved its doubts toward conviction, here
too it is reasonably probable that the jury would not have found premeditation. Further,
the Strickland standard
[D]oes not require a court to presume … that, because a jury convicted the
defendant of a particular offense at trial, the jury could not have convicted
the defendant on a lesser included offense based upon evidence that was
consistent with the elements of both. To think that a jury, if presented with
the option, might have convicted on a lesser included offense is not to suggest
that the jury would have ignored its instructions. On the contrary, it would
be perfectly consistent with those instructions for the jury to conclude that

87

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 9 of 36

the evidence presented was a better fit for the lesser included offense. The
Washington Supreme Court thus was wrong to assume that, because there
was sufficient evidence to support the original verdict, the jury necessarily
would have reached the same verdict even if instructed on an additional
lesser included offense.
(Emphasis added). Crace 798 F.3d at 847 (reaffirming Strickland’s “reasonable
probability standard,” citing Strickland, 466 U.S. at 694).
In Crace v. Herzog, the Ninth Circuit observed that Beck created a “due process”
rule, Crace, 798 F.3d at 851, n.8, and found that the lack of a lesser included offense
instruction was a “constitutional violation” which warranted habeas corpus relief. Id. at
846. The failure of trial counsel to request a lesser-included offense instruction violated
Mr. Sauceda’s right to due process. Mr. Sauceda could have been convicted of lesser
offenses—or it is reasonably probable that he may not have been unanimously convicted
at all.
At the very least, Mr. Sauceda has presented a claim which is debatable among
jurists. Therefore, this Court should issue a certificate of appealability and allow Mr.
Sauceda to appeal the District Court’s dismissal of his Petition for Habeas Corpus on
this basis.
B.

Ineffective Assistance Of Counsel Claim Regarding Failure To
Request A Willits Instruction Was Not Procedurally Defaulted:

The District Court wrongly adopted the Magistrate’s finding that Mr. Sauceda
claim of ineffective assistance of counsel regarding failure to request a Willits instruction
was procedurally defaulted. Indeed, it cannot be disputed that Mr. Sauceda raised this
issue in the State court starting with his timely filed Second post-conviction petition. On

88

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 10 of 36

the denial of that petition, Mr. Sauceda appealed that ruling including the appeal of the
failure to include the jury instruction which was decided on the merits by the Arizona
state courts. (Objections, p. 5 (citing Second Rule 32 Petition, p. 4-6; Petition for Review,
p. 4-5).
Even assuming the claim was procedurally defaulted, Mr. Sauceda has
established, pursuant to Martinez v. Ryan, 566 U.S. 1, 17 (2012), that procedural default
would not bar his claim:
[W]here, under state law, claims of ineffective assistance of trial counsel
must be raised in an initial-review collateral proceeding, a procedural default
will not bar a federal habeas court from hearing a substantial claim of
ineffective assistance at trial if, in the initial-review collateral proceeding,
there was no counsel or counsel in that proceeding was ineffective.
Id. at 17.
The District Court improperly adopted the Magistrate’s Report and
Recommendation regarding the failure to secure a jury instruction on the State being
unable to produce the bullets recovered from Carlos Sanchez’s head. Indeed, a Willits
instruction, from the case of State v. Willits, 96 Ariz. 185 (1964). In Willits, Arizona
supreme court determined that a jury instruction would permit the jury to find that loss,
or destruction, of evidence by the State would allow the jury to form an inference against
the State’s interest. Id. at 187. Furthermore, “a finding of ‘bad faith’ is not a prerequisite
to this corrective procedure." Glover v. BIC Corp., 6 F.3d 1318, 1329 (9th Cir. 1993);
see also Buckley v. Mukasey, 538 F.3d 306, 323 (4th Cir. 2008) (quoting Vodusek v.
Bayiner Marine Corp., 71 F.3d 148, 156 (4th Cir. 1995). Where lost or destroyed
evidence is relevant to the defense, and the deprivation of evidence to support

89

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 11 of 36

defendant’s theories proves to be prejudicial, the imposition of an adverse inference
instruction is warranted. See Cyntegra, Inc. v. IDEXX Labs., Inc., 322 Fed. Appx. 569,
572 (9th Cir. 2009). Mr. Sauceda was never even able to present the issue of the Willits
instruction completely because of the absence of a crucial material record, Dr. Zacher’s
report. Had Mr. Sauceda received the Willits instruction, it would have allowed the jury
to form a negative inference against the state.
Mr. Sauceda claimed that his trial counsel’s failure to introduce the medical
records of Carlos Sanchez was prejudicial. There was a reasonable probability that
presenting the additional evidence from Dr. Zacher’s report, could have resulted in a
different outcome. The State’s case against Mr. Sauceda relied entirely on a theory that
there was only one (1) gun present, a gun that was never even produced for the jury. Dr.
Zacher’s report was evidence that contradicted the State’s theory that there was only one
(1) gun present at the party on the night of the shooting. Three bullets were found to
have gone through the walls of the den, one bullet was found under Kristopher
Dominguez’s pant leg, and two bullets were still inside Carlos Sanchez’s skull as there
were no exit wounds. (Id., p. 6:17-18). There were seven bullets fired inside of the
house. Only five bullet casings were found inside the small den. (Trial Exhibits 9, 10,
12, 13, 14). Another two bullet casings were discovered outside of the house. (Trial
Exhibit 15 and 16). Three bullets were fired outside of the house, two remained in Razo’s
body, and another was embedded in an exterior wall of the house. The State’s theory at
trial was predicated on the theory that there were five casings and five bullets found
inside of the den, and two casings and two bullets found outside, and all were fired from

90

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 12 of 36

the same gun. Dr. Zacher’s report strongly undermines the State’s one (1) gun theory
and establishes a debate regarding the appealability in this case.
The District Court improperly adopted the Magistrate’s Report and
Recommendation rejecting Mr. Sauceda’s ineffective assistance of counsel claim
regarding Mr. Sauceda’s trial counsel failing to object to the trial court’s denial of a
Willits instruction. Mr. Sauceda has established that a Willits instruction was supported.
Dr. Zacher’s report, which was written in real time in relation to the incident in question,
corroborates the fact that these bullets were given to the police and yet the police did not
have this evidence to produce to the defendant. Dr. Zacher testified at trial, but the report
was never admitted into evidence by counsel. (Id. at p. 7). While Dr. Zacher testified
that the procedure was that the specimens were to be handed over to the police, he could
not confirm whether the procedure was followed. At trial, Detective Bruce Lowe
testified that bullets had been removed from the head of Carlos Sanchez. When asked if
the fragments were in the custody of the Glendale Police Department, he stated “Not
that I’m aware of.” (ROA 563 at p. 8:4-7). However, Dr. Zacher’s report clearly stated:
“These bullets were sent to the authorities via the standard protocol. The only specimens
from this procedure were the bullet fragments.” (Dr. Zacher’s Report, attached as
Exhibit A). Therefore, res ipsa loquitur, the only inference is that the evidence was lost
or destroyed while in police custody.
Mr. Sauceda has established that a certificate of appealability should issue
because it is, at the very least, debatable that his trial counsel was ineffective for failing
to argue that a Willits instruction was warranted. There is a reasonable probability, at a

91

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 13 of 36

minimum, that a Willits instruction could have resulted in a completely different
outcome because the jury would have been able to make an inference against the State.
C.

Mr. Sauceda’s Trial Counsel Was Ineffective For Failure To
Investigate:

Mr. Sauceda’s claims of newly discovered evidence were not freestanding, as
they also support Mr. Sauceda’s claim of ineffective assistance of counsel. In Rios v.
Rocha, 299 F.3d 796, 799 (9th Cir. 2002), the Ninth Circuit overturned a denial of
habeas relief on the grounds that deficiency of counsel was prejudicial. In Rios, the
Ninth Circuit determined, where five undiscovered witnesses later testified that
defendant was not the shooter there was a reasonable probability the outcome would
have been different, and defendant was unfairly prejudiced. Id. at 800. Counsel was
found to be ineffective to defendant’s prejudice in Rios because the newly discovered
witness testimony that counsel did not duly investigate would probably have changed
the outcome As stated by the Rios court quoting Lord v. Wood, “the failure to investigate
is especially egregious when a defense attorney fails to consider potentially exculpatory
evidence. See Lord v. Wood, 184 F.3d 1083, 1093 (9th Cir.1999) (“A lawyer who fails
adequately to investigate, and to introduce into evidence, information that demonstrates
his client's factual innocence, or that raises sufficient doubts as to that question to
undermine confidence in the verdict, renders deficient performance.”). Similarly, in the
present case, Mr. Sauceda put forth newly discovered evidence, the crucial testimony of
Sherise Ulibarri and Steven DeLeon that his trial counsel did not duly investigate.
Neither Ms. Ullibari nor Mr. DeLeon testified during the guilt phase of trial. While Ms.

92

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 14 of 36

Ulibarri testified during the penalty phase, the prejudice to Mr. Sauceda had already
occurred. Both witnesses provided testimony that contradicted the State’s overriding
theory that Mr. Sauceda was wearing red and a was member of a rival gang. Such
evidence, had it been presented to the jury, at the very least, could probably have resulted
in a different outcome.
The State hinged its theory on the color of the clothing Mr. Sauceda was wearing
as establishing gang affiliation and motive to attack the victims, who were rival gang
members. The State referenced the color “red” and “red rag” throughout the trial,
including in its opening statement and closing argument:
• “There’s also clothing or color. We already heard from more than one
person he was wearing red clothing. He had some kind of red
shoelaces, red bandana. It’s the night of the party, okay. As we heard
from person after person, lay witnesses, we know about gangs -- as
well as detectives, okay. The red color associated is associated with
the Phoeniquera gang, all right.” See RT 08/13/08, ROA 573, p.
25:15-21 (emphasis added);
• “Even people who did not point him out they described the person
who was doing the apologizing with the gun and the red bandanas,
okay.” Id. at 53:4-7 (emphasis added);
• “There was one person wearing red bandana okay.” Id. at 56:9
(emphasis added);
• “He said he was, the defendant, was wearing gray shoes with red
stripes or laces … And then Marcus said he was wearing a gray cap
with red trim and a red bandana underneath that cap.” Id. at 62:6-7,
17-18 (referencing description given by Marcus Dominguez)
(emphasis added);
• “It was the red.” Id. at 76:16 (emphasis added).
(Objections, p. 11-12) (see also Affidavits of Sherise Ulibarri and Steven DeLeon,
attached hereto as Exhibits B and C).

93

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 15 of 36

Most of the victims were members of the Califas gang. The State being able to
establish that Mr. Sauceda was a member of the rival gang, the Phoeniqueras, was crucial
to the State’s case. The State relied on witnesses who had given multiple inconsistent
statements regarding the identification of Mr. Sauceda and what he was wearing.
Mr. Dominguez’s testimony was not consistent at all during examination and
cross-examination. He first testified: “They [the shots] were coming from Isidro up there,
from on top.” (Objections, p. 12 ¶ 14 (citing RT 7/9/08, ROA 584, p. 81)). Mr.
Dominguez later testified on cross-examination that he never saw Mr. Sauceda shoot.
Yet again, Mr. Dominguez switched his testimony back to stating that Mr. Sauceda was
the shooter. (Objections, p. 12:11-17). Mr. Dominguez further testified that Mr. Sauceda
was wearing a lot of grey that night, which did not support the State’s theory that Mr.
Sauceda was wearing red. (Id., p. 12:15-17). Indeed, Mr. Dominguez’s testimony reads
in pertinent part:
And then you say: Oh, yeah gray Dickies and gray muscle shirt, a gray
sweater, a gray cap with red trimmings on the cap and he had a red rag I
think under that.
Then you said: And he has a white shirt under the sweater. He was kind
of skinny, little bit skinnier than me. He’s 24. He had a mustache, a beard.
He has tattoos of spiders on his arms or something.
Is that -- does that sound about right to you?
A. Yes.
Q. As far as what he [Mr. Sauceda] was wearing that night?
A. Yes.
(See Reporter’s Transcript, 7/9/2008, p. 62:11-23).

94

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 16 of 36

Mr. Villagrana admitted on cross-examination that he could not identify the
shooter. (Id. at p. 12:17-18 (citing RT 07/14/2008, p. 85. (“You don’t know who the
shooter was, correct?” “Correct.” Id. at 88)).
Mr. Razo did not make an in-court identification, and only said that the shooter
was wearing what “looked like a lot of red.” (Objections, p. 12 (citing RT 07/14/2008,
p. 136). When asked if the person who shot him was in the courtroom, Mr. Razo
answered “No.” (Objections, p. 12 (citing RT 07/14/2008, p. 147)). Mr. Borja told police
officers that he did not even know Mr. Sauceda was at the party, (Objections, p. 12
(citing RT 07/16/08, p. 77)), and confirmed this in a police interview, Id. at p. 80. When
asked at trial “Now isn’t it true you didn’t know it was Cheeto [Mr. Sauceda] at the
time?”, Mr. Borja responded “I still don’t know.” (Id.).
Mr. Dominguez was the only witness who even arguably could be said to have
identified Mr. Sauceda as the shooter. However, as detailed above, Mr. Dominguez’s
testimony was inconsistent, and he was specifically impeached on his testimony that Mr.
Sauceda was the shooter. Furthermore, Mr. Dominguez testified that Mr. Sauceda was
wearing grey clothing not red.
The sworn affidavits from Ms. Ulibarri and Mr. Deleon, directly contradicted the
inconsistent witness testimony from trial as detailed above. Ms. Ulibarri, Mr. Sauceda’s
girlfriend at the time, provided a sworn affidavit after the trial court had dismissed Mr.
Sauceda’s first Rule 32 Petition. See Second PCR at 6:12-13. Indeed, it was Mr. Sauceda,
and counsel undersigned, who discovered this new evidence during the time the petition
for review was pending on the denial of his first post-conviction petition. Ms. Ulibarri

95

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 17 of 36

swore under penalty of perjury the following facts about December 13, 2003, the night
of the shooting:
7. On that particular day, December 13, 2003, I personally bought Isidro
a pair of Jordan tennis shoes as a Christmas present. The shoes were all
black with black shoelaces.
8. I personally tied Isidro’s new shows [sic] right before Isidro left for the
party on December 13, 2003.
9. I personally remember that Isidro was not wearing any garment that
night which was red in color.
10. I remember that Isidro was dressed in jeans and a dark colored
sweatshirt on the night in question.
[…]
12. To my personal knowledge, Isidro Sauceda was never in a gang, and
I never saw any indication of gang related activity or affiliation on his
part.
13. Also, I did not see any gun on Isidro Sauceda ever, including
December 13, 2003, and to my personal knowledge he did not own a
weapon or [sic] any type.
(Objections, p. 13:14-22; see also Exhibit B).
Steven Deleon, a lifelong friend of Mr. Sauceda, also provided an affidavit. Mr.
Deleon stated under penalty of perjury:
5. I remember being with Isidro during the entire day on December 13, 2003
and into the early morning hours of December 14, 2003.
6. On that particular day of December 13, 2003, I specifically remember that
Isidro was wearing dark blue or black clothing and a pair of brand new black
colored ‘Jordan’ tennis shoes, who Isidro told me, were bought for him by
his then girlfriend Cherise [sic] Ulibarri.
7. I happen to remember this fact about the tennis shoes because I liked them
so much I tried them on, and Isidro had to tell me to take those shoes off.
8. I remember that Isidro had the shoes on when we left for the party.
8. [sic] I remember arguing with Isidro on who would wear the new Jordan
shoes on the night of December 13, 2003. Since they were Isidro’s new shoes
he wore them to the party.
9. I remember that Isidro was not wearing any garment that night which was
red in color.
10. Having known Isidro since we were children together, I had an
opportunity to regularly observe what Isidro would wear in clothing type and

96

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 18 of 36

color. I never remember observing Isidro wearing a red bandana or
handkerchief around his head or anywhere on his body, including December
13, 2003.
10. [sic] On December 13, 2003 I was with Isidro and other friends when we
were all searched at the front door of the party for weapons.
12. [sic] To my personal knowledge Isidro Sauceda did not have a gun on the
night of December 13, 2003 because I personally saw the individual at the
entrance of the party search Isidro, myself and others. I did not see any gun
emerge from the person of Isidro at that time.
13. [sic] Also, I did not see any gun on Isidro Sauceda ever, including
December 13, 2003, and to my best personal knowledge he did not own a
weapon of any type.
14.[sic] To my personal knowledge Isidro was not then, nor has he ever been,
a gang member or affiliated with any gang.
(Objections, p. 14:4-20; see also Exhibit C).
Ms. Ulibarri was only briefly contacted by Mr. Sauceda’s trial counsel once and
was only called as a witness during the penalty phase of trial. Ms. Ulibarri was never
asked to testify during the guilt phase.
Mr. Deleon was only briefly contacted by an investigator in 2006 long before
trial, but was never contacted by the police, and was never called as a witness at trial.
Similar to the “constitutionally deficient performance” of trial counsel in Rios,
here too, Mr. Sauceda’s trial counsel was ineffective for failure to investigate. The
absence of the testimony of Ms. Ulibarri and Mr. DeLeon at trial severely prejudiced
Mr. Sauceda, as they would have substantially undermined the State’s core theory that
Mr. Sauceda was wearing red and was the shooter. Central to the State’s theory was an
inference that Mr. Sauceda was associated with a gang, the Phoeniqueras, the rival gang
to which the victims belonged.

97

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 19 of 36

Again, Mr. Sauceda has presented, at the very least, a debatable position
establishing that a certificate of appealability should issue on this basis.
D.

Findings On Ineffective Assistance Of Post-Conviction Counsel As
Contrary To Established Federal Law:

The Magistrate found, and the District Court wrongly adopted those findings, that
Mr. Sauceda could not bring an ineffective assistance of counsel claim regarding his
appointed post-conviction counsel.

However, Martinez, supra, clearly established a

federal equitable right to plead ineffective assistance of post-conviction counsel in a
federal habeas petition.

Martinez, 566 U.S. at 6. “These rules reflect an equitable

judgment that only where a prisoner is impeded or obstructed in complying with the
State’s established procedures will a federal habeas court excuse the prisoner from the
usual sanction of default.” Id. at 13 (emphasis added). Although not a constitutional
remedy, it is well-establish Supreme Court precedent that a habeas petitioner may raise
an ineffective assistance of counsel regarding their post-conviction counsel. Such a rule
is designed to permit Mr. Sauceda to claim in a habeas context that his constitutional
right to due process and effective representation were violated. That is exactly what Mr.
Sauceda did in the present case.
Mr. Sauceda was appointed post-conviction counsel pursuant to Arizona statutes,
A.R.S. § 13-4301.

Post-conviction counsel filed a “no issue” claim.

However,

following that “no issue” claim Mr. Sauceda filed a post-conviction claim that at the
bare minimum established a claim to ineffective assistance of counsel based upon Mr.
Sauceda’s defense counsel’s sworn affidavit.

98

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 20 of 36

As former Justice Kennedy opined in Martinez, when post-conviction
proceedings are the first chance of a defendant to challenge the effective assistance of
counsel, the defendant needs competent counsel do so or fair process has not been
provided. Martinez, 566 U.S. at 10-11. It is axiomatic that there is no right without a
remedy: ubi jus ibi remedium – no right without a remedy. As the Supreme Court stated
in Martinez:
To present a claim of ineffective assistance at trial in accordance with the
State’s procedures, then, a prisoner likely needs an effective attorney.
The same would be true if the State did not appoint an attorney to assist
the prisoner in the initial-review collateral proceeding. The prisoner,
unlearned in the law, may not comply with the State’s procedural rules or
may misapprehend the substantive details of federal constitutional law.
[citation omitted] While confined to prison, the prisoner is in no position
to develop the evidentiary basis for a claim of ineffective assistance, which
often turns on evidence outside the trial record.
Martinez, 566 U.S. at 12 (emphasis added). In the present case, while Mr. Sauceda was
appointed counsel, his appointed counsel failed to effectively assist him in the
presentation of his post-conviction claims.
As required, Mr. Sauceda has established that it is debatable that he can bring a
claim that post-conviction counsel was ineffective.

Therefore, a certificate of

appealability should be granted on this basis as well.
IV.
The

Mr. Sauceda Has Presented Constitutional Claims Regarding Newly
Discovered Evidence:
District

Court

wrongly

adopted

the

Magistrate’s

Report

and

Recommendation finding that Mr. Sauceda was unable to establish newly discovered
evidence existed. Pursuant to Arizona Rules of Criminal Procedure Rule 32.1, Mr. Lund

99

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 21 of 36

established that the evidence discovered after trial was discovered with due diligence.
Pursuant to State v. Bilke, 162 Ariz. 51, 53 (2016), due diligence is established when the
defendant is actively seeking a remedy pursuant to Arizona Rules of Criminal Procedure,
Rule 32.
Indeed, Mr. Sauceda himself discovered Dr. Zacher’s Report, as fully discussed
above, and the testimony of Ms. Ulibarri and Mr. DeLeon, as fully discussed above,
while the appeal of his first post-conviction was pending.
Mr. Sauceda established that the evidence was discovered after trial, where the
jury in its capacity could not fully weigh the credibility of the eyewitness testimony. See
Sanders v. Ratelle, 21 F.3d 1446, 1457 (9th Cir. 1994) (reversing denial of habeas in
part for trial counsel’s failure to acquire a statement from a witness who admitted to
committing the charged crime); Riley v. Payne, 352 F.3d 1313, 1318-25 (9th Cir. 2003)
(reversing denial of habeas in part for trial counsel’s objectively unreasonable
performance in failing to interview or call defendant’s associate and eyewitness to the
incident).
Mr. Sauceda has presented a debatable claim on which not all jurists would agree
regarding the evidence discovered after trial and presented in his second post-conviction
relief petition. Therefore, Mr. Sauceda requests that this Court issue a certificate of
appealability.
V.
The

Mr. Sauceda Has Presented Claims Of Actual Innocence:
District

Court

wrongly

adopted

the

Magistrate’s

Report

and

Recommendation that Mr. Sauceda has not offered any evidence that affirmatively

100

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 22 of 36

proves his innocence. R&R at 25:2. 1251. However, as established above, the evidence
affirmatively demonstrates that Mr. Sauceda was innocent. Where the State’s theories
were very narrow and relied on sparse, inconsistent, and inferential evidence that was
purely circumstantial in nature, Mr. Sauceda’s newly discovered evidence establishes
actual innocence.
The evidence in Dr. Zacher’s report, together with the affidavits of Ms. Ulibarri
and Mr. DeLeon, demonstrate Mr. Sauceda’s innocence. Dr. Zacher’s report establishes
that there were two bullets which were not accounted for in the State’s theory. This also
established that there were seven bullets fired within the house but only five casings
were recovered by the police. In fact, the report of Dr. Zacher establishes that the two
unaccounted for bullets could have been fired by a second gun. Furthermore, the
disappearance of the bullets would have created an inference against the State with a
proper Willits instruction. The discovery of unaccounted for and now missing bullets
heavily undermines the State’s one-gun theory. The evidence of Dr. Zacher does
affirmatively prove innocence.
The evidence of Ms. Ulibarri and Mr. Deleon also, as explained above,
contradicts the State’s identification of Mr. Sauceda as the shooter. The State’s reliance
on inconsistent witness testimony that Mr. Sauceda was wearing “red clothes” and a
member of a rival gang, the Phoeniqueras, is completely undermined and contradicted
by the testimony sworn statements of Ms. Ulibarri and Mr. DeLeon.
Ms. Ulibarri stated in her sworn affidavit that Mr. Sauceda was not wearing red
that night and had never previously worn red to her knowledge. In fact, Ms. Ulibarri

101

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 23 of 36

stated Mr. Sauceda was dressed in all-black or dark colored clothing. Such testimony
would have contradicted inconsistent testimony of purported “eyewitness” claims that
Mr. Sauceda had been wearing red shoelaces or a red bandana.
Mr. Deleon’s testimony corroborated Ms. Ulibarri’s account exactly. Their sworn
statements undercut the inconsistent testimony at trial by witnesses that the State made
regarding Mr. Sauceda wearing red clothing on the night of the shooting. Three of the
State’s eyewitnesses could not identify the shooter; the one who even arguably identified
Mr. Sauceda gave inconsistent testimony, was impeached on cross-examination, and
described Mr. Sauceda as was wearing grey clothing, not red. Had the State presented a
stronger theory of guilt, witness accounts of clothing might not rise to the level of
affirming innocence, but when the State’s entire means of identification relied on
clothing color, these affidavits—perfectly consistent with each other—do affirmatively
prove innocence.
Mr. Sauceda has, at a minimum, presented a debatable issue among jurists.
Therefore, Mr. Sauceda asserts that this Court should issue a certificate of appealability
on this basis.
VI.

Mr. Sauceda Presented
Constitutional Violations:

Integrated

Issues

Which

Establish

Mr. Sauceda was not merely attempting to establish a claim that newly discovered
evidence exists or that he has a free-standing claim of factual innocence. Indeed, Mr.
Sauceda’s claim of factual innocence is based on evidence discovered after trial that his
trial counsel failed to investigate. “A lawyer who fails adequately to investigate, and to

102

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 24 of 36

introduce into evidence records that demonstrate his client's factual innocence, or that
raise sufficient doubt as to that question to undermine confidence in the verdict, renders
deficient performance.” Hart v. Gomez, 174 F.3d 1067, 1070 (9th Cir. 1999). Mr.
Sauceda has presented a debatable issue which establishes that he should be granted a
certificate of appealability on this issue.
VII.

Conclusion

Based upon the foregoing, Petitioner, Isidro Sauceda, requests that this Court
issue a Certificate of Appealability in this matter as set forth above. Mr. Sauceda has
raised debatable issues regarding the constitutional violation of his Sixth Amendment
right to effective assistance of counsel and to have his conviction reversed based upon
actual innocence. Therefore, Mr. Sauceda requests that this Court issue a certificate of
appealability on all of Mr. Sauceda’s claims.
Respectfully submitted this 29th day of June, 2020.
HORNE SLATON PLLC
By: /s/ Sandra Slaton
Sandra Slaton, Esq.
Attorney for Petitioner

103

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 25 of 36

I electronically transmitted the above document, Motion for Certificate of
Appealability, to the Clerk’s office using the CM/ECF system for filing and sent a Notice
of Electronic Filing to the following ECF registrant:
Terry Michael Crist, III
Office of the Attorney General – Phoenix
2005 N Central Ave.
Phoenix, AZ 85004-1592
602-542-8578
Fax: 602-542-4849
Email: terry.crist@azag.gov
By: /s/ Sandra Slaton

104

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 26 of 36

EXHIBIT A

105

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 27 of 36

106

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 28 of 36

EXHIBIT B

107

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 29 of 36

108

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 30 of 36

109

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 31 of 36

110

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 32 of 36

EXHIBIT C

111

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 33 of 36

112

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 34 of 36

113

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 35 of 36

114

Case: 20-16038, 06/29/2020, ID: 11737021, DktEntry: 2, Page 36 of 36

115

Case 2:19-cv-01132-NVW Document 16 Filed 05/28/20 Page 1 of 2

Sandra L. Slaton, Bar No. 006454
HORNE SLATON, PLLC
6720 N. Scottsdale Rd., Suite 285
Scottsdale, Arizona 85253
Tel. 480-483-2178
Fax. 480-367-0691 fax
slaton@horneslaton.com
Attorney for Petitioner Isidro Sauceda
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
Isidro Sauceda,

No. CV 19-01132 PHX NVW (CDB)
The Hon. Neil V. Wake

Petitioner,

NOTICE OF APPEAL

V.
Charles L. Ryan, Director of the Arizona
Department of Corrections,
Respondent,
And
The Attorney General of the State of
Arizona,
Additional Respondent.

Notice is hereby given that Petitioner, Isidro Sauceda, in the above named case, through
counsel undersigned, hereby appeals to the United States Court of Appeals for the Ninth Circuit
from the entire order and final judgment of the United States District Court denying petitioner’s
application for writ of habeas corpus, accepting the report and recommendation of the
Magistrate, and denying the certificate of appealability in this proceeding on April 29, 2020.
Respectfully submitted this 28th day of May, 2020.
HORNE SLATON PLLC
By: /s/ Sandra Slaton
Sandra Slaton, Esq.
Attorney for Petitioner

116

Case 2:19-cv-01132-NVW Document 16 Filed 05/28/20 Page 2 of 2

I electronically transmitted the above document, Notice of Appeal, to the Clerk’s office
using the CM/ECF system for filing and sent a Notice of Electronic Filing to the following ECF
registrant:
Terry Michael Crist , III
Office of the Attorney General – Phoenix
2005 N Central Ave.
Phoenix, AZ 85004-1592
602-542-8578
Fax: 602-542-4849
Email: terry.crist@azag.gov
By: /s/ Sandra Slaton

117

Case 2:19-cv-01132-NVW Document 13 Filed 04/27/20 Page 1 of 19

1
2
3
4

Sandra L. Slaton, Bar No. 006454
HORNE SLATON, PLLC
6720 N. Scottsdale Rd., Suite 285
Scottsdale, Arizona 85253
Tel. 480-483-2178
Fax. 480-367-0691 fax
slaton@horneslaton.com
Attorney for Petitioner Isidro Sauceda
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA

5
6

No. CV 19-01132 PHX NVW (CDB)
The Hon. Neil V. Wake

Isidro Sauceda,
Petitioner,

7

OBJECTION TO REPORT AND
RECOMMENDATIONS

8

V.

9

Charles L. Ryan, Director of the Arizona
Department of Corrections,
Respondent,
And

10
11
12

The Attorney General of the State of
Arizona,
Additional Respondent.

13
14
15

Petitioner, ISIDRO SAUCEDA (“Mr. Sauceda”), through counsel undersigned,

16

hereby files his Objection to Report and Recommendations of the Honorable Camille D.

17

Bibles as follows:

18

RESPECTFULLY SUBMITTED this 27th day of April, 2020

19

HORNE SLATON PLLC

20

By: /s/ Sandra Slaton
Sandra Slaton
Attorney for Petitioner

21
22
23
24
25

118

Case 2:19-cv-01132-NVW Document 13 Filed 04/27/20 Page 2 of 19

1

MEMORANDUM OF POINTS AND AUTHORITIES

2

Petitioner has been in prison since approximately 2008 for convictions of which

3

he is innocent. The entire case against Petitioner is built on prejudicial innuendo and

4
5
6

circumstantial evidence: 1) The gun, which is the weapon which Petitioner purportedly
used in the shootings was never found; 2) There was only conflicting testimony as to
Petitioner’s identity as the shooter; and, 3) Virtually the entire case was built on the

7

color “red” for the clothing that Petitioner allegedly wore on the night in question,
9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

10

associated with a gang membership. Petitioner’s counsel was prejudicially ineffective
during trial and post-conviction phases of the case. Petitioner asks for relief in his habeas

11

and objects to the Magistrate’s report and recommendation as follows:

12

I.

Objections On Magistrate’s Report Re: Ineffective Assistance of Counsel:

13

Under Strickland v. Washington, “First, the defendant must show that counsel's

14

performance was deficient. This requires a showing that counsel made errors so serious

15

that counsel was not functioning as the “counsel” guaranteed the defendant by the Sixth

16

Amendment. Second, the defendant must show that the deficient performance

17

prejudiced the defense.” Strickland v. Washington, 466 U.S. 668, 687 (1984).

18

Specifically: “The defendant must show that there is a reasonable probability that, but

19

for counsel's unprofessional errors, the result of the proceeding would have been
20

different. A reasonable probability is a probability sufficient to undermine confidence
21
22
23
24

in the outcome.” Id. at 694 (1984) (emphasis added). Petitioner first objects to the
Magistrate’s repeated equivocation of the standard as requiring a showing that the

1

25

119

Case 2:19-cv-01132-NVW Document 13 Filed 04/27/20 Page 3 of 19

1

outcome would have been different. Report and Recommendation, (“R&R”) at p. 17:7-

2

8. R&R at 20:24-26). The Magistrate, “in essence converted Strickland's prejudice

3

inquiry into a sufficiency-of-the-evidence question.” Crace v. Herzog, 798 F.3d 840,

4
5

849 (9th Cir. 2015). Petitioner is not required to show that the verdict would have been
different, merely a reasonable probability that undermines confidence in the outcome.

6

A.

Objection to Lesser-Included Offense Instruction:

1.

The Magistrate determined that the state court’s finding that Sauceda

7

9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

10

could not show prejudice by the absence of lesser-included offense instructions “was not
an unreasonable application of Strickland, because counsel’s choice of a sound defense

11

strategy, and any decisions made regarding the implementation of that strategy, are

12

“virtually unchallengeable.” R&R at 14:1-8. According to the Magistrate, “[t]he

13

petitioner bears the burden of demonstrating that his attorney’s decision to not request a

14

lesser-included offense instruction was other than a “reasonable strategic decision,”

15

which it found Petitioner “makes no such showing.” R&R at 14:22-24. Petitioner objects

16

to the Magistrate’s findings, on the basis that Petitioner did show that the failure to

17
18

request a lesser-included offense instruction was not a reasonable strategic decision.
Petition for Review, p. 18. Trial counsel himself admitted in a filed Affidavit that his

19

representation was unreasonable on this basis:
20
21
22
23
24

3. During the jury trial of this case, I submitted a memorandum to the court
requesting lesser-included offense instructions of attempted second degree
murder for Counts II and III, which both charged attempted first degree
murder.
4. As the Count of Appeals memorandum decision in this case noted, there
is no on-the-record discussion of the request for the lesser-included
2

25

120

Case 2:19-cv-01132-NVW Document 13 Filed 04/27/20 Page 4 of 19

1
2
3
4
5
6
7

6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

instructions nor is there an on-the-record denial of the request for attempted
second degree murder instructions. Further, there is no objection by defense
counsel when these instructions were not read when the jury was instructed
on the law.
5. The most likely explanation for this is that there was an off-the-record
discussion about these particular instructions and the court denied them. It
was my responsibility as counsel to object and make the necessary record so
that the denial of these lesser-included instructions would be preserved for
appeal. Assuming this is what happened, I failed to object and make the
necessary record.
See Appx. Tab A; ROA, item 613, Appendix B and C.
2.

The Magistrate cannot presume that trial counsel’s performance was

9

effective, R&R at 14:4-11, when this contradicts trial counsels’ own affidavit sworn to

10

under oath. Under Strickland, trial counsel’s affidavit alone undermines confidence in

11
12

the outcome, and by itself should be enough to establish the ineffectiveness prong of
Strickland. Where counsel admits their own inadvertence in failing to timely execute a

13

plea agreement, the record is sufficiently developed for examination of an ineffective
14

assistance of counsel claim. United States v. Vargas-Lopez, 243 F.3d 552 (9th Cir.
15
16
17

2000); See also Hoffman v. Arave, 236 F.3d 523, 535 (9th Cir. 2001). The failure of
counsel to request a lesser included offense instruction did interfere with Petitioner’s

18

defense. “Where one of the elements of the offense charged remains in doubt but the

19

defendant is plainly guilty of some offense, the jury is likely to resolve its doubts in

20

favor of conviction.” Beck v. Alabama, 447 U.S. 625, 634 (1980). Defense counsel must

21

seek a lesser-included offense instruction to avoid the risk of “unwarranted conviction.”

22

Id. at 638. A defendant is not precluded from receiving a lesser-included offense

23

instruction even where he asserts an all-or-nothing defense. United State v. Crutchfield,

24

3

25

121

Case 2:19-cv-01132-NVW Document 13 Filed 04/27/20 Page 5 of 19

1

547 F.2d 496, 501 n. 4 (9th Cir. 1977). “Providing the jury with the “third option” of

2

convicting on a lesser included offense ensures that the jury will accord the defendant

3

the full benefit of the reasonable-doubt standard. This procedural safeguard is especially

4
5

important in cases such as this one, built on virtually all circumstantial evidence.

The

jury was only presented with two options: convict of first degree murder, or acquit.

6

3.

To emphasize, the Magistrate puts forth as

“not an unreasonable

7

application of Strickland” (R&R at 12:14) the state appellate court’s conclusions on the
9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

10
11
12
13

issue, finding that, as a consequence of transferred intent:
to find Defendant guilty of premeditated first degree murder of his friend, the
jury had to necessarily conclude that Defendant deliberately and with
premeditation attempted to kill the other victims. Under these circumstances,
Defendant cannot meet his burden of showing any likelihood that the jury
would have found him guilty of a lesser offense on the two counts of
attempted first degree murder if a lesser-included offense instruction had
been given.

14

R&R at13:14-25. This analysis, however, presumes that the jury would have found

15

premeditation for any of the victims, even if it had been given a lesser-included offense

16

instruction. It is indeed probable, per Alabama v. Beck, that if given a lesser-included

17
18
19
20
21
22
23
24

offense instruction, the jury would not have resolved its doubts toward finding
premeditation for the other victims as well. Further, the Strickland standard
does not require a court to presume … that, because a jury convicted the
defendant of a particular offense at trial, the jury could not have convicted
the defendant on a lesser included offense based upon evidence that was
consistent with the elements of both. To think that a jury, if presented with
the option, might have convicted on a lesser included offense is not to suggest
that the jury would have ignored its instructions. On the contrary, it would
be perfectly consistent with those instructions for the jury to conclude that
the evidence presented was a better fit for the lesser included offense. The
4

25

122

Case 2:19-cv-01132-NVW Document 13 Filed 04/27/20 Page 6 of 19

1
2
3

6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

4

Washington Supreme Court thus was wrong to assume that, because there
was sufficient evidence to support the original verdict, the jury necessarily
would have reached the same verdict even if instructed on an additional lesser
included offense.
(Emphasis added). Crace 798 F.3d at 847 (reaffirming Strickland’s “reasonable

5

probability standard,” citing Strickland, 466 U.S. at 694). In Crace v. Herzog, the Ninth

6

Circuit observed that Beck v. Alabama created a “due process” rule, Crace, 798 F.3d at

7

851, n.8, and found that the lack of a lesser included offense instruction was a

8

“constitutional violation” which warranted habeas corpus relief. Id. at 846. The failure

9

of trial counsel to request a lesser-included offense instruction violated Petitioner’s right

10

to due process to his extreme prejudice, in that he could have been convicted of lesser

11
12

offenses—or may not have unanimously convicted at all—and be walking free now.
B.

Objection To Ineffective Assistance of Counsel Findings Pertaining to
Willits Instructions:

4.

The Magistrate found that Petitioner did not exhaust his claim of

13
14
15

ineffective assistance of counsel based on his failure to introduce the medical records of

16

Carlos Sanchez at trial. R&R at 17:3-5. On this basis, the Magistrate concluded that the

17
18
19

claim is procedurally defaulted. Id. at 17:5-6. Petitioner raised this issue from the filing
of his Second Rule 32 PCR Petition (“Second PCR”), and onward. p. 4:19 – 6:9; Petition
for Review, p. 4-5. This issue was decided on the merits by the state courts as well.

20

Even if the failure to properly investigate the medical records of Carlos Sanchez and the
21

report of Dr. Zacher had been procedurally defaulted, such a bar is overcome by claims
22
23
24

of ineffective counsel under Martinez.

5

25

123

Case 2:19-cv-01132-NVW Document 13 Filed 04/27/20 Page 7 of 19

1
2
3
4
5

[w]here, under state law, claims of ineffective assistance of trial counsel must
be raised in an initial-review collateral proceeding, a procedural default will
not bar a federal habeas court from hearing a substantial claim of ineffective
assistance at trial if, in the initial-review collateral proceeding, there was no
counsel or counsel in that proceeding was ineffective.
Martinez v. Ryan, 566 U.S.1, 17 (2012). As Petitioner alleges, his Rule 32 Counsel was
tantamount to no counsel at all, thereby making Martinez applicable.

6

5.

The Magistrate found that Petitioner’s claim of counsel’s failure to

7

introduce the medical records of Carlos Sanchez nor bring attention to the report of Dr.
9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

10

Zacher could also be denied on the merits because it alleges Petitioner is unable to
establish any prejudice. R&R at 17:6-8. Petitioner objects on the grounds that there was

11

reasonable probability that presenting the additional evidence from Dr. Zacher’s report,

12

would have resulted in a different verdict. The State’s case against Petitioner relied on a

13

theory that there was only one gun present, a gun that was never even produced for the

14

jury. Petition for Review at 14. However, Dr. Zacher’s report brings to light that the

15

evidence strongly points toward multiple guns being present the night of the shooting.

16

Three bullets were found to have gone through the walls (ROA, item 563, p. 11), one

17
18

was found under the pant leg of Kristopher Dominguez, and two bullets were found
inside the skull of Sanchez with no exit wounds (ROA, item 592, p. 42). Yet only five

19

shell casings were found inside the small den (Trial Exhibits 9, 10, 12, 13, 14), and
20

another two were found outside of the house (Trial Exhibit 15 and 16). Moreover, three
21
22
23
24

more bullets were fired outside, two remaining in Razo’s body, and another embedded
in an exterior wall. The State’s theory at trial was predicated on an understanding that

6

25

124

Case 2:19-cv-01132-NVW Document 13 Filed 04/27/20 Page 8 of 19

1

there were five casings and five bullets found inside, and two casings and two bullets

2

found outside, and all were fired from the same Glock semi-automatic pistol. However,

3

this theory is contradicted by the fact that two more bullets were found to have been

4

fired inside, without casings present. Dr. Zacher’s report strongly undermines the State’s

5

one Glock theory, where a second shooter with a gun that doesn’t eject casings was

6

likely present.
7

6.

The Magistrate finds that Petitioner’s ineffective assistance of counsel

9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

10

claim with respect to the lack of an objection to the trial court’s denial of a Willits
instruction “fails because Sauceda is unable to establish that, but for his counsel’s

11

alleged error, the result of his criminal proceeding, i.e., his appeal, would have been

12

different.” R&R at 20:24-26. Petitioner objects to this finding on the basis that he has

13

established that a Willits instruction was supported by the evidence, and would have

14

created a negative inference, in this circumstantial evidence case, against the State which,

15

in turn, would have had a probable likelihood of changing the jury verdict.

16
17
18
19

7.

Petitioner brought up this issue in his second Rule 32 PCR Petition: “[Dr.

Zacher’s] report, which was written in real time to the incident in question, corroborates
the fact that these bullets were given to the police and yet the police no longer had this
evidence at trial.” Second PCR at p. 6:7-9. Second PCR, Ex. A; Appx. Tab B. Dr. Zacher

20

testified at trial, but the report was never admitted into evidence by counsel. ROA, item
21
22
23
24

424, p. 15. Dr. Zacher testified that the procedure was that the specimens be handed over
to the police. ROA, item 592, p. 43:8-11 (“I don’t know about protocol. We handed

7

25

125

Case 2:19-cv-01132-NVW Document 13 Filed 04/27/20 Page 9 of 19

1

those directly off to the police officers usually waiting right outside the operating

2

room.”). At trial, Detective Bruce Lowe testified that bullets had been removed from

3

the head of Carlos Sanchez. ROA, item 563, p. 78. When asked if the fragments were in

4

the custody of the Glendale Police Department, he stated “Not that I’m aware of.” Id. at

5

78:17. Therefore, res ipsa loquitur, the only inference is that the evidence was lost or

6

destroyed while in police custody.
7

8.

A Willits instruction permits the jury to find that destruction of evidence

9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

10

committed or enabled by the State creates an inference that the destroyed evidence was
against the State’s interest. State v. Willits, 96 Ariz. 184, 187 (1964). “[A] finding of

11

‘bad faith’ is not a prerequisite to this corrective procedure." Glover v. BIC Corp., 6 F.3d

12

1318, 1329 (9th Cir. 1993); see also Buckley v. Mukasey, 538 F.3d 306, 323 (4th Cir.

13

2008) (quoting Vodusek v. Bayiner Marine Corp., 71 F.3d 148, 156 (4th Cir. 1995).

14

Where lost or destroyed evidence is relevant to the defense, and the deprivation of

15

evidence to support defendant’s theories proves to be prejudicial, the imposition of an

16

adverse inference instruction is warranted. See Cyntegra, Inc. v. IDEXX Labs., Inc., 322

17
18
19

Fed. Appx. 569, 572 (9th Cir. 2009). As Petitioner alleged in his second Rule 32 PCR
Petition, he “was never even able to present the issue of the Willits instruction
completely because of the absence of a crucial material record.” Second PCR at p. 11:16-

20

17. Had Petitioner received the Willits instruction, it would have allowed the jury to form
21
22
23
24

a negative inference against the state. Second PCR at p. 16:7-9.
C.

Objection To Findings On Ineffective Assistance of Counsel As
Contrary to Established Federal Law:
8

25

126

Case 2:19-cv-01132-NVW Document 13 Filed 04/27/20 Page 10 of 19

1

9.

The Magistrate found that the state court’s denial of relief on Petitioner’s

2

claim of ineffective assistance of counsel “was not contrary to clearly established federal

3

law because the United States Supreme Court has never held that a state defendant has

4
5

a Sixth Amendment right to the effective assistance of counsel beyond his first appeal
“as of right.” R&R at 21:22-25. Petitioner objects on the basis that Martinez clearly

6

establishes a federal equitable right to plead effective assistance of post-conviction
7

counsel in a habeas petition. Martinez v. Ryan, 566 U.S. 1, 6 (2012). “These rules reflect
9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

10

an equitable judgment that only where a prisoner is impeded or obstructed in complying
with the State’s established procedures will a federal habeas court excuse the prisoner

11

from the usual sanction of default.” Id. at 13 (emphasis added). Although not a

12

constitutional remedy, it is a Supreme Court precedent designed to permit Petitioner to

13

plead in a habeas context that his constitutional right to due process and effective

14

representation were violated by ineffective assistance of counsel. That is what Petitioner

15

has done in the present case.

16

II.

17
18
19

Objection To Findings On Newly Discovered Evidence:
10.

The Magistrate found that Petitioner is unable to establish that the “newly

discovered” evidence is either newly discovered or that it would probably produce an
acquittal and has not established a violation of a constitutional right in his state criminal

20

proceedings. R&R at 24:3-5. Petitioner argued that the evidence was newly discovered
21

in his second Rule 32 Petition. Second PCR at 11:22 – 12:22. Relief from a Judgment
22
23
24

or Order may be granted on the basis of “newly discovered evidence, that, with

9

25

127

Case 2:19-cv-01132-NVW Document 13 Filed 04/27/20 Page 11 of 19

1

reasonable diligence, could not have been discovered in time to move for a new trial

2

under Rule 59(b). F.R.C.P., Rule 60(b)(2). Petitioner showed that the evidence was

3

discovered after trial, where the jury in its capacity could not weigh the credibility of the

4
5

eyewitness testimony fully. See also Sanders v. Ratelle, 21 F.3d 1446, 1457 (9th Cir.
1994) (reversing denial of habeas in part for trial counsel’s failure to acquire a statement

6

from a witness who admitted to committing the charged crime); Riley v. Payne, 352 F.3d
7

1313, 1318-25 (9th Cir. 2003) (reversing denial of habeas in part for trial counsel’s
9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

10
11

objectively unreasonable performance in failing to interview or call defendant’s
associate and eyewitness to the incident).
11.

As stated in the Report, the Supreme Court has never recognized factual

12

innocence as a free-standing constitutional claim, but rather has specifically held it is

13

not a free-standing constitutional claim, citing Herrera v. Collins, 506 U.S. 390, 400

14

(1993). R&R at 22:28 – 23:2. However, Petitioner’s claims of factual innocence are not

15

freestanding, as they also support Petitioner’s claim of ineffective assistance of counsel.

16

In Rios v. Rocha, the Ninth Circuit overturned a denial of habeas relief on the grounds

17
18

that deficiency of counsel was not prejudicial. Rios v. Rocha, 299 F.3d 796, 799 (9th Cir.
2002). Where five undiscovered witnesses later testified that defendant was not the

19

shooter, the Ninth Circuit found that there was a reasonable probability the outcome
20

would have been different, and defendant was unfairly prejudiced. Id. at 800. Counsel
21
22
23
24

was found to be ineffective to defendant’s prejudice in Rios v. Rocha because the newly
discovered witness testimony that counsel did not duly investigate would probably have

10

25

128

Case 2:19-cv-01132-NVW Document 13 Filed 04/27/20 Page 12 of 19

1

changed the outcome. Here, Petitioner put forth the newly discovered, unimpeached

2

testimony of two witnesses and demonstrated that they undermined the State’s theory

3

such that the outcome would probably have been different. As in Rios where the newly

4
5

discovered testimony showed that habeas relief was warranted, habeas relief should be
granted for Petitioner.

6

12.

The Magistrate cites as a basis for its findings that new evidence fails to

7

meet the requisite standard if it does not undermine the structure of the prosecution’s
9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

10

case, citing Spivy v. Rocha, 194 F.3d 971, 979 (9th Cir. 1999). However, Petitioner has
shown that the newly discovered evidence would have undermined the structure of the

11

prosecution’s case. The State hinged its theory on the color of clothing Mr. Sauceda was

12

wearing as establishing gang affiliation and motive to attack the victims, who were also

13

gang members. Second PCR at p. 8. The State referenced the color “red” and “red rag”

14

throughout the trial, including in its opening statement and closing argument:

15
16
17
18
19
20
21
22
23
24

• “There’s also clothing or color. We already heard from more than one
person he was wearing red clothing. He had some kind of red
shoelaces, red bandanna. It’s the night of the party, okay. As we
heard from person after person, lay witnesses, we know about gangs
-- as well as detectives, okay. The red color associated is associated
with the Phoeniquera gang, all right.” See RT 08/13/08, ROA 573, p.
25:15-21 (emphasis added);
• “Even people who did not point him out they described the person
who was doing the apologizing with the gun and the red bandanas,
okay.” Id. at 53:4-7 (emphasis added);
• “There was one person wearing red bandana okay.” Id. at 56:9
(emphasis added);
• “He said he was, the defendant, was wearing gray shoes with red
stripes or laces … And then marcus said he was wearing a gray cap
with red trim and a red bandana underneath that cap.” Id. at 62:6-7,
11

25

129

Case 2:19-cv-01132-NVW Document 13 Filed 04/27/20 Page 13 of 19

1

17-18 (referencing description given by Marcus Dominguez)
(emphasis added);
• “It was the red.” Id. at 76:16 (emphasis added).

2
3
4
5

13.

Because most of the victims of the shooting were members of the Califas

gang, establishing gang affiliation with the rival gang, the Phoeniqueras, was crucial to
the prosecution’s case and highly prejudicial to Petitioner. The State relied purely on

6

inconsistent testimonies of red clothing to create an inference that Petitioner was
7

associated with the Phoeniqueras. The State relied on witnesses who had given multiple
9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

10
11

inconsistent statements prior to trial. Marcus Dominguez, Ivan Villagrana, Jose Peter
Razo, and German Borja all had inconsistent testimony and prior statements.
14.

Mr. Dominguez’s testimony was not consistent during examination and

12

cross-examination. He first testified: “They [the shots] were coming from Isidro up there,

13

from on top.” RT 7/9/08, ROA 584, p. 81. He later testified he never saw Mr. Sauceda

14

shoot, Id. at 114, yet again switched testimony back to Petitioner being the shooter, Id.

15

at 125. Petition for Review, p. 15. Mr. Dominguez further testified that Petitioner was

16

wearing a lot of grey that night, which did not support the State’s theory that Petitioner

17
18
19

was wearing red. Id. at 62. Mr. Villagrana admitted on cross-examination that he could
not identify the shooter. RT 07/14/208, ROA 588, p. 85. (“You don’t know who the
shooter was, correct?” “Correct.” Id. at 88). Petitioner for Review, p. 15. Mr. Razo did

20

not make an in-court identification, and only said that the shooter was wearing what
21
22
23
24

“looked like a lot of red.” Id., p. 136. When asked if the person who shot him was in the
courtroom, he said “No.” (Id. at 147). Petition for Review, p. 15. Mr. Borja told police

12

25

130

Case 2:19-cv-01132-NVW Document 13 Filed 04/27/20 Page 14 of 19

1

officers that he did not even know Petitioner was at the party, RT 07/16/08, ROA item

2

583, p. 77, and confirmed this in a later police interview, Id. at p. 80. When asked at trial

3

“Now isn’t it true you didn’t know it was Cheeto at the time?”, Mr. Borja responded “I

4

still don’t know.” Id. Mr. Dominguez was the only witness to assert any inference that

5

Petitioner was the shooter. None of the other witnesses were able to affirmatively

6

identify the shooter.
7

15.

The newly discovered testimony from Ms. Ulibarri and Mr. Deleon

9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

10

directly contradicted these inconsistent witness testimonies. Sherise Ulibarri,
Petitioner’s girlfriend at the time, provided a sworn affidavit after the trial court had

11

dismissed Petitioner’s first Rule 32 Petition. See Second PCR at 6:12-13. Ms. Ulibarri

12

swore under penalty of perjury the following facts about December 13, 2003, the night

13

of the shooting:

14
15
16
17
18
19
20
21
22

7. On that particular day, December 13, 2003, I personally bought Isidro
a pair of Jordan tennis shoes as a Christmas present. The shoes were all
black with black shoelaces.
8. I personally tied Isidro’s new shows [sic] right before Isidro left for the
party on December 13, 2003.
9. I personally remember that Isidro was not wearing any garment that
night which was red in color.
10. I remember that Isidro was dressed in jeans and a dark colored
sweatshirt on the night in question.
…
12. To my personal knowledge, Isidro Sauceda was never in a gang, and
I never saw any indication of gang related activity or affiliation on his
part.
13. Also, I did not see any gun on Isidro Sauceda ever, including
December 13, 2003, and to my personal knowledge he did not own a
weapon or [sic] any type.

23
24

13

25

131

Case 2:19-cv-01132-NVW Document 13 Filed 04/27/20 Page 15 of 19

1

Second PCR at p. 6:5 – 7:3 and Ex. B; App. Tab D. Steven Deleon, a lifelong friend of

2

Petitioner, also provided an affidavit. Second 32 at p. 7:6. Mr. Deleon stated under

3

penalty of perjury:

4
5
6
7

9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

10
11
12
13
14
15
16
17
18
19
20

5. I remember being with Isidro during the entire day on December 13, 2003
and into the early morning hours of December 14, 2003.
6. On that particular day of December 13, 2003, I specifically remember that
Isidro was wearing dark blue or black clothing and a pair of brand new black
colored ‘Jordan’ tennis shoes, who Isidro told me, were bought for him by
his then girlfriend Cherise [sic] Ulibarri.
7. I happen to remember this fact about the tennis shoes because I liked them
so much I tried them on, and Isidro had to tell me to take those shoes off.
8. I remember that Isidro had the shoes on when we left for the party.
8. [sic] I remember arguing with Isidro on who would wear the new Jordan
shoes on the night of December 13, 2003. Since they were Isidro’s new shoes
he wore them to the party.
9. I remember that Isidro was not wearing any garment that night which was
red in color.
10. Having known Isidro since we were children together, I had an
opportunity to regularly observe what Isidro would wear in clothing type and
color. I never remember observing Isidro wearing a red bandana or
handkerchief around his head or anywhere on his body, including December
13, 2003.
10. [sic] On December 13, 2003 I was with Isidro and other friends when we
were all searched at the front door of the party for weapons.
12. [sic] To my personal knowledge Isidro Sauceda did not have a gun on the
night of December 13, 2003 because I personally saw the individual at the
entrance of the party search Isidro, myself and others. I did not see any gun
emerge from the person of Isidro at that time.
13. [sic] Also, I did not see any gun on Isidro Sauceda ever, including
December 13, 2003, and to my best personal knowledge he did not own a
weapon of any type.
14.[sic] To my personal knowledge Isidro was not then, nor has he ever been,
a gang member or affiliated with any gang.

21

See Second PCR at p. 7:10-20 and Ex. C; Appx. Tab C. Ms. Ulibarri was only briefly

22

contacted by counsel once and was only called as a witness during the penalty phase of

23

the trial and was never asked to testify during the guilt phase. Second PCR at 7:3-4 and

24

14

25

132

Case 2:19-cv-01132-NVW Document 13 Filed 04/27/20 Page 16 of 19

1

Ex. B; Appx. Tab D. Ex. . Mr. Deleon was only briefly contacted by an investigator in

2

2006, but was never called as a witness for trial, and was never contacted by police.

3

Second PCR at p. 7:7-9 and Ex. C; Appx. Tab C. Like the “constitutionally deficient

4

performance” of trial counsel in Rios v. Rocha, trial counsel here violated Petitioner’s

5

right to effective assistance of counsel in failing to investigate these two witnesses. The

6

absence of their testimony at trial severely prejudiced Petitioner, as they would have
7

substantially undermined the State’s core theory that Petitioner must have been the
9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

10
11
12

shooter because the shooter was purportedly wearing red. Core to the theory was an
inference that Petitioner was associated with a gang, which further prejudiced Petitioner.
III.

Objections To Findings On Actual Innocence:
16.

The Magistrate found that Petitioner has not offered any evidence that

13

affirmatively proves his innocence. R&R at 25:2. 1251 Petitioner again objects to the

14

Magistrate’s findings on the grounds that the evidence affirmatively proves innocence

15

where the State’s theories were very narrow and relied on sparse, inconsistent, and

16

inferential evidence. The evidence of Dr. Zacher’s report shows that there were two

17

bullets which were not accounted for in the State’s theory, which showed that there were

18

seven shots fired within the house but only five casings recovered. The report of Dr.

19

Zacher strongly proposes an inference that there was a second shooter with a gun that
20

did not eject casings, unlike the semi-automatic pistol Petitioner alleged used.
21
22
23
24

Furthermore, the disappearance of the bullets after entering police custody would have
generally create an inference against the State with a proper Willits instruction. The

15

25

133

Case 2:19-cv-01132-NVW Document 13 Filed 04/27/20 Page 17 of 19

1

discovery of unaccounted for and now missing bullets heavily undermines the State’s

2

one-gun theory. The evidence of Dr. Zacher does affirmatively prove innocence.

3

The evidence of Sherise Ulibarri and Steven Deleon also, as explained above, heavily

4

undermines the State’s identification of Petitioner as the shooter on spurious witness

5

testimony that he was wearing “red clothes.” Ms. Ulibarri testified that Petitioner was

6

not wearing red that night and had never worn red to her knowledge, particularly
7

disproving eyewitness claims that Petitioner had been wearing red shoelaces. Mr.
9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

10

Deleon’s testimony corroborated Ms. Ulibarri’s account exactly. Their testimonies
undercut what few eyewitness connections the State made to Petitioner wearing red

11

clothing the night of the shooting. Three of the State’s eyewitnesses could not identify

12

the shooter; the one who did identify Petitioner did not describe red clothing. Had the

13

State presented a stronger theory of guilt, witness accounts of clothing might not rise to

14

the level of affirming innocence, but when the State’s entire means of identification

15

relied on clothing color, these affidavits—perfectly consistent with each other—do

16

affirmatively prove innocence.

17
18

17.

Furthermore, Rios v. Rocha supports failure to investigate and introduce

into evidence information that demonstrates factual innocence, or that raises sufficient

19

doubts as to that question to undermine confidence in the verdict, rendering deficient
20

performance on the part of defense counsel. Rios v. Rocha, 299 F.3d at 805 (citing Lord
21
22
23
24

v. Wood, 184 F.3d 1083, 1093 (9th Cir. 1999). See also Sanders, 21 F.3d at 1457; Riley
v. Payne, 352 F.3d at 1318-25. Counsel’s “constitutionally deficient performance”

16

25

134

Case 2:19-cv-01132-NVW Document 13 Filed 04/27/20 Page 18 of 19

1

severely prejudiced Petitioner by failing to investigate and introduce evidence of actual

2

innocence to the record.

3

IV.

4
5
6

Objection To The Magistrate’s Analysis Fails to Integrate the Issues:
18.

Petitioner Objects to the Magistrate’s findings that the mere existence of

newly discovered evidence relevant to guilt is not grounds for federal habeas relief, and
that factual innocence is not a free-standing constitutional claim. R&R at p. 26-27 (citing

7

Gordon v. Duran, 895 F.2d 610, 614 (9th Cir. 1990; Herrera v. Collins, 506 U.S. 390,
400 (1993)). However, Petitioner is not claiming merely that newly discovered evidence
9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

10
11

exists or a free-standing claim of factual innocence. Petitioner’s claim of factual
innocence is based on the newly discovered evidence. “A lawyer who fails adequately

12

to investigate, and to introduce into evidence, records that demonstrate his client's

13

factual innocence, or that raise sufficient doubt as to that question to undermine

14

confidence in the verdict, renders deficient performance.” Hart v. Gomez, 174 F.3d 1067,

15

1070 (9th Cir. 1999). As Petitioner has shown, the newly acquired evidence is newly

16

acquired because of counsel’s failure to adequately investigate the case.

17

RESPECTFULLY SUBMITTED this 27th day of April, 2020

18

HORNE SLATON PLLC

19

By: /s/ Sandra Slaton
Sandra Slaton
Attorney for Petitioner

20
21
22
23
24

17

25

135

Case 2:19-cv-01132-NVW Document 13 Filed 04/27/20 Page 19 of 19

1
2

CERTIFICATE OF SERVICE
The undersigned hereby certifies that all counsel of record who are deemed to

3

have consented to electronic service are being served with a copy of this document via

4

the Court’s CM-ECF system per Federal Rule of Civil procedure 5(b)(2)(E). Any

5
6

other counsel of record and parties will be served by email transmission and/or first
class mail this 27th day of April, 2020.
/s/ Sandra Slaton

7

9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24

18

25

136

Case 2:19-cv-01132-NVW-CDB Document 11 Filed 06/20/19 Page 1 of 13

1
2
3
4

Sandra L. Slaton, Bar No. 006454
HORNE SLATON, PLLC
6720 N. Scottsdale Rd., Suite 285
Scottsdale, Arizona 85253
Tel. 480-483-2178
Fax. 480-367-0691 fax
slaton@horneslaton.com
Attorney for Petitioner Isidro Sauceda

5

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA

6
Isidro Sauceda,

7

Petitioner,
Case No.: CV19-01132-PHX-NVW (CDB)

V.

9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

PETITIONER’S REPLY TO STATE’S
LIMITED ANSWER TO PETITION
FOR WRIT OF HABEAS CORPUS

Charles L. Ryan, et. al.,
Respondent,

10
11
12
13

Petitioner, ISIDRO SAUCEDA (“Mr. Sauceda”), through counsel undersigned, hereby

14

submits his Reply To State’s Limited Answer To Petition For Writ Of Habeas Corpus. The

15

Reply is supported by the following Memorandum of Points and Authorities.
MEMORANDUM OF POINTS AND AUTHORITIES

16
17
18

Mr. Sauceda’s Petition For Writ Habeas Corpus is not time barred. Pursuant to Arizona
law, and precedent, the operative date (for when a PCR petition is no longer pending in Arizona)
is the date the mandate issues in cases where the appellate court grants discretionary review.

19

See Celaya v. Stewart, 691 F. Supp. 2d 1046 (D. Ariz. 2010), aff’d 497 Fed. Appx. 744, 2012

20

WL 5505736 (9th Cir. 2012) . As will be discussed below, Mr. Sauceda timely filed his Petition

21

For Writ of Habeas Corpus with 49 days remaining in the applicable 365-day limitations period.

22

I.

23
24
25

PROCEDURAL BACKGROUND FACTS:
It is undisputed that no time elapsed on Mr. Sauceda’s one-year limitations period

pursuant to 28 U.S.C. § 2244 from January 10, 2012 (the time the Arizona Supreme Court
1

137

Case 2:19-cv-01132-NVW-CDB Document 11 Filed 06/20/19 Page 2 of 13

1
2

The February 13, 2012 PCR petition was denied on June 3, 2013. Mr. Sauceda timely

4

filed his Petition for Review in the Arizona appellate court on December 15, 2014.1 On June

5

11, 2015, the Arizona appellate court accepted review of Mr. Sauceda’s petition for review of

7
8
9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

first Rule 32 PCR petition).

3

6

HORNE SLATON, P.L.L.C.

denied his Petition For Review on his direct appeal), to February 13, 2012 (the time he filed his

10

the trial court’s denial of his first PCR petition, but denied relief. State v. Sauceda, 2 CA-CR
2015-0174-PR, 2015 WL 3648019 (App. June 11, 2015). On August 13, 20152, Mr. Sauceda
filed a Petition for Review of the Arizona appellate court’s decision. On April 11, 2016 the
Arizona Supreme Court denied review. On April 29, 2016, the mandate was issued on the first
PCR petition filed by Mr. Sauceda. No time elapsed between February 13, 2012 and April 29,
2016 because the PCR petition was filed before the limitations period began.

11

It is undisputed that between the first and second petitions, the AEDPA’s limitation

12

period was running. During the time between April 30, 2016 (the day after the mandate issued)

13
14
15
16

and July 25, 2016 (the day the second PCR petition was filed) 86 days of the 365-day limitation
period lapsed. The limitations period was again tolled on July 25, 2016, when Mr. Sauceda
filed his second PCR petition, which was denied on March 6, 2017. Mr. Sauceda filed a timely
Motion for Rehearing on March 21, 2017, which was denied on April 7, 2017. On May 8, 2017
Mr. Sauceda timely filed a Petition For Review in the Arizona appellate court on the denial of

17

his second PCR petition. On March 26, 2018, the Arizona appellate court accepted review, but

18

denied relief. State v. Sauceda, 2 CA-CR 2017-0375-PR, 2018 WL 1467377 (App. Mar. 26,

19

2018). Mr. Sauceda did not file a Petition for Review with the Arizona Supreme Court. On

20

July 3, 2018, the mandate was issued on Mr. Sauceda’s second PCR Petition. Again, the

21
22

1

24

Mr. Sauceda was granted a number of extensions to file his Petition for Review.
Mr. Sauceda was granted a 30-day extension to file his Petition For Review In Arizona
Supreme Court on July 10, 2015. See Exhibit B. This order gave Mr. Suaceda until August
13, 2015 to timely file his Petition For Review.

25

2

23

2

138

Case 2:19-cv-01132-NVW-CDB Document 11 Filed 06/20/19 Page 3 of 13

1
2

AEDPA’s limitation period was tolled from July 25, 2016 until Mr. Sauceda’s PCR petition
was no longer pending on July 3, 2018.

3

The AEDPA’s limitation period ran for 230 days from July 4, 2018 until Mr. Sauceda

4

filed his Petition for Writ of Habeas Corpus, on February 19, 2019. As will be discussed below,

5

Mr. Sauceda timely filed his Petition with 49 days (365-86-230 = 49) remaining in the 365-day

6
7

limitations period. See Exhibit A attached hereto to demonstrate Mr. Sauceda’s limitations
period and elapsed time.
II.

9

LEGAL ARGUMENT
A.
Mr. Sauceda’s Petition For Writ Of Habeas Corpus Was Timely Filed:
1.
The AEDPA’s limitations period did not begin to run until April
19, 2012:

10

The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”) sets the

6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

11
12

limitations period to file a petition for writ of habeas corpus at 365 days. See 28 U.S.C. §
2244(d)(1).3 Section 2244(d) reads in pertinent part:
(d)(1) A 1-year period of limitation shall apply to an application for a writ of
habeas corpus by a person in custody pursuant to the judgment of a State court.
The limitation period shall run from the latest of-(A) the date on which the judgment became final by the conclusion of direct
review or the expiration of the time for seeking such review;
(B) the date on which the impediment to filing an application created by State
action in violation of the Constitution or laws of the United States is removed, if
the applicant was prevented from filing by such State action;
(C) the date on which the constitutional right asserted was initially recognized
by the Supreme Court, if the right has been newly recognized by the Supreme
Court and made retroactively applicable to cases on collateral review; or
(D) the date on which the factual predicate of the claim or claims presented could
have been discovered through the exercise of due diligence.
(2) The time during which a properly filed application for State post-conviction
or other collateral review with respect to the pertinent judgment or claim is
pending shall not be counted toward any period of limitation under this
subsection.

13
14
15
16
17
18
19
20
21
22
23

See 28 U.S.C. § 2244(d) (emphasis added). In the present case only subsection (d)(1)(A) is
applicable. Mr. Sauceda’s direct review became final 90 days after the Arizona Supreme Court

3

24

A 1-year period of limitation shall apply to an application for a writ of habeas corpus by a
person in custody pursuant to the judgment of a State court.

25

3

139

Case 2:19-cv-01132-NVW-CDB Document 11 Filed 06/20/19 Page 4 of 13

1
2

denied review of his direct appeal.4 Therefore, it is undisputed that limitations period began
running from April 19, 2012. (Answer at 8:12-14).

3
4

Mr. Sauceda’s First PCR was no longer “pending” pursuant to 28
U.S.C. § 2244(d)(2) when the Arizona appellate court issued the
mandate regarding his first PCR Petition on April 29, 2016:

5

28 U.S.C. § 2244(d)(2) reads: “The time during which a properly filed application for

6
7

2.

State post-conviction or other collateral review with respect to the pertinent judgment or claim
is pending shall not be counted toward any period of limitation under this subsection.”
(Emphasis added).

9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

It is undisputed that the meaning of the word “pending” in 28 U.S.C. § 2244(d)(2) means
that: “The Court looks to the rules of the state court to determine when a state decision on

10

post-conviction petition is final to determine whether the petition is still pending for purpose of

11

tolling the statute of limitations under § 2244(d).” Celaya, 691 F. Supp. 2d at 1053 (emphasis

12

added); see also Carey v. Saffold, 536 U.S. 214, 219–20 (2002).
Contrary to the State’s argument that under Arizona state law the limitations period

13
14
15

began running on April 11, 2016 (Answer at 8:24-10-9), Mr. Sauceda’s first PCR petition was
“pending” until the date that the mandate issued on April 29, 2016. The limitations period then
began to run again on the next day, April 30, 2016.

16

In Arizona, a PCR appeal “pending” until the Arizona appellate court issues the mandate

17

in cases where there is a written decision. See Celaya, 691 F. Supp. 2d at 1053. The State

18

erroneously argues that the Celaya decision is incorrect and should be disregarded. (Answer at

19

9:24-10:6). Indeed, Celaya is the only decision in Arizona which providing this Court with the

20

proper analysis in determining the timeliness of a Habeas Petition under Arizona law.
3.

21
22
23

In Arizona a PCR appeal is pending until the mandate issues in
cases where the appellate court accepts review.

4

See 28 U.S.C. § 2101(c): “Any other appeal or any writ of certiorari intended to bring any
judgment or decree in a civil action, suit or proceeding before the Supreme Court for review
shall be taken or applied for within ninety days after the entry of such judgment or decree.”

24
25

4

140

Case 2:19-cv-01132-NVW-CDB Document 11 Filed 06/20/19 Page 5 of 13

1
2

issued the mandate because review was granted on his Petitions for Review. Pursuant to Ariz.

3

R. Crim. P. 32.9, the review by the Arizona appellate court of a trial court denying a PCR

4

petition is discretionary. Ariz. R. Crim. P. 32.9 specifically states: “(f) Disposition. The

5

appellate court may grant review of the petition and may order oral argument. Upon granting

6
7

6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

8
HORNE SLATON, P.L.L.C.

Mr. Sauceda’s PCR petitions were pending until the date the Arizona appellate court

review, the court may grant or deny relief and issue other orders it deems necessary and proper.”
See also, State v. Smith, 184 Ariz. 456, 459 (1996) (“The court of appeals, however, retains
discretion over whether to grant review. Rule 32.9(f).”). In the present case, the Arizona
appellate court granted review of both of Mr. Sauceda’s Petitions for Review.

9

The question of when a PCR petition is “pending” for purposes of the AEDAPA, as

10

stated earlier, is a question of state law. See Carey, 536 U.S. at 219–20; see also Celaya, 691

11

F. Supp. At 1053. In Arizona, as stated, by the Honorable David C. Bury of the District Court

12

of Arizona, in Celaya, an appeal is no longer pending and final when the mandate issues in

13
14
15
16

PCR cases where the Arizona appellate court grants review. See Celaya, 691 F. Supp. 2d at
1054-55. As Judge Bury stated in Celaya: “Specifically, the court held the appellate process
is completed when the court of appeals issues its mandate.” Id. (emphasis added) (citing
Thompson v. Holder, 192 Ariz. 348 (Ariz. App. 1998) relying on Amfac Distribution Corp. v.
Miller, 138 Ariz. 155 (App. 1983)). The federal Arizona District Court in Celaya also

17

confirmed that: “Under Arizona law, appellate review in a criminal case is not final until the

18

mandate has issued.” See Celaya, 691 F. Supp. 2d at 1074 (emphasis added).5 In the present

19

5

24

The Celaya court relied on citations to seven (7) Arizona cases in making such decision.
((citing State v. Ward, 120 Ariz. 413, 415 (1978); see also Borrow v. El Dorado Lodge, Inc., 75
Ariz. 218, 220 (1953) (stating appellate court's judgment becomes effective on “the date of the
issuance of the mandate”); State v. Sepulveda, 201 Ariz. 158, 159 n. 2 (App. 2001) (“A
conviction becomes final upon the issuance of the mandate affirming the conviction on direct
appeal and the expiration of the time for seeking certiorari in the United States Supreme Court.”);
State v. Dalglish, 183 Ariz. 188, 190 (App. 1995) (“We conclude that Petitioner's case was final
on ... the date the Arizona Supreme court issued its mandate.”); State v. Jones, 182 Ariz. 432,
432–434 (App. 1995) (“It is true that, in cases where there is an appeal pending, the final
deadline [to file for post-conviction relief] will be unknown until the appeal is resolved and the

25

5

20
21
22
23

141

Case 2:19-cv-01132-NVW-CDB Document 11 Filed 06/20/19 Page 6 of 13

1
2

Contrary to the State’s argument that the Celaya decision was “incorrect” and should be

4

“disregarded” (Answer at 8:24-9:6), the facts and holdings of Celaya are directly on point to

5

Mr. Sauceda’s case. In Celaya, the prisoner filed a petition for review in the Arizona appellate

7
8

6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

Mr. Sauceda, but denied relief.

3

6

HORNE SLATON, P.L.L.C.

case, the Arizona appellate court accepted review on both the first and second petitions filed by

court, which was granted, but ultimately denied relief by the Arizona appellate court. Similarly,
in the present case, the Arizona appellate court granted review, but relief was denied.
The State’s argument should be rejected that the Ninth Circuit’s decisions in other cases
make this Habeas Petition untimely.6 Specifically, the State’s citation to Hemmerle v. Schriro,

9

495 F.3d 1069 (9th Cir. 2007) is completely distinguishable under Arizona law. There, the

10

Hemmerle court affirmed the dismissal of the petition as untimely. Id. at 1078. However, in

11

Hemmerle, the prisoner’s first PCR request was summarily dismissed for failure to file a brief

12

after numerous extensions. Id. at 1071. Furthermore, review of the prisoner’s second PCR was

13
14
15
16
17

denied by the Arizona appellate court and Arizona Supreme Court. Id. at 1072. The Arizona
appellate court did not issue any written decision on the merits of the petition for review. Instead,
the Arizona appellate court simply issued an order denying review. Unlike in Hemmerle, in
Mr. Sauceda’s case the Arizona appellate court granted review of both petitions for review filed
on the Mr. Sauceda’s PCR petitions and issued formal written decisions on the merits.
In Celaya, distinguishing Hemmerle the court opined :

18
19

24

mandate has issued.”); Owen v. Shores, 24 Ariz. App. 250 (1975) ( “There was still the necessity
for issuance of the Court's mandate, and for the trial court to take the necessary action to enforce
the mandate....”); State v. Febles, 210 Ariz. 589, 592 (App. 2005) (Conviction became final on
date the court issued the mandate after time for further review expired.)).
6
The State’s reliance on Phonsavanh Phongmanivan v. Haynes, 918 F.3d 1021 (9th Cir. 2019),
White v. Klitzkie, 281 F.3d 920 (9th Cir. 2002), and Welch v. Carey, 350 F.3d 1079 (9th Cir.
2003) are all distinguishable and inapposite as none of them involves Arizona law. In
Phonsavanh Phongmanivan, the case involved a Washington PCR petition. In White, the case
involved a PCR petition filed in Guam. In Welch, the case involved a PCR petition filed in
California. None of these cases even discuss Arizona law.

25

6

20
21
22
23

142

Case 2:19-cv-01132-NVW-CDB Document 11 Filed 06/20/19 Page 7 of 13

2

Here, the appellate court granted review and issued a decision, which became
final when it issued the mandate as required by Rule 31.23. Here, once the
appellate court issued its decision, it still needed to issue the mandate.

3

Id. at 1054 (emphasis added). Similarly, in the present case, the Arizona appellate court

4

“granted review and issued a decision” on the merits of both the petitions for review filed by

5

Mr. Sauceda, “which became final when it issued the mandate”.

1

6
7

Also contrary to the State’s argument that Celaya was incorrect based upon the citation
to Ariz. R. Crim. P. 31 instead of Ariz. R. Crim. P. 32 (Answer at 9:26-10-5), in Arizona if a
formal written opinion on the merits is made by the Arizona appellate courts the matter is still

9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

10
11
12

pending until the mandate issues. See A.R.S. § 12-120.24. Specifically, the statute reads in
pertinent part:
If no request for review by the supreme court has been filed, or upon the receipt
from the clerk of the supreme court of notification that the request for review
has been denied, the clerk of the division shall, if the matter has been decided
by formal opinion, issue the mandate of the court of appeals, if no written
formal opinion has been rendered then by certified copy of the order of the
court.

13
14
15

(Emphasis added). Both of Mr. Sauceda’s PCR petitions for review are governed by this Rule
because the Arizona appellate court granted review and issued a formal written decision on the
merits of the case.

16
17

The

Arizona

federal

district

courts

decision

of

Menendez

v.

Ryan,

CV142436PHXDGCJFM, 2015 WL 8923410, at *9 (D. Ariz. Oct. 20, 2015), again re-affirmed

18

the holding in Celaya, but based A.R.S. § 12-120.24 instead of Ariz. R. Crim. P. 31.

19

Specifically, the Menendez court stated in pertinent part:

20
21
22

That adherence to state law in resolving the “pending” question was the impetus
of District Judge Bury's decision in Celaya, and Magistrate Judge Velasco's
decision in Washington. Thus, even if the undersigned disagrees with how they
got there, the undersigned agrees that an Arizona post-conviction relief
proceeding remains pending until issuance of the mandate, at least in those
PCR cases in which a mandate is called for under Ariz. Rev. Stat. § 12–120.24.

23
24
25

7

143

Case 2:19-cv-01132-NVW-CDB Document 11 Filed 06/20/19 Page 8 of 13

1

Menendez, 2015 WL 8923410, at *9 (emphasis added). So too, in the present case, A.R.S. §

2

12-120.24 requires a mandate for Mr. Sauceda’s PCR petitions to no longer be pending after

3

the Arizona appellate court granted review and issued its formal written decision.
Celaya was affirmed by the Ninth Circuit. See Celaya v. Ryan, 497 Fed. Appx. 744 (9th

4
5

Cir. 2012). The Ninth Circuit stated in pertinent part:
Under Arizona law, Celaya's post-conviction review (“PCR”) petition was
“pending” until the Arizona Court of Appeals issued the mandate concluding
its review of that petition on November 30, 2000. [citations omitted]
Accordingly, Celaya's habeas petition, filed on November 28, 2001, was timely.

6
7

Id. at 745 (emphasis added).

9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

Most recently, on March 13, and March 15, 2019, the holding in Celaya has again been

10

re-affirmed. See Alfonso Ochoa v. Ryan, CV-17-03340-PHX-JAT, 2019 WL 1149924 (D. Ariz.

11

Mar. 13, 2019); see also Hernandez v. Ryan, CV180413PHXDLRJFM, 2019 WL 2125012 (D.

12

Ariz. Mar. 15, 2019). While the Alfonso Ochoa and Hernandez courts determined that the

13

limitations period had run on the specific facts of those cases, both of the Court’s relied on the

14
15
16

holding in Celaya in holding that when a written decision accepting review of a petition for
review is issued the PCR petition remains pending until the date of the mandate, not the date on
which relief is denied. See Alfonso Ochoa, 2019 WL 1149924, at *4; see also Hernandez, 2019
WL 2125012, at *8.

17
18

The limitations period in Mr. Sauceda’s case ran from the dates when the Arizona
appellate court issued its mandates, not the date of the orders denying relief.

19

4.

20
21
22

86 days lapsed between Mr. Sauceda’s first and second PCR
petitions:

Mr. Sauceda accepts the State’s argument that there is no gap tolling for the time
between his first and second PCR petitions.7 The second PCR petition does not expand on the
7

24

The State’s citations to Hernandez v. Spearman, F.3d 1071, 1076 (9th Cir. 2014) and Stancle
v. Clay, 692 F.3d 948 (9th Cir. 2012) are applicable and confirm there is no statutory tolling
available between a first and second PCR petition, when the second petition is not limited to an
elaboration of the facts relating to the claims in the first petition.

25

8

23

144

Case 2:19-cv-01132-NVW-CDB Document 11 Filed 06/20/19 Page 9 of 13

1
2

State’s argument that 105 days lapsed between the two PCR petitions (10:12-11:3), only 86

3

days lapsed (April 30, 2016 to July 25, 2016) between Mr. Sauceda’s first and second PRC

4

Petitions.

5
6
7

6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

8
HORNE SLATON, P.L.L.C.

facts in the first PCR petition, but makes new arguments all together. However, contrary to the

Mr. Sauceda’s petition for review of the trial court’s denial of his first PCR petition was
accepted by the Arizona appellate court. See Sauceda, 2015 WL 3648019, at *3. Subsequently,
Mr. Sauceda also filed a petition for review of the Arizona appellate court’s decision in the
Arizona Supreme Court which was denied on April 11, 2016. The Arizona appellate court
issued the mandate on April 29, 2016. Pursuant to Celaya, A.R.S. § 12-120.24, and Arizona

9

law, the limitations period then began on the day following the issuance of the mandate, April

10

30, 2016. The second PCR petition was filed on July 25, 2016. There are 86 days between

11

April 30, 2016 (the day following the issuance of the mandate) and July 25, 2016 (the day Mr.

12

Sauceda filed the second PCR petition). Therefore, 86 days lapsed of the 365-day limitation

13
14
15
16
17
18
19
20

period pursuant to the AEDPA and § 2244(d)(2) between Mr. Sauceda’s first and second PCR
petitions. Mr. Sauceda still had 279 days remaining in the AEDPA’s limitation period.
5.

Only 230 days lapsed between Mr. Sauceda’s second PCR petition
and the current Petition for Writ of Habeas Corpus

Contrary to the State’s argument that 331 days lapsed (Answer at 11:6-9), only 230 days
of the 28 U.S.C. § 2244(d) limitations period had lapsed between Mr. Sauceda’s second PCR
petition becoming final (July 3, 2018 the date of the mandate) and the filing of the present
Petition For Writ Of Habeas Corpus with this Court. On March 26, 2018, the Arizona appellate
court granted review but denied relief. See Sauceda, 2018 WL 1467377, at *2. Mr. Sauceda
did not file a petition for review in the Arizona Supreme Court. Accordingly, July 3, 2018, the

21

Arizona appellate court issued the mandate regarding Mr. Sauceda’s second PCR Petition. The

22

following day, July 4, 2018, the AEDPA’s limitations period again began to run until Mr.

23

Sauceda filed the Petition for Writ of Habeas Corpus in this Court on February 19, 2019. A

24
25

9

145

Case 2:19-cv-01132-NVW-CDB Document 11 Filed 06/20/19 Page 10 of 13

1

total of 230 days (not the 331days as argued by the State) lapsed between July 4, 2018 (date of

2

the mandate) and February 19, 2019 (date when Petition for Writ of Habeas Corpus was filed).

3

Contrary to the State’s argument (Answer at 11:6-9), the operative date in the present

4

case under Arizona law is the date of the mandate. While the Arizona appellate court’s formal

5

written decision was issued on March 26, 2018, it was a “formal opinion” pursuant to A.R.S. §

6
7

12-120.24, not a denial of review. Therefore, based upon Celaya, A.R.S. § 12-120.24, and
Arizona law, Mr. Sauceda’s second PCR petition was no longer pending when the mandate
issued on July 3, 2018.
6.

9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

10
11
12
13
14

Mr. Sauceda’s petition was filed with 49 still remaining on the
AEDPA’s 365-day limitations period.

Mr. Sauceda’s Petition for Writ of Habeas Corpus was filed with 49 days still remaining
in the limitations period. Adding the 86 days (time between April 30, 2016 and July 25, 2016)
to the 230 days (July 4, 2018 and February 19, 219) demonstrates that only 316 of the AEDPA’s
365-day limitation period had lapsed. Therefore, Mr. Sauceda’s Petition For Writ of Habeas
Corpus was timely filed with 49 days still remaining on the limitations period.
B.

Mr. Sauceda Has Also Presented A Valid Claim For Actual Innocence:

15

Contrary to the State’s argument (Answer at 13-15), Mr. Sauceda has presented a claim

16

of actual innocence. Not only does Mr. Sauceda assert his actual innocence to the crimes for

17

which he was convicted but he also presented to new declarations from witnesses corroborating

18
19
20

and establishing the same. First, the two declarations provided by Ms. Ulibarri and Mr. DeLeon
establish Mr. Sauceda’s claim of actual innocence. Ms. Ulibarri’s declaration reads in pertinent
parts that Mr. Sauceda: (1) was not wearing any red clothing or garment on the night in question;
(2) was never in a gang; and (3) was not seen with a gun at any time in the history of the

21

relationship. Mr. DeLeon’s declaration reads in pertinent part that Mr. Sauceda: (1) was

22

wearing dark blue or black clothing and black “Jordan” tennis shoes; (2) was searched at the

23

door and no gun was identified; (3) was never seen at any time with a gun; (4) was not in a gang;

24

and (5) was never heard uttering an apology to Marcos Dominguez.

25

10

146

Case 2:19-cv-01132-NVW-CDB Document 11 Filed 06/20/19 Page 11 of 13

1

The State argues that these declarations merely place the testimony of the other 4

2

witnesses that appeared at trial in conflict. However, there is no demonstration that Mr. DeLeon

3

or Ms. Ulibarri are not being truthful or factual in their statements. Furthermore, as stated in

4

Schlup v. Delo, 513 U.S. 298 (1995), the standard is less than clear and convincing evidence.

5

The Schulp court opined in pertinent part:
[T]he district court is not bound by the rules of admissibility that would govern
at trial. Instead, the emphasis on “actual innocence” allows the reviewing
tribunal also to consider the probative force of relevant evidence that was either
excluded or unavailable at trial.

6
7

Id. at 327–28.

9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

Here, the two declarations do demonstrate Mr. Sauceda’s actual innocence these crimes.

10

The two individuals, one of which was with Mr. Sauceda at the party (Mr. DeLeon),

11

demonstrate Mr. Sauceda’s actual innocence. In Mr. Sauceda’s case, “it is more likely than not”

12

that no reasonable juror would have found him guilty. Id. at 328.
Additionally, the evidence regarding the bullet fragments that was not offered or

13
14
15
16
17
18

admitted into evidence during Mr. Sauceda’s trial establishes that the police lost or destroyed
the evidence. In such a situation in Arizona, the jury is permitted to assume that the lost or
destroyed evidence was unfavorable to the State’s case. See State v. Willits, 96 Ariz. 184, 191
(1964); see also State v. Glissendorf, 235 Ariz. 147, 149 (2014) (“Because the trial court erred
in refusing to give a Willits instruction and the State has not established that the error was
harmless, we reverse the convictions and sentences and remand for a new trial.”)
This new evidence presented by Mr. Sauceda establishes a claim for actual innocence

19
20

and should provide a gateway for this Court to consider the merits of such argument.

21

III.

22
23

CONCLUSION
Therefore, based upon the foregoing, this Court must determine that Mr. Sauceda’s

Petition For Writ Of Habeas Corpus, filed February 19, 2019, was timely pursuant to 28 U.S.C.
§ 2244 and Arizona law. Mr. Sauceda also asserts his actual innocent to the convictions.

24
25

11

147

Case 2:19-cv-01132-NVW-CDB Document 11 Filed 06/20/19 Page 12 of 13

1

Respectfully submitted this 20th day of June, 2019.

2
HORNE SLATON, PLLC

3
4

By:/s/ Sandra Slaton
Sandra Slaton, Esq.
Attorney for Petitioner

5
6
7

9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

12

148

Case 2:19-cv-01132-NVW-CDB Document 11 Filed 06/20/19 Page 13 of 13

CERTIFICATE OF SERVICE

1
2
3
4
5
6
7

9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

I hereby certify that on June 20, 2019, I electronically transmitted the attached document to
the Clerk’s Office using the ECF System for filing and transmittal of a Notice of Electroning
Filing to the following ECF registrant:
Mark Brnovich, Esq.
Attorney General
Terry M. Christ III, Esq.
Assistant Attorney General
Criminal Appeals Section
2005 N. Central Avenue
Phoenix, Arizona 85004-1580
CADocket@azag.gov
Attorney for Respondents
By: /s/ M. Monaco

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

13

149

Case 2:19-cv-01132-NVW Document 11-1 Filed 06/20/19 Page 1 of 2

Occurrence

Date Filed

Date of
Decision

Mandate Date
(no longer
pending)

Days
Elapsed

Limitations
Period
Remaining

Conviction on
August 20,
Counts 2-5
2008
Conviction on
September 15,
Count 1
2008
Sentencing on
November 13,
Counts 2-5
2008
Sentencing on
October 21,
Count 1
2009
Notice of
November 25, July 23, 2011
Appeal on
20081
Direct appeal
Petition for
August 22,
January 10,
Review to
2011
2012
Arizona
Supreme Court
Direct appeal
February 6,
Mandate
2012
It is undisputed that the day the limitations period began to run was April 19, 2012
First PCR
February 13,
June 3, 2013
0
365
Petition
2012
First PCR
December 15, June 11, 2015
0
365
Petition for
20142
Review
First PCR
August 13,
April 11, 2106
0
365
Petition for
2016
Review to
Arizona
Supreme Court
First PCR
April 11, 2016
0
365
Petition
Mandate
Second PCR
July 25, 3016
March 6, 2017
86
365-86=
Petition
279
Motion For
March 21,
April 7, 2017
0
279
Rehearing
2017
Second PCR
May 8, 2017
March 26,
0
279
Petition for
2018
Review

1

The opening brief was not filed until after the sentencing of Mr. Sauceda for all 5 counts occurred.
Mr. Sauceda also filed a supplemental brief on November 12, 2012.
2
Series of continuances granted by trial court pursuant to Rule 32.9.

150

Case 2:19-cv-01132-NVW Document 11-1 Filed 06/20/19 Page 2 of 2

Second PCR
Petition
Mandate
Petition For
Writ of Habeas
Corpus

July 3, 2019
February 19,
2019

151

0

279

230

279-230=
49

Case 2:19-cv-01132-NVW-CDB Document 10 Filed 05/21/19 Page 1 of 18

MARK BRNOVICH
ATTORNEY GENERAL
(FIRM STATE BAR NO. 14000)
TERRY M. CRIST III.
ASSISTANT ATTORNEY GENERAL
CRIMINAL APPEALS SECTION
2005 N. CENTRAL AVENUE
PHOENIX, ARIZONA 85004-1580
TELEPHONE: (602) 542-4686
CADocket@azag.gov
(STATE BAR NUMBER 028348)
ATTORNEYS FOR RESPONDENTS

UNITED STATES DISTRICT COURT
DISTRICT OF ARIZONA
Isidro Sauceda,

CV19–01132–PHX–NVW (CDB)

Petitioner,
-vs-

LIMITED ANSWER TO PETITION
FOR WRIT OF HABEAS CORPUS

Charles L. Ryan, et al.,
Respondents.

A jury convicted Petitioner Isidro Sauceda of first degree murder, two counts
of attempted first degree murder, aggravated assault, and assisting a criminal street
gang, and the trial court sentenced him to an aggregate term exceeding life in
prison. Following a direct appeal and two rounds of state post-conviction review,
Sauceda raises in this habeas petition claims of ineffective assistance of counsel
and actual innocence. But his petition is untimely by 71 days without excuse.
Despite his actual innocence merits claim, Sauceda cannot make a “gateway”
showing that he was probably innocent in order to excuse his untimeliness.
Therefore, his habeas petition is time barred and this Court should deny it without
reviewing the merits.

152

Case 2:19-cv-01132-NVW-CDB Document 10 Filed 05/21/19 Page 2 of 18

I.

BACKGROUND.
A.

The shooting.

On December 13, 2003, David and several friends held a party at his
Glendale home while his parents were away. (Exh. D, at 108–11.) To ensure the
party was “safe,” partygoers were patted down and asked if they had weapons. (Id.
at 49–50.) While this was not intended to be a gang party, many members of rival
gangs attended. The first to arrive were three members of the Phoeniqueras, a
local gang known for wearing red clothes. (Exh. F, at 138–39.) The three were
Sauceda, Marcus, and Marcus’ brother, Khris.

(Id.)

At trial, four witnesses

identified Sauceda as a member of the Phoeniqueras and remembered him wearing
dark clothes and a red bandana. (Exh. C, at 62 (Marcus); Exh. E, at 27, 44, 47
(Ivan), 125, 133, 136 (Jose); Exh. G, at 50, 72–73 (German).)

As Marcus

remembered, Sauceda brought a gun inside the house. (Exh. C, at 65–66.)
Later, members of the Califas, a local gang known for wearing blue clothes,
also arrived at the party. (Id. at 143.) These included Carlos, Jose, German, and
Ivan. (Exh. G, at 43.) One of David’s cousins noticed the rival gang members
wearing their colors and feared there might be trouble. (Exh. F, at 122, 123, 139,
141.) He warned Carlos it was a bad idea for the Califas to go inside because
people were drunk and “everybody [didn’t] know what they were doing.” (Id. at
144.) But Carlos reassured him not to worry, that nothing bad was going to
happen, and that they were there “to party, no big deal.” (Id. at 144–45.)
Inside, Sauceda and members of both gangs formed a circle. (Exh. G, at 60.)
German and Carlos refused to shake hands with the Phoeniqueras and made an
insult about the color red. (Exh. E, at 52–53; Exh. G, at 60–62.) In response,
Sauceda began firing his gun. (Exh. C, at 81, 119.) One person identified Sauceda
as the shooter to police, and he and two other witness identified Sauceda at trial.
(Id. at 89, 119 (Marcus); Exh. E, at 55–57, 68–69 (Ivan), 133, 136 (Jose).)
Sauceda shot Khris, and “went down to his knees, starting telling Marcus sorry.”
153

Case 2:19-cv-01132-NVW-CDB Document 10 Filed 05/21/19 Page 3 of 18

(Exh. E at 60.) Sauceda then exited the house and fired at least another five shots.
(Id. at 63–64.)

Ultimately, Sauceda shot Carlos in the forehead (Exh. H, at

25–26.); Jose in the chin, arm, and back (Exh. E, at 133–34, 137, 146–47.);
German in the head and wrist (Exh. G, at 60–62.); and Khris in the forehead—
killing him (Exh. J, at 5, 15, 23.). About a week after the shooting, Sauceda came
to Marcus’ house and apologized to him and his brothers, saying he was “sorry for
what [he] did to [Marcus’] brother.” (Exh. G, at 97, 131.)
B.

Trial and Conviction.

The State charged Saceda, via indictment, on May 6, 2005 on one count of
first-degree murder, two counts of attempted first-degree murder, one count of
aggravated assault, and one count of assisting a criminal street gang. (Exh. A.)
The State also filed a notice of intent to seek the death penalty. (Exh. B.) A jury
found Sauceda guilty as charged. (Exh. K.) But the jurors were unable to reach a
verdict on whether to impose the death penalty, and a second jury hung at a retrial
of the penalty phase. (Exh. L.) Accordingly, the trial court sentenced Sauceda to
life without the possibility of release after 25 years. (Exh. M, at 23.) The court
further sentenced Sauceda to 13.5 years for each of the attempt counts, 10.5 years
for aggravated assault, and 7.5 years for assisting a criminal street gang. (Id.) The
gang charge ran concurrently with the other non-capital offenses, and the life
sentence ran consecutively to those other offenses. (Id.)
C.

Direct Appeal.

Sauceda filed a notice of appeal on November 25, 2008. (Exh. N.) His
opening brief raised three claims: (1) the indictment was based on perjured
testimony and the trial court erred by declining to dismiss it, (2) the trial court
erred by denying a “Willits” instruction that would have allowed jurors to infer that
missing bullet fragments would have been helpful to the defense, and (3) The
instruction on reasonable doubt unconstitutionally relieved the State of its burden
of proof. (Doc. # 1, Exh. A.) He also filed a supplemental brief raising a fourth
154

Case 2:19-cv-01132-NVW-CDB Document 10 Filed 05/21/19 Page 4 of 18

claim: the trial court erred by declining to give an instruction for the
lesser-included-offense of attempted second degree murder. (Doc. # 1, Exh. B.)
The court of appeals affirmed the convictions, rejecting each of Sauceda’s claims.
(Doc. # 1, Exh. C.) Sauceda then filed a petition for review to the Arizona
Supreme Court, which it denied on January 10, 2012. (Doc. # 1, Exhs. D, E.)
Sauceda acknowledges he did not file a writ of certiorari to the United States
Supreme Court. (Doc. # 1, at 3.)
D.

Post-conviction Review: Round 1.

Sauceda filed a notice of post-conviction relief (“PCR”) under Arizona Rule
of Criminal Procedure 32 on February 13, 2012. (Exh. O.) Appointed counsel
filed a notice of completion of record finding no colorable claims, and the superior
court allowed him to withdraw and Sauceda to file a pro se petition. (Exh. P.) The
pro se petition asserted the following issues: (1) ineffective assistance of trial
counsel for failing to move to suppress out of court identifications, (2) trial counsel
was ineffective for failing to timely file a special action challenging the indictment,
(3) trial counsel was ineffective when cross-examining state witnesses, (4) trial
counsel was ineffective for failing to object to the absence of a second degree
murder instruction, (5) appellate counsel was ineffective for failing to include all
the testimony before the grand jury that Sauceda claims was perjured, (6) appellate
counsel was ineffective for failing to challenge the trial court’s refusal to give jury
instructions on intoxication and premeditation, and (7) appellate counsel was
ineffective for failing to appeal the trial court’s denial of motions for new trial and
for judgment of acquittal. (Doc. # 1, Exh. F.) In a minute entry, the superior court
denied each of these claims on the merits. (Doc. # 1, Exh. H.) Sauceda filed a pro
se petition for review to the Arizona Court of Appeals. (Doc. # 1, Exh. I.) That
court granted review but denied relief as to each claim on the merits. (Doc. # 1,
Exh. L.) Sauceda then filed a petition for review to the Arizona Supreme Court,

155

Case 2:19-cv-01132-NVW-CDB Document 10 Filed 05/21/19 Page 5 of 18

which denied review on April 11, 2016. (Doc. # 1, Exhs. M, O.) The mandate
issued on April 29, 2016. (Exh. Q.)
E.

Post-conviction Review: Round 2.

Sauceda filed a second petition for post-conviction relief on July 25, 2016.
(Doc. # 1, Exh. P.) There, he raised the following issues: (1) his first PCR attorney
was ineffective for filing a notice of no colorable claim instead of raising a
newly-discovered evidence claim, (2) there was newly discovered material
evidence that would have changed the outcome of trial, and (3) actual innocence.
(Id. at 1.) Sauceda’s “new” evidence came in the form of three exhibits:
The first was the report of the surgeon, Dr. Zacher, which was not admitted
at trial. (Id., Exhibit A.)

The report stated that upon removing three bullet

fragments from Carlos, Dr. Zacher sent them to the authorities “via the standard
protocol.” (Id.) The second was a declaration from Cherise Ulibarri, Sauceda’s
girlfriend at the time, who did not testify at trial. (Id., Exh. B.) She declared that
had she been called to testify, she would have said she purchased black tennis
shoes for Sauceda that day, and when he left for the party, he was wearing the
shoes, jeans, and a dark sweatshirt.

(Id.)

She further claimed that to her

knowledge, he was not a member of a gang and did not own or possess a gun. (Id.)
The third was an affidavit of Steven Deleon, a friend of Sauceda who did not
testify at trial. (Id., Exh. C.) The affidavit claims Deleon would have testified to
accompanying Sauceda to the party. (Id.) Deleon claimed Sauceda was wearing
dark clothing, including the shoes bought by Ulibarri. (Id.) He further claimed
Sauceda did not have a gun that evening and did not own one. (Id.) He also
claimed Sauceda was not affiliated with a gang. (Id.)
The superior court denied relief. (Doc. # 1, Exh. R.) The court noted that to
prevail on a newly discovered evidence claim under Rule 32.1(e), a defendant must
show “(1) [t]he newly discovered evidence must have existed at the time of trial
but be discovered after trial” and “(2) [t]he defendant exercised due diligence in
156

Case 2:19-cv-01132-NVW-CDB Document 10 Filed 05/21/19 Page 6 of 18

discovering the evidence and in bringing it to the court’s attention.” (Id. at 3.) The
court found the evidence contained in Sauceda’s three exhibits was known to him
or his attorneys: the state disclosed Zacher’s report, Sauceda would have
personally known everything contained in the declarations of Ulibarri, his
girlfriend, and Deleon, his childhood friend. (Id. at 3–4.) As a result, “[t]he mere
fact that Defendant chose not to use at trial evidence that he knew about at the time
of trial does not mean that the evidence constitutes newly discovered material facts
for purposes of post-conviction relief.” (Id. at 3.) The court further rejected
Sauceda’s actual innocence claim, holding that the declarations of two interested
witnesses, which was contradicted by the testimony of others at trial, would not
amount to the clear and convincing evidence necessary to establish actual
innocence under Arizona law. (Id. at 5.) The court finally rejected Sauceda’s
ineffectiveness claim because there is no substantive claim of ineffective assistance
of PCR counsel where defendants lack a constitutional right to counsel at that stage
of proceedings. (Id. at 5–6.)
Sauceda filed a petition for review to the Arizona Court of Appeals
repeating his PCR claims. (Doc. # 1, Exh. S.) On March 26, 2018, the court
granted review but denied relief. (Doc. # 1, Exh. V.) It held the superior court was
correct to summarily reject Sauceda’s newly discovered evidence claim because he
knew the substance of his additional evidence before trial. (Id. at 3.) The court
further agreed that Sauceda’s additional evidence would not establish his actual
innocence by clear and convincing evidence in light of the contrary evidence
presented at trial. (Id.) Finally, the court agreed there was no substantive claim of
ineffective assistance of PCR counsel under Arizona law. (Id.) Sauceda did not
file a petition for review to the Arizona Supreme Court, and the mandate issued on
July 3, 2018. (Exh. R.)

157

Case 2:19-cv-01132-NVW-CDB Document 10 Filed 05/21/19 Page 7 of 18

II.

SAUCEDA’S HABEAS CLAIMS.
Sauceda filed a petition for writ of habeas corpus on February 19, 2019.

(Doc. # 1.) The petition states the following grounds for relief:
Ground 1: Ineffective assistance of counsel:
a.

Trial counsel failed to timely file a state petition for special
action challenging the grand jury indictment.

b.

Trial counsel failed to object to the lack of lesser-includedoffense instructions.

c.

Trial counsel failed to contest the denial of his request for a
Willits instruction.

d.

Appellate counsel failed to challenge the trial court’s denial of
intoxication and premeditation instructions.

e.

Trial counsel failed to present Zacher’s report at trial.

f.

PCR counsel filed a notice of no claim instead of raising
substantive issues.

Ground 2: There were “newly discovered facts” that if presented at
trial would have changed the verdict.
Ground 3: Actual innocence.
(Doc. # 1.)
III.

RULE 5 STATEMENT.
Consistent with Rule 5 of the Rules Governing § 2254 Cases in the United

States District Courts, the State attaches only the exhibits that are relevant to this
limited answer. Those include excerpts from the trial transcripts. The State does
have full transcripts of the trial and pre- and post-trial hearings. Finally, to aid in
this Court’s review, the State has attached the docket for proceedings in the trial
and appellate courts. (Exhs. S & T.)

158

Case 2:19-cv-01132-NVW-CDB Document 10 Filed 05/21/19 Page 8 of 18

IV.

SAUCEDA’S CLAIMS ARE INEXCUSABLY TIME-BARRED.
A.

The petition is untimely.
1.

AEDPA’s limitations period began to run on April 19, 2012.

The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”)
provides that “[a] 1-year period of limitation shall apply to an application for a writ
of habeas corpus by a person in custody pursuant to the judgment of a State court.”
28 U.S.C. §2244(d)(1). Of the four ways to determine the start of this one-year
period, only the first is relevant here: “the date on which the judgment became
final by the conclusion of direct review or the expiration of the time for seeking
such review.” § 2244(d)(1)(A). Because Sauceda did not file a petition for writ of
certiorari to the United States Supreme Court, his convictions became final 90
days after the Arizona Supreme Court denied review of his direct appeal: on April
19, 2012. 28 U.S.C. § 2101(c); U.S. Supr. Ct. R. 13(1). The limitations period ran
from that date forward.
2.

No time accrued until the conclusion of Sauceda’s round of
PCR review on February 13, 2012.

AEDPA’s limitations period is statutorily tolled for “[t]he time during which
a properly filed application for State post-conviction or other collateral review with
respect to the pertinent judgment or claim is pending.” 28 U.S.C. § 2244(d)(2).
Sauceda filed his first notice of PCR on February 13, 2012, before his convictions
became final. As a result, no time lapsed by July 25, 2016: the date the Arizona
Court of Appeals denied relief on Sauceda’s first PCR and collateral review ceased
to be pending.
3.

Sauceda’s first round of PCR review ceased to be pending
on April 11, 2016.

Collateral review proceedings are “pending” for purposes of 28 U.S.C.
§ 2244(d)(2) until the state’s post-conviction proceeding “has achieved final
resolution through the State’s post-conviction procedures….” Carey v. Saffold,
159

Case 2:19-cv-01132-NVW-CDB Document 10 Filed 05/21/19 Page 9 of 18

536 U.S. 214, 220 (2002). When collateral proceedings are pending is a question
of state law. Phonsavanh Phongmanivan v. Haynes, 918 F.3d 1021, 1022 (9th Cir.
2019). Courts take a functional approach: looking “to how a state procedure
functions, rather than the particular name that it bears.” Carey, 536 U.S. at 223.
For instance, “it is the decision of the state appellate court, rather than the
ministerial act of entry of the mandate, that signals the conclusion of review.”
White v. Klitzkie, 281 F.3d 920, 924 (9th Cir. 2002).
In Arizona, a PCR appeal ceases to be pending when the court of appeals
renders its decision, not when the mandate issues. Rule 32.9(h) determines that a
petition for review ceases to be “pending” upon the court of appeals’s decision
when stating: “After a petition for review is resolved, the appellate clerk must
return the record to the trial court clerk for retention.” (emphasis added). Rule 32
does not even discuss the issuance of a mandate. Relatedly, the Ninth Circuit has
already held the mandate did not determine when an of-right PCR appeal was final
under 28 U.S.C. § 2244(d)(1)(A) because the return of the record under Rule
32.9(h) “only provides for a ministerial function in the state appellate court.” See
Hemmerle v. Schriro, 495 F.3d 1069, 1077 (9th Cir. 2007); White, 281 F.3d at 924
(holding the ministerial issuance of a mandate did not signal finality under Guam’s
post-conviction rules). If the mandate does not determine when proceedings are
“final,” neither does it determine when they cease to be “pending.” See Welch v.
Carey, 350 F.3d 1079, 1080–83 (9th Cir. 2003) (concluding that state habeas
proceeding was no longer pending when the petitioner “made no attempt to seek
relief in a higher court”).
It is true that in Celaya v. Stewart, 691 F. Supp. 2d 1046 (D. Ariz. 2010), the
district court treated the issuance of the mandate as the moment PCR proceedings
ceased to be pending. Respectfully, that decision was incorrect. Celaya did not
discuss Rule 32.9(h) at all. 691 F. Supp. 2d at 1052–1054. The court instead
largely relied on former Rule 31.23’s provisions governing mandates. Id. at 1054.
160

Case 2:19-cv-01132-NVW-CDB Document 10 Filed 05/21/19 Page 10 of 18

But Rule 31 concerns direct appeals, not Rule 32 PCR proceedings, and the
language regarding mandates in former Rule 31.23 (now Rule 31.22) is notably
absent from Rule 32.9. The Celaya court’s error was both that it identified the
wrong state procedural rule (Rule 31 instead of Rule 32) and failed to apply it
under the correct standard. See Carey, 536 U.S. at 214. Therefore, this Court
should disregard Celaya.
Under the correct analysis, Sauceda’s first round of PCR review ceased to be
“pending” when the Arizona Court of Appeals denied relief on April 11, 2016, not
when the mandate later issued on April 29.
4.

105 days lapsed between Sauceda’s first and second rounds
of PCR review.

The limitations period was not tolled between the two rounds of PCR
proceedings. Generally, “[w]hen a petitioner files a second state habeas petition in
the same court, rather than in a higher level of the [state] court system, statutory
tolling is not appropriate for the period between two state habeas petitions,
unless the second petition is limited to an elaboration of the facts relating to the
claims in the first petition.” Hernandez v. Spearman, 764 F.3d 1071, 1076 (9th
Cir. 2014) (citations and internal quotation marks omitted); accord Stancle v. Clay,
692 F.3d 948, 953 (9th Cir. 2012) (explaining there is no gap tolling between
rounds of state collateral proceedings). Here, Sauceda’s second PCR petition did
more than merely elaborate upon the facts of the first petition; instead, he raised
entirely new claims of newly discovered evidence, actual innocence, and
ineffective assistance of first PCR counsel. See Hernandez, 764 F.3d at 1077
(finding no statutory tolling for the time between the prisoner’s first and second
state habeas filings because his second petition contained new claims).
Accordingly, there was no gap tolling, and the statute of limitations ran between
Sauceda’s two rounds of PCR proceedings.

161

Case 2:19-cv-01132-NVW-CDB Document 10 Filed 05/21/19 Page 11 of 18

Therefore, 105 days elapsed between the conclusion of the first round of
PCR review on April 11, 2016 and the beginning of the second round on July 25,
2016.
5.

331 days lapsed from the end of the second round of PCR
review until Sauceda filed his habeas petition.

Sauceda’s second round of PCR review ceased to be pending with the
Arizona Court of Appeals’s denial of relief on March 26, 2018. See § IV(A)(3),
supra. From that date until Sauceda filed his habeas petition on February 19, 2019,
331 days passed.
6.

Sauceda’s habeas petition is 71 days untimely.

Adding the 105 days between the two rounds of PCR review with the 331
days from the end of the second round until Sauceda filed his habeas petition
shows time ran for a total of 436 days. Given the limitations period lasted for
exactly 365 days, Sauceda’s habeas petition is untimely by 71 days.
B.

There is no basis for equitable tolling.

A petitioner will benefit from equitable tolling only if he can show both:
“(1) that he has been pursuing his rights diligently, and (2) that some extraordinary
circumstance stood in his way and prevented timely filing.” Holland v. Florida,
560 U.S. 631, 649 (2010) (internal quotation marks omitted). The “extraordinary
circumstance” must result from an external force rather than a petitioner’s lack of
diligence, Miles v. Prunty, 187 F.3d 1104, 1107 (9th Cir. 1999), and the petitioner
must establish a causal connection between the extraordinary circumstance and his
failure to file a timely petition. Bryant v. Ariz. Att’y Gen., 499 F.3d 1056, 1060–61
(9th Cir. 2007). Courts are clear that “[e]quitable tolling is justified in few cases,”
and “the threshold necessary to trigger equitable tolling is very high, lest the
exceptions swallow the rule.” Spitsyn v. Moore, 345 F.3d 796, 799 (9th Cir. 2003).
Sauceda does not acknowledge his habeas petition is untimely, let alone
offer any grounds for equitable tolling. Nor does any basis for equitable tolling
162

Case 2:19-cv-01132-NVW-CDB Document 10 Filed 05/21/19 Page 12 of 18

appear in the record. Not only is the lack of counsel not a basis for equitable
tolling generally, see Rasberry v. Garcia, 448 F.3d 1150, 1154 (9th Cir. 2006), but
Sauceda has been represented by the same counsel since the Arizona Supreme
Court stage of his first round of PCR—encompassing both periods where the
statute of limitations ran.
Further, while Sauceda invokes Martinez v. Ryan, 566 U.S. 1 (2012), to
excuse any procedural defaults, Martinez is flatly inapplicable to excuse a time bar.
Martinez held that, “[w]here, under state law, claims of ineffective assistance of
trial counsel must be raised in an initial-review collateral proceeding, a procedural
default will not bar a federal habeas court from hearing a substantial claim of
ineffective assistance at trial if, in the initial-review collateral proceeding, there
was no counsel or counsel in that proceeding was ineffective.” 566 U.S. at 17–18.
But while Martinez announced an excuse for procedural defaults, it did not create
an exception to AEDPA’s statute of limitations or announce a rule of equitable
tolling. See Chavez v. Sec’y, Fla. Dep’t of Corr., 742 F.3d 940, 945 (11th Cir.
2014) (“We have emphasized that the equitable rule established in Martinez applies
only ‘to excusing a procedural default of ineffective-trial-counsel claims’ and, for
that reason, has no application to other matters like the one-year statute of
limitations period for filing a § 2254 petition.”); accord Alvarado v. Ryan, No. CV13-02190-PHX-SPL (DKD), 2016 WL 4059603, *3 (D. Ariz. July 29, 2016) (slip
opinion). As the Seventh Circuit recently explained, extending Martinez to
equitable tolling would effectively “exempt”

petitioners

from showing

“extraordinary circumstances” (because an attorney’s failure to file a timely,
meritorious habeas petition would always be ineffective) and thus “no federal
prisoner with a claim of ineffective assistance of trial counsel would ever have to
establish any actual extraordinary circumstances in support of equitable tolling for
such a claim.” Lombardo v. United States, 860 F.3d 547, 560 (7th Cir. 2017)
(emphasis in original).

At any rate, Sauceda does not claim attorney
163

Case 2:19-cv-01132-NVW-CDB Document 10 Filed 05/21/19 Page 13 of 18

ineffectiveness was responsible for his untimely petition since he offers no
explanation whatsoever.
Sauceda’s delay in filing this petition was not prevented by an external
impediment nor was it diligent. Therefore, Sauceda’s habeas petition is time
barred.
C.

Sauceda cannot establish a miscarriage of justice to excuse his time
bar.

A fundamental miscarriage of justice, in the form of actual innocence, may
serve as a “gateway” to excusing a time bar, but only if a petitioner shows “that it
is more likely than not that no reasonable juror would have convicted him in the
light of the new evidence.” McQuiggin v. Perkins, 133 S. Ct. 1924, 1935 (2013)
(quoting Schlup v. Delo, 513 U.S. 298, 327 (1995)). This standard is “demanding
and seldom met.” Id. at 1928 (citing House v. Bell, 547 U.S. 518, 538 (2006))
(internal quotation marks omitted). Actual innocence “means factual innocence,
not mere legal insufficiency.” Bousley v. United States, 523 U.S. 614, 622 (1998).
Also, a defendant must “go beyond demonstrating doubt about his guilt, and must
affirmatively prove that he is probably innocent.” Gimenez v. Ochoa, 821 F.3d
1136, 1145 (9th Cir. 2016) (citation omitted).
Thus, a petitioner must do more than just assert his innocence to satisfy this
standard; he must prove it with “new reliable evidence—whether it be exculpatory
scientific evidence, trustworthy eyewitness accounts, or critical physical
evidence—that was not presented at trial.” Schlup, 513 U.S. at 324. This Court
“considers all the evidence, old and new, incriminating and exculpatory,
admissible at trial or not.” Lee v. Lampert, 653 F.3d 929, 937 (9th Cir. 2011)
(citing House, 547 U.S. at 538).

This Court then makes “a probabilistic

determination about what reasonable, properly instructed jurors would do.” Id.
(citing House, 547 U.S. at 538).

This Court’s function is not to “make an

independent factual determination about what likely occurred,” but instead to
164

Case 2:19-cv-01132-NVW-CDB Document 10 Filed 05/21/19 Page 14 of 18

“assess the likely impact of the evidence on reasonable jurors.” House, 547 U.S. at
538. As a result, a petitioner will only pass through the Schlup gateway in an
“extraordinary case.”

Id. at 535; accord, McQuiggin, 133 S. Ct. at 1928

(cautioning that “tenable actual-innocence gateway pleas are rare”).
This case is not extraordinary.

Dr. Zacher’s surgeon’s report was not

exculpatory. The report merely supported Sauceda’s argument that the State had,
and later lost, possession of fragments from a bullet that struck Carlos. This, in
turn, supported the argument in state court that the trial court should have given a
“Willits instruction.” Uniquely, Arizona law requires trial courts to instruct that
when the State destroys material evidence, even negligently, the jurors may infer
the missing evidence was unfavorable to the State. State v. Willits, 393 P.2d 184
(Ariz. 1964). But evidence supporting a Willits instruction does not establish
actual innocence.
A petitioner does not establish a fundamental miscarriage of justice when his
proposed evidence merely supports reversal on appeal for a “procedural” reason.
See Calderon v. Thompson, 523 U.S. 538, 559 (1998) (“The miscarriage of justice
exception is concerned with actual as compared to legal innocence.”); Johnson v.
Knowles, 541 F.3d 933, 937 (9th Cir. 2008) (“A petitioner who asserts only
procedural violations without claiming actual innocence fails to meet this
standard.”). At any rate, a Willits issue is a creature of state law—not cognizable
in federal habeas corpus—because the destruction of evidence only violates due
process when the government acts intentionally. State v. Glissendorf, 235 Ariz.
147, 151, ¶ 14 (2014) (agreeing Willits “lacks a statutory or constitutional basis”
and is instead a court-created evidentiary rule); see Arizona v. Youngblood, 488
U.S. 51, 58 (1988) (holding “that unless a criminal defendant can show bad faith
on the part of the police, failure to preserve potentially useful evidence does not
constitute a denial of due process of law”).

165

Case 2:19-cv-01132-NVW-CDB Document 10 Filed 05/21/19 Page 15 of 18

In addition, the proposed testimony contained in the witness declarations did
not prove Sauceda’s innocence. The girlfriend, Ulibarri, only claimed that she had
not seen Sauceda with a gun before and that he left for the party without wearing
red. However, neither statement is inconsistent with the possibility that Sauceda
used guns outside her presence or put on his red bandana after leaving for the party.
Moreover, both her testimony and Deleon’s contradicted the word of at least
four witnesses who testified Sauceda wore red, was a member of the Phoeniquera,
and was the sole shooter. At best Sauceda’s additional witnesses could create
additional conflict in the evidence, but their testimony was not so overwhelmingly
exculpatory that any rational juror would have believed them over the inculpatory
testimony of the trial witnesses. Jones v. Taylor, 763 F.3d 1242, 1251 (9th Cir.
2014) (“Evidence that merely undercuts trial testimony or casts doubt on the
petitioner's guilt, but does not affirmatively prove innocence, is insufficient to
merit relief on a freestanding claim of actual innocence.”). That is especially true
here, where the jury would have had good reason to doubt the word of two
interested witnesses: Sauceda’s long-time friend and girlfriend. Cf. Musladin v.
Lamarque, 555 F.3d 830, 850 (9th Cir. 2009) (holding the testimony of a “close
family member” had “questionable reliability”).
Sauceda’s exhibits do not establish he is “probably innocent.” See id. at
1246. He thus cannot meet the “extraordinarily high” standard of presenting “truly
persuasive” evidence of actual innocence. Herrera v. Collins, 506 U.S. 390, 417
(1993). Therefore, he cannot pass through the gateway of actual innocence to
excuse his untimely habeas petition.1

1

Alternatively, Sauceda’s evidence was not “new, reliable evidence” under Schlup
because, as observed by the superior court, Sauceda knew the substance of all three
exhibits before trial. It is true Griffin v. Johnson held that the pertinent standard
was evidence not presented at trial rather than evidence not available at trial. 350
F.3d 956, 963 (9th Cir. 2003). The State respectfully asserts Griffin was wrongly
166

Case 2:19-cv-01132-NVW-CDB Document 10 Filed 05/21/19 Page 16 of 18

V.

CONCLUSION.
Based on the foregoing authorities and arguments, the State respectfully

requests this Court to deny the petition and dismiss it with prejudice. Alternatively,
this Court should permit the State to supplement its answer with a response to
Sauceda’s claims on the merits.

This Court should also decline to issue a

certificate of appealability because the issue is not “debatable among jurists of
reason”; “a court could [not] resolve the issue[] in a different manner”; and “the
question[] [is not] adequate to deserve encouragement to proceed further.” Mendez
v. Knowles, 556 F.3d 757, 770 (9th Cir. 2009).
RESPECTFULLY SUBMITTED this 21st day of May, 2019.
Mark Brnovich
Attorney General
Joseph T. Maziarz

Chief Counsel
s/ Terry M. Crist III.
Assistant Attorney General
Attorneys for RespondentS

decided and would urge the Ninth Circuit to adopt the approach of other circuits
holding evidence must be newly discovered rather than newly presented. See,
Hancock v. Davis, 906 F.3d 387, 390 & n.1 (5th Cir. 2018) (collecting cases and
recognizing the Fifth Circuit’s newly-discovered evidence rule), cert. pending
Hancock v. Davis, No. 18-940 (U.S. 2019). However, the State is mindful this
Court lacks authority to depart from Griffin and makes the argument here to
preserve it for later review.
167

Case 2:19-cv-01132-NVW-CDB Document 10 Filed 05/21/19 Page 17 of 18

CERTIFICATE OF SERVICE
I hereby certify that on May 21, 2019, I electronically transmitted the attached
document to the Clerk’s Office using the ECF System for filing and transmittal of
a Notice of Electronic Filing to the following ECF registrant:
Sandra L. Slaton
Horne Slaton, PLLC
6720 N. Scottsdale, Rd. Suite 285
Scottsdale, Arizona 85253
slaton@horneslaton.com
Petitioner, Pro Se

s/ N. Romero

7698682

168

Case 2:19-cv-01132-NVW-CDB Document 10 Filed 05/21/19 Page 18 of 18

LIST OF EXHIBITS
Exhibit A. Indictment.
Exhibit B.

State’s Notice of Intention to Seek the Death Penalty.

Exhibit C.

R.T. 7/09/08 (pages 40, 62, 65–66, 81, 97, 119).

Exhibit D. R.T. 7/10/08 (pages 107–11).
Exhibit E.

RT 7/14/08 (pages 17, 27, 44, 47, 52–57, 60, 68–69, 111, 125,
133–37, 146–47).

Exhibit F.

R.T. 7/15/08 (pages 120–23, 138–41).

Exhibit G. RT 7/16/08 (pages 34, 43, 50, 60–62, 72–73.
Exhibit H. R.T. 7/17/08 (p.m.) (pages 24–26.)
Exhibit I.

N/A

Exhibit J.

R.T. 8/07/08 (pages 5, 15, 23).

Exhibit K. Minute Entry, 8/20/08.
Exhibit L.

Minute Entry, 9/15/08.

Exhibit M. R.T. 11/10/08 (pages 35–39).
Exhibit N. Notice of Appeal.
Exhibit O. Notice of Post-conviction relief (2/12/12).
Exhibit P.

Notice of Completion of Post-conviction review.

Exhibit Q. Mandate, 4/29/06.
Exhibit R.

Mandate, 7/3/2018.

Exhibit S.

Docket, No. CR–2005–112128–001 DT (Ariz. Super.)

Exhibit T.

Docket, No. 1 CA–CR 08–1036 (Ariz. App.)

Exhibit U. Docket, No. 2 CA–CR 2017–0375–PR (Ariz. App.)

169

Case 2:19-cv-01132-NVW-CDB Document 8 Filed 04/05/19 Page 1 of 3

MARK BRNOVICH
ATTORNEY GENERAL
(FIRM STATE BAR NO. 14000)
TERRY M. CRIST III.
ASSISTANT ATTORNEY GENERAL
CRIMINAL APPEALS SECTION
2005 N. CENTRAL AVENUE
PHOENIX, ARIZONA 85004-1580
TELEPHONE: (602) 542-4686
CADocket@azag.gov
(STATE BAR NUMBER 028348)
ATTORNEYS FOR RESPONDENT

UNITED STATES DISTRICT COURT
DISTRICT OF ARIZONA
Isidro Sauceda,

CV19–01132–PHX–NVW (CDB)

Petitioner,
MOTION FOR EXTENSION
OF TIME TO FILE ANSWER
TO PETITION FOR WRIT OF
HABEAS CORPUS
(First Request)

-vsCharles L. Ryan, et al.,
Respondents.

Respondents (“the State”) respectfully request a first, 45-day extension of
time, until May, 23, 2019, in which to file an answer or other dispositive pleading
in response to the Petition for Writ of Habeas Corpus. The response is currently
due on April 8, 2019. Undersigned counsel has begun drafting the State’s response
but needs the additional time due to prior involvement in other appeals and legal
matters before the state and federal courts, including:
Black v. Ryan, No. CV 18–03416–PHX–SRB (JZB) (D. Ariz.,
habeas answer due 4/17/19).
Holland v. Ryan, No. CV18–04543–PHX–JJT (JZB) (D. Ariz.,
habeas answer due 4/26/19).
Dargen v. Ryan, No. CV18–04360–PHX–SRB (BSB) (D. Ariz.,
habeas answer, due 5/6/19).

170

Case 2:19-cv-01132-NVW-CDB Document 8 Filed 04/05/19 Page 2 of 3

State v. Dillion, No. 1 CA–CR 18–0620 (Ariz. App., answering brief
due 5/13/19).
Opposing counsel does not object to the motion. Therefore, this Court should
grant this extension request.

DATED this 5th day of April, 2019.
Respectfully submitted,
Mark Brnovich
Attorney General
Joseph T. Maziarz
Chief Counsel

s/ Terry M. Crist III.
Assistant Attorney General
Attorneys for Respondents

171

Case 2:19-cv-01132-NVW-CDB Document 8 Filed 04/05/19 Page 3 of 3

CERTIFICATE OF SERVICE
I hereby certify that on April 5, 2019, I electronically transmitted the attached
document to the Clerk’s Office using the ECF System for filing and served the
attached document by mail on the following, who is not a registered participant of
the ECF System:
Sandra L. Slaton
Horton Slaton, PLLC
6720 N. Scottsdale, Rd. Suite 285
Scottsdale, Arizona 85253
slaton@horneslaton.com
Petitioner, Pro Se
s/ NLR
7800574

172

Case 2:19-cv-01132-NVW Document 1 Filed 02/19/19 Page 1 of 11

Sandra L. Slaton, Bar No. 006454
HORNE SLATON, PLLC
6720 N. Scottsdale Rd., Suite 285
Scottsdale, Arizona 85253
Tel. 480-483-2178
Fax. 480-367-0691 fax
slaton@horneslaton.com
Attorney for Petitioner Isidro Sauceda

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA

Isidro Sauceda,
Petitioner,

CASE NO.

v.
Charles L. Ryan, Director of the Arizona
Department of Corrections,

PETITION UNDER 28 U.S.C. § 2254
FOR A WRIT OF HABEAS CORPUS
BY A PERSON IN STATE CUSTODY
(NON-DEATH PENALTY)

Respondent,
And
The Attorney General of the State of Arizona,
Additional Respondent

PETITION
1. (a) Name and location of court that entered the judgment of conviction you are
challenging: Superior Court Of The State Of Arizona In And For The County Of
Maricopa.
(b) Criminal docket or case number: CR 2005-1121128-001 DT
2. Date of judgment of conviction: October 16, 2009.
3. In this case, were you convicted on more than one count or crime? Yes.
4. Identify all counts and crimes for which you were convicted and sentenced in this case:
1

173

Case 2:19-cv-01132-NVW Document 1 Filed 02/19/19 Page 2 of 11

Count 1: First Degree Murder
Count 2: Attempted First Degree Murder
Count 3: Attempted First Degree Murder
Count 4: Aggravated Assault
Count 5: Assisting a Criminal Street Gang
5. Length of sentence for each count or crime for which you were convicted in this case:
Count 1: LIFE without the possibility of release until after 25 years from conclusion
of sentence in counts 2, 3, and 4. Consecutive with counts 2, 3, and 4.
Count 2: 13.5 years. Concurrent with Count 5.
Count 3: 13.5 years. Consecutive to Count 2.
Count 4: 10.5 years. Consecutive to Count 3.
Count 5: 7.5. years. Concurrent with Count 2.
Total: 37.5 years, followed by LIFE.
6. What was your plea? Not Guilty.
7. Did you testify at the trial? No.
8. Did you file a direct appeal to the Arizona Court of Appeals from the judgment of
conviction? Yes.
If yes, answer the following:
(a) Date you filed: November 25, 2008
(b) Docket or case number: No. 1 CA-CR 08-1036
(c) Result: Review granted; relief denied
(d) Date of result: June 23, 2011
(e) Grounds raised: Trial court erred and abused its discretion by: (1) denying motion
to dismiss indictment; (2) refusing request for Willits instruction regarding lost or
destroyed evidence; (3) improperly giving a Portillo instruction on reasonable doubt;
(4) failing to instruct on a lesser-included offense in regard to the charges of
attempted first degree murder. This violated Mr. Sauceda’s rights under the Fifth,
Sixth, and Fourteenth Amendments to the United States Constitution.
Attach, if available, a copy of any brief filed on your behalf and a copy of the decision
by the court. See Appellant’s Opening Brief (Exhibit A), Appellant’s Supplemental Brief
2

174

Case 2:19-cv-01132-NVW Document 1 Filed 02/19/19 Page 3 of 11

(Exhibit B), and Memorandum Decision (Exhibit C), attached hereto.
9. Did you appeal to the Arizona Supreme Court? Yes.
If yes, answer the following:
(a) Date you filed: August 17, 2011
(b) Docket or case number: CR-11-0217-PR
(c) Result: Review denied
(d) Date of result: January 10, 2012
(e) Grounds raised: Trial court erred and abused its discretion by: (1) denying motion
to dismiss indictment; (2) refusing request for Willits instruction regarding lost or
destroyed evidence; (3) improperly giving a Portillo instruction on reasonable doubt;
(4) failing to instruct on a lesser-included offense in regard to the charges of
attempted first degree murder. This violated Mr. Sauceda’s rights under the Fifth,
Sixth, and Fourteenth Amendments to the United States Constitution.
Attach, if available, a copy of any brief filed on your behalf and a copy of the decision
by the court. See Petition for Review (Exhibit D), Denial of Review (Exhibit E), attached
hereto.
10. Did you file a petition of certiorari in the United States Supreme Court? No.
11. Other than the direct appeals listed above, have you filed any other petitions,
applications or motions concerning this judgment of conviction in any state court? Yes.
(a) First Petition
(1) Date you filed: August 4, 2012
(2) Name of court: Maricopa County Superior Court
(3) Nature of the proceeding: Rule 32, Post-Conviction Relief
(4) Docket or case number: CR2005-112129-001 DT
(5) Result: Relief denied
(6) Date of result: June 3, 2013
(7) Grounds raised: Ineffective assistance of counsel: (1) failure to seek suppression
of two witness out-of-court and in-court identifications; (2) untimely filing of
motion to dismiss; (3) ineffective and concessionary cross-examination of a witness;
(4) failure to object to failure to include lesser-included instructions. Ineffective
appellate counsel: (1) failure to reference additional perjured testimony; (2) failure
to challenge trial court’s denial of intoxication instruction; (3) failure to appeal the
trial court’s denial of a motion for new trial. This violated his rights under the Fifth,
3

175

Case 2:19-cv-01132-NVW Document 1 Filed 02/19/19 Page 4 of 11

Sixth, and Fourteenth Amendments.
Attach, if available, a copy of any brief filed on your behalf and a copy of the decision
by the court. See Pro-Per Petition for Post-Conviction Relief (Exhibit F), Reply to the
State’s Response to Petitioner’s Petition for Post-Conviction Relief (Exhibit G), Minute
Entry Denying Relief (Exhibit H), attached hereto.
(c) Second Petition
(1) Date you filed: January 9, 2014
(2) Name of court: Arizona Court of Appeals
(3) Nature of the proceeding: Petition for Review
(4) Docket or case number: CA-CR 14-0027 PRPC, transferred to CA-CR 20150174 PR
(5) Result: Review granted, relief denied
(6) Date of result: June 11, 2015
(7) Grounds raised: Ineffective counsel under 32.1(a): (1) failure to seek suppression
of in-court and out-of-court identifications by two witnesses; (2) failing to timely
file a motion to dismiss the indictment; (3) creation of a “conflict of interest” by
cross-examining a witness in a manner favorable to the state’s case; (4) failure to
object to a lack of instructions for lesser-included offenses; (5) ineffective arguing
motion to dismiss indictment. This violated his rights under the Fifth, Sixth and
Fourteenth Amendments.
Attach, if available, a copy of any brief filed on your behalf and a copy of the decision
by the court. See Petition for Review (Exhibit I), Petitioner’s Reply to State’s Response
(Exhibit J), Order of Transfer (Exhibit K), Decision (Exhibit L), attached hereto.
(d) Third Petition
(1) Date you filed: August 13, 2015
(2) Name of court: Arizona Supreme Court
(3) Nature of the proceeding: Petition for Review
(4) Docket or case number: CR-15-0239-PR
(5) Result: Relief denied
(6) Date of result: April 29, 2016
(7) Grounds raised: Ineffective counsel under Ariz. R. Crim. P. 32.1(a): (1) failure
to object to lack of lesser-included offense instructions left the jury with no choice
but to convict on greater charges; (2) constructive denial of counsel through special
action to challenge the motion to dismiss the indictment; (3) public policy demands
review for failing to follow a procedural rule when filing a pro se petition for review.
This violated Mr. Sauceda’s rights under the Sixth Amendment.
4

176

Case 2:19-cv-01132-NVW Document 1 Filed 02/19/19 Page 5 of 11

Attach, if available, a copy of any brief filed on your behalf and a copy of the decision
by the court. See Petition for Review (Exhibit M), (Proposed) Reply to State’s Response
to Petition for Review (Exhibit N), Denial of Petition (Exhibit O), attached hereto.
(b) Fourth Petition
(1) Date you filed: July 25, 2016
(2) Name of court: Maricopa County Superior Court
(3) Nature of the proceeding: Rule 32, Post-Conviction Relief
(4) Docket or case number: CR2005-112128DT
(5) Result: Relief Denied
(6) Date of result: March 3, 2017
(7) Grounds raised: (1) Ariz. R. Crim. P.32.1(e), newly discovered material facts
exist which would have probably changed the verdict or sentence; (2) Ariz. R. Crim.
P. 32.1(h), facts exist which establish by clear and convincing evidence that the
defendant is actually innocent; (3) Ariz. R. Crim. P. 32.1(a), ineffective assistance
of post-conviction relief counsel in Defendant’s first post-conviction relief
proceeding.
Attach, if available, a copy of any brief filed on your behalf and a copy of the decision
by the court. See Petition for Post Conviction Relief (Exhibit P), Reply in Support of
Petition for Post Conviction Relief (Exhibit Q), Ruling / Criminal PCR (Exhibit R),
attached hereto.
(e) Fifth Petition
(1) Date you filed: May 8, 2017
(2) Name of court: Arizona Court of Appeals
(3) Nature of the proceeding: Petition for Review
(4) Docket or case number: CA-CR 17-0293 PRPC, transferred to CA-CR-20170375-PR
(5) Result: Review granted; relief denied
(6) Date of result: March 26, 2018
(7) Grounds raised: (1) Newly discovered evidence under Ariz. R. Crim. P. 32.1(e);
ineffective assistance under Ariz. R. Crim. P. 32.1(a); (3) actual innocence under
Ariz. R. Crim. P. 32.1(h).
Attach, if available, a copy of any brief filed on your behalf and a copy of the decision
by the court. See Petition for Review From Post-Conviction Relief Decision (Exhibit S),
Reply in Support of Petition for Review From Post-Conviction Relief Decision (Exhibit
T), Order of Transfer (Exhibit U), Review and Denial (Exhibit V), attached hereto.
5

177

Case 2:19-cv-01132-NVW Document 1 Filed 02/19/19 Page 6 of 11

12. For this petition, state every ground on which you claim you are being held in
violation of the Constitution, laws, or treaties of the United States. Attach additional
pages if you have more than four grounds. State the facts supporting each ground.
CAUTION: To proceed in the federal court, you must ordinarily first exhaust (use
up) your available state court remedies on each ground on which you request action by the
federal court. Also, if you fail to set forth all the grounds in this petition, you may be barred
from presenting additional grounds at a later date.
GROUND ONE: Ineffective Assistance
(a) Supporting FACTS:
First Rule 32 Petition: Mr. Sauceda was appointed Rule 32 counsel which was
ineffective, and so Mr. Sauceda filed a Rule 32 Petition pro per. Mr. Sauceda
provided an affidavit from trial counsel that swore that his performance fell below
the reasonableness standards. Trial counsel failed to timely file a special action to
challenge dismissal of a Rule 12.9 challenge of the grand jury proceedings. Trial
counsel failed to object to no lesser-included offense instructions. Mr. Sauceda’s
trial counsel already has stated that his assistance fell below the objectively
reasonable standard. Appellant counsel failed to include an issue of denied jury
instruction on “intoxication” and “premeditation.” Appellant counsel was
ineffective when it failed to argue reversible error when it denied a request for new
trial.
Second Rule 32 Petition: Mr. Sauceda obtained post-conviction counsel and filed
a second Rule 32 Petition. Defense counsel failed to introduce the medical records
of Carlos Sanchez and bring Dr. Zacher’s report to the attention of the jury. Defense
counsel failed to object to a lack of a Willits instruction to the jury, which would
have allowed the jury to take a negative prejudicial inference and limited Mr.
Sauceda’s challenge to fundamental error rather than abuse of discretion. Then,
post-conviction counsel filed a no-issue claim despite all of this. Mr. Sauceda was
appointed counsel by statute and no has no remedy to challenge counsel’s
effectiveness.
(b) Did you present the issue raised in Ground One to the Arizona Court of Appeals?
Yes.
(c) If yes, did you present the issue in a: First Rule 32 Petition, Second Rule 32
Petition.
(d) If you did not present the issue in Ground One to the Arizona Court of Appeals,
explain why: N/A.
(e) Did you present the issue in Ground One to the Arizona Supreme Court? Yes.
GROUND TWO: Newly Discovered Facts
(a) Supporting FACTS: Mr. Sauceda presented three pieces of evidence newly
discovered after trial that would have probably changed the verdict or sentence:
6

178

Case 2:19-cv-01132-NVW Document 1 Filed 02/19/19 Page 7 of 11

(i)

(ii)

(iii)

Dr. Zacher’s Medical Report. Mr. Sauceda was unaware during the trial
that in the medical records of Carlos Sanchez was the report of Dr. Zacher,
which stated the bullet fragments were turned over to the authorities. Mr.
Sauceda’s defense counsel never attempted to have the medical records
admitted to evidence. The court and jury were never made aware of definitive
proof that Dr. Zacher had turned the bullet fragments over to the police. On
appeal, the medical report of Dr. Zacher was never brought to the appellate
court’s attention. The jury did not have before it the fact that bullet fragments
were recovered from the head of one of the victims. The State’s ballistics
expert testified that certain shell casings had marks that he would never
expect to see from a Glock. There are bullets that were never tested and shell
casings that were not accounted for.
The Declaration of Sherise Ulibarri. Neither defense counsel nor the State
called this witness at trial. While she was with Mr. Sauceda on the night of
the incident, defense counsel did not subpoena her or call her as witness in
the trial. The jury never heard any testimony she would give.
The Declaration of Steven Deleon. Neither defense counsel nor the State
called this witness at trial. While he was with Mr. Sauceda on the night of
the incident, defense counsel did not subpoena him or call him as witness in
the trial. The jury never heard any testimony he would give.

All of these were attached to Mr. Sauceda’s Petition.
(b) Did you present the issue raised in Ground Two to the Arizona Court of Appeals?
Yes.
(c) If yes, did you present the issue in a: Second Rule 32 Petition.
(d) If you did not present the issue in Ground Two to the Arizona Court of Appeals,
explain why: N.A.
(e) Did you present the issue in Ground Two to the Arizona Supreme Court? No.
GROUND THREE: Actual Innocence
(a) Supporting FACTS: Mr. Sauceda demonstrated through the medical report of Dr.
Zacher and the declarations of Mr. Deleon and Ms. Ulibarri his actual innocence.
Had this evidence been presented no reasonable jury would have convicted Mr.
Sauceda. Contrary to the Court’s statements, the testimony of Mr. Dominguez, Mr.
Villagrana, and Mr. Borja were inconsistent with prior statements. The only
testimony that could have been presented without impeachment is the testimony by
Mr. Deleon and Ms. Ulibarri. Both of their declarations corroborate each other.
(b) Did you present the issue raised in Ground Three to the Arizona Court of Appeals?
Yes.
(c) If yes, did you present the issue in a: Second Rule 32 Petition.
(d) If you did not present the issue in Ground Three to the Arizona Court of Appeals,
explain why: N/A.
(e) Did you present the issue in Ground Three to the Arizona Supreme Court? No.
7

179

Case 2:19-cv-01132-NVW Document 1 Filed 02/19/19 Page 8 of 11

Please answer these additional questions about this petition:
13. Have you previously filed any type of petition, application or motion in a federal court
regarding the conviction that you challenge in this petition? No.
14. Do you have any petition or appeal now pending (filed and not decided yet) in any
court, either state or federal, as to the judgment you are challenging? No.
15. Do you have any future sentence to serve after you complete the sentence imposed by
the judgment you are challenging? No.
16. TIMELINESS OF PETITION: If your judgment of conviction became final more than
one year ago, you must explain why the one-year statute of limitations in 28 U.S.C. §
2244(d) does not bar your petition.*
*Section 2244(d) provides in part that:
(1) A 1-year period of limitation shall apply to an application for a writ of habeas
corpus by a person in custody pursuant to the judgment of a State court. The limitation
period shall run from the latest of(A) the date on which the judgment became final by the conclusion of direct
review or the expiration of the time for seeking such review;
(B) the date on which the impediment to filing an application created by State
action in violation of the Constitution or laws of the United States is removed, if the
applicant was prevented from filing by such State action;
(C) the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if the right has been newly recognized by the Supreme
Court and made retroactively applicable to cases on collateral review; or
(D) the date on which the factual predicate of the claim or claims presented
could have been discovered through the exercise of due diligence.
17. Petitioner asks that the Court grant the following relief: or any other relief to which
Petitioner may be entitled. (Money damages are not available in habeas corpus cases.)
RESPECTFULLY SUBMITTED this 19th day of February, 2019.
HORNE SLATON, PLLC
By:__/s/ Sandra Slaton______________________
Sandra Slaton
Attorney for Petitioner Isidro Sauceda

8

180

Case 2:19-cv-01132-NVW Document 1 Filed 02/19/19 Page 9 of 11

181

Case 2:19-cv-01132-NVW Document 1 Filed 02/19/19 Page 10 of 11

1

Counsel undersigned, Sandra Slaton, certifies, under penalty of perjury, pursuant to the

3

requirements of Arizona Rules of Criminal Procedure, Rule 31.12 and 32.9(c) that she caused

4

this Petition for Writ of Habeas Corpus, Petitioner’s Memorandum in Support of Petition

5

Under 28 U.S.C., § 2254 for A Writ of Habeas Corpus By a Person In State Custody (Non-

6

Death Penalty) and Application To Proceed In District Court Without Prepaying Fees Or

7

Costs to be mailed on the 19th day of February, 2019, and e-filed on the 19th day of February,

8

2019, with:
U.S. District Court Clerk
U.S. Courthouse, Suite 130
401 W. Washington, SPC 10
Phoenix, Arizona 85003-2119

9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

2

CERTIFICATE OF SERVICE

10
11

And served by U.S. Mail, first class two (2) copies of Petition for Habeas Corpus,
12
Petitioner’s Memorandum In Support of Petition Under 28 U.S.C. § 2254 For A Writ of
13
Habeas Corpus By A Person In State Custody (Non-Death Penalty) and Application to
14
Proceed In District Court Without Prepaying Fees Or Costs on this 19th day of February,
15
2019, to:
16
Assistant Attorney General
Criminal Appeals/Capital Litigation Section
1275 West Washington
Phoenix, Arizona 85007-2997

17
18
19

And served by U.S. Mail, first class two (2) copies of Petition for Habeas Corpus,

20

Petitioner’s Memorandum In Support of Petition Under 28 U.S.C. § 2254 For A Writ of

21

Habeas Corpus By A Person In State Custody (Non-Death Penalty) and Application to

22

Proceed In District Court Without Prepaying Fees Or Costs on this 19th day of February,

23

2019, to:

24
25

1

182

Case 2:19-cv-01132-NVW Document 1 Filed 02/19/19 Page 11 of 11

1
2
3

Gerald R. Grant
Deputy County Attorney
Maricopa County Attorneys’ Office
301 W. Jefferson St., Ste. 800
Phoenix, AZ 85003
Last Appellate Brief

4
By:/s/ Sandra Slaton
Sandra Slaton
Attorney for Petitioner Isidro Sauceda

5
6
7

9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

2

183

Case 2:19-cv-01132-NVW Document 1-10 Filed 02/19/19 Page 1 of 26

1
2
3
4

Sandra L. Slaton, Bar No. 006454
HORNE SLATON, PLLC
6720 N. Scottsdale Rd., Suite 285
Scottsdale, Arizona 85253
Tel. 480-483-2178
Fax. 480-367-0691 fax
slaton@horneslaton.com
Attorney for Petitioner Isidro Sauceda

5
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA

6
7

Isidro Sauceda,
Petitioner,

8

Case No.

9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

V.

10
11
12

PETITIONER’S MEMORANDUM IN
SUPPORT OF PETITION UNDER 28
U.S.C. § 2254 FOR A WRIT OF
HABEAS CORPUS BY A PERSON IN
STATE CUSTODY (NON-DEATH
PENALTY)

Charles L. Ryan, Director of the Arizona
Department of Corrections,
Respondent,
And
The Attorney General of the State of
Arizona,

13
Additional Respondent.
14
15
Petitioner, ISIDRO SAUCEDA (“Mr. Sauceda”), through counsel undersigned, hereby
16
submits his Memorandum in Support of his Petition Under 28 U.S.C. § 2254 For a Writ of
17
Habeas Corpus By a Person in State Custody. Mr. Sauceda was taken into state custody on
18
April 21, 2005, satisfying the custody requirement of § 2254, and seeks federal habeas.
19
I.

INTRODUCTION

20
Mr. Sauceda petitions this Court for habeas corpus relief from his 5 (five) convictions
21
under Arizona State law for first degree murder, attempted first degree murder, aggravated
22
assault, and assisting a criminal street gang. An innocent man still sits in prison for a crime he
23
24
25

1

184

6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

Case 2:19-cv-01132-NVW Document 1-10 Filed 02/19/19 Page 2 of 26

1

did not commit. The Arizona Courts dismissed Mr. Sauceda’s Petitions for Review on the

2

grounds that the issues raised were not colorable. This was in error, as Mr. Sauceda’s claims

3

of ineffective assistance and actual innocence were indeed colorable by the new discovery of

4

crucial evidence contradicting the spurious foundations of the State’s position.

5

The State based most of its trial arguments on “gang” affiliation, which Mr. Sauceda

6

did, and does not have, supported by a theory of color-coded clothing. Specifically, the State

7

in both its opening statement and closing argument told the jury that there was only one

8

shooter, who was wearing a lot of “red” on the night in question. It cherry-picked witness

9

testimony claiming that Mr. Sauceda was wearing red the night of the shooting. Two

10

witnesses have attested that Mr. Sauceda could not have been the shooter. A medical report

11

reveals additional bullets which the police reports did not disclose. State-appointed defense

12

counsel failed to acquire or present this evidence demonstrating actual innocence at trial.

13

Furthermore, trial counsel failed to provide competent counsel at several critical

14

junctures in Mr. Sauceda’s defense, all to his prejudice and detriment. Trial counsel later filed

15

an affidavit admitting to ineffective assistance. After conviction and appeal, Mr. Sauceda was

16

also appointed Rule 32 counsel. Post-conviction counsel was also ineffective, having filed a

17

“no-issue” claim. Under Martinez v. Ryan, 566 U.S. 1, 17 (2012), Mr. Sauceda was entitled to

18

an equitable post-conviction remedy based on ineffective assistance during initial-review

19

collateral proceedings and deserves a retrial accounting for the newly discovered evidence

20

demonstrating actual innocence.

21

Mr. Sauceda was denied his constitutional right to effective defense trial and appellate

22

counsel under the Sixth Amendment to the Constitution of the United States. Failure of

23

counsel to provide competent assistance caused actual prejudice to Mr. Sauceda, resulting in a

24
25

2

185

6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

Case 2:19-cv-01132-NVW Document 1-10 Filed 02/19/19 Page 3 of 26

1

fundamental miscarriage of justice. Mr. Sauceda has exhausted his state court remedies and

2

now seeks federal habeas relief.

3

MATERIAL PROCEDURE AND FACTS

4

Mr. Sauceda was found guilty by a jury of one count of first-degree murder, two

5

counts of attempted first-degree murder, one count of aggravated assault, and one count of

6

assisting a criminal street gang. On November 8, 2008, Mr. Sauceda was sentenced to: 13.5

7

years on Count II, 13.5 years on Count III to run consecutive to Count II, 10.5 years on Count

8

IV to run consecutive to Count III, and 7.5 years on Count V to run concurrent with Count II.

9

On October 16, 2009, following the State’s withdrawal of its intent to seek the death penalty,

10

Mr. Sauceda was sentenced to life without the possibility of parole until after 25 years from

11

conclusion of sentences on Counts II, III, and IV.

12

Following conviction, Mr. Sauceda filed a timely appeal in the Arizona Court of

13

Appeals. On February 12, 2012, Mr. Sauceda filed a notice of post-conviction relief and was

14

appointed counsel. Former counsel filed a “no issue” claim and requested an extension of time.

15

On August 24, 2012, Mr. Sauceda filed a pro per Rule 32 Petition for Post-Conviction Relief.

16

Mr. Sauceda’s post-conviction petition was denied together with his subsequent Motion for

17

Reconsideration.

18

On January 9, 2015, Mr. Sauceda filed a Petition for Review pro per. Review was

19

granted but relief was denied on June 11, 2014. See Case No. 2 CA-CR 2015-0174-PR. On

20

January 28, 2015, counsel undersigned entered her notice of appearance. On August 13, 2015,

21

Mr. Sauceda, through counsel undersigned, filed a Petition for Review of the appellate court’s

22

denial of relief, which was denied by the Supreme Court on April 11, 2016.

23
24
25

3

186

1

On July 25, 2016, Mr. Sauceda filed a second Rule 32 Petition for Post-Conviction

2

relief. On March 6, 2017, the trial court denied Mr. Sauceda’s petition. On March 21, 2016,

3

Mr. Sauceda moved for a rehearing. The rehearing was denied on April 6, 2017. On May 8,

4

2017, Mr. Sauceda filed a Petition for Review with the Arizona Court of Appeals. His petition

5

was denied on March 26, 2018. This petition for habeas follows.

6

Mr. Sauceda submits he was forced to stand trial on an indictment based on perjured

7

testimony before the grand jury. The indictment was returned on the following perjured

8

testimony:

9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

Case 2:19-cv-01132-NVW Document 1-10 Filed 02/19/19 Page 4 of 26

•

First, Detective Lowe testified that Ivan Villagrana (“Villagrana”) said, “All of the

10

sudden Isidro Sauceda pulls out a gun and starts shooting.” Villagrana’s actual

11

witness interview reveals that the detective asked “[d]id you actually see

12

somebody pull out a gun?" Villagrana answered “[n]o, I never saw no.”

13

•

Second, Detective Lowe testified that Jose Peter Razo (“Razo ”) “was shown a

14

photo lineup … In the hospital and he identified Isidro Sauceda who had the gun

15

and shot him.” In the actual interview of Razo, Lowe asked Razo to “point to

16

somebody he recognized” and asked if that person had a gun. Razo said “no.”

17

•

Third, the prosecutor asked Detective Lowe if Borja was able to describe how the

18

shooter was dressed. Lowe answered, “German said that the person was wearing a

19

black beanie and red bandanna.” Additionally, on the next question Lowe

20

answered “this is the exact description of Sauceda.” However, in the actual

21

interview German said “no” when asked if he saw the guy with the gun.

22

Furthermore, at trial the State prevailed on a tenuous theory of gang retribution and

23

transferred intent. While former counsel found no colorable claim for post-conviction relief,

24
25

4

187

6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

Case 2:19-cv-01132-NVW Document 1-10 Filed 02/19/19 Page 5 of 26

1

Mr. Sauceda inter alia challenged the effectiveness of his trial and appellate counsel finding

2

three separate and critical instances where his counsel fell below the objective level of

3

reasonableness. Mr. Sauceda even presented a sworn affidavit from trial counsel that his

4

representation fell below that standard. “Matthew Affidavit” attached as Appendix Tab A. Not

5

only did Mr. Sauceda challenge his conviction pro per, he diligently worked to demonstrate

6

his innocence while incarcerated.

7

Following the dismissal of his initial post-conviction relief petition, Mr. Sauceda was

8

finally able to locate and discover new evidence that was never presented to the jury during

9

his trial. Specifically, Mr. Sauceda located a medical report written by Dr. Zacher (who

10

testified at trial) that was never introduced to evidence. “Zacher Report” attached as Appendix

11

Tab B. Dr. Zacher’s report reads in pertinent part:

12
13
14
15
16

It should be noted that during the initial dissection of the soft tissues two
bullet fragments were identified, one of them was just under the galeal layer
between the skin and the bone and this was removed, and then during removal
of the large bone fragment overlying the brain at the inferior aspect of this
bone fragment, another piece of bullet was identified and this was also
removed. These bullets were sent to the authorities via the standard protocol.
The only specimens from this procedure were the bullet fragments.
Id at 2. The appellate court specifically observed during appeal:

19

There was no evidence the fragments were actually given to the police. Nor
was there any evidence the fragments are not still in the possession of the
hospital. Absent evidence that the hospital does not have the fragments in its
possession (and, therefore, available for testing by Defendant), there was no
abuse of discretion by the trial court in refusing to give a Willits instruction.

20

During the trial, Detective Lowe admitted that the fragments were not in the possession of the

21

Glendale police department. Specifically, when asked if the fragments were in the custody of

22

the Glendale Police Department he stated: “Not that I’m aware of, no.”

17
18

23
24
25

5

188

6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

Case 2:19-cv-01132-NVW Document 1-10 Filed 02/19/19 Page 6 of 26

1

Additionally, Dr. Zacher testified regarding the bullet fragments. However, his report

2

was never offered or admitted to evidence. Dr. Zacher responded: “They were” when asked if

3

the bullets were turned over to the authorities. Furthermore, Dr. Zacher testified directly about

4

the standard protocol for turning over evidence to the authorities. However, the jury never

5

received the medical report due to former trial counsel’s failure to enter it into evidence.

6

Mr. Sauceda, while challenging the dismissal of his first petition for post-conviction

7

relief by the trial court, was also able to secure affidavits from two witnesses who were

8

actually with him on the night in question.

9

Steven Deleon, a friend of Mr. Sauceda, who accompanied him to the party, was

10

located and was able to provide a detailed affidavit of what transpired on December 13, 2003.

11

“Deleon Affidavit” attached as Appendix Tab C. Mr. Deleon stated in pertinent part:

12
13
14
15
16
17
18

5. I remember being with Isidro during the entire day on December 13, 2003
and into the early morning hours of December 14, 2003.
6. On that particular day of December 13, 2003, I specifically remember that
Isidro was wearing dark blue or black clothing and a pair of brand new black
colored ‘Jordan’ tennis shoes, who Isidro told me, were bought for him by his
then girlfriend Cherise [sic] Ulibarri.
7. I happen to remember this fact about the tennis shoes because I liked them
so much that I tried them on, and Isidro had to tell me to take those shoes off.
8. I remember that Isidro had the shoes on when we left for the party.
8. [sic] I remember arguing with Isidro on who would wear the new Jordan
shoes on the night of December 13, 2003. Since they were Isidro’s new shoes
he wore them to the party.
9. I remember that Isidro was not wearing any garment that night which was
red in color.

19
Id. at 1-2. Mr. Deleon never testified at trial and was only approached by an investigator
20
whom he thought was working for Mr. Sauceda’s defense briefly in 2006. Mr. Deleon told the
21
investigator that, “Isidro did not commit any crime.”
22
Furthermore, Mr. Deleon was also able to recall the following concerning the night in
23
question, December 13, 2003:
24
25

6

189

Case 2:19-cv-01132-NVW Document 1-10 Filed 02/19/19 Page 7 of 26

8

10. [sic] On December 13, 2003 I was with Isidro and other friends when we
were all searched at the front door of the party for weapons.
12. To my personal knowledge Isidro Sauceda did not have a gun on the night
of December 13, 2003, because I personally saw the individual at the entrance
to the party search Isidro, myself and other. I did not see any gun emerge from
the person of Isidro at the time.
13. Also, I did not see any gun on Isidro Sauceda ever, including December
13, 2003, and to my best personal knowledge he did not own a weapon of any
type.
14. To my personal knowledge Isidro was not then, nor has he ever been, a
gang member or affiliated with any gang.
Id. at 2-3. Finally, Mr. Deleon, having known Mr. Sauceda for years, stated: “I
never remember observing Isidro wearing a red bandana or handkerchief
around his head or anywhere on his body, including December 13, 2003.” Id.
at 2.

9

Mr. Sauceda also secured an affidavit from his former girlfriend Ms. Cherise Ulibarri

10

who was with Mr. Sauceda prior to him leaving for the party. “Ulibarri Affidavit” attached as

11

Appendix Tab D. Ms. Ulibarri was only a witness during the penalty phase and was never

12

called during the guilt phase by either the State or defense counsel. However, Ms. Ulibarri

13

recalled in pertinent part:

1
2
3
4
5
6

6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

7

14
15
16
17
18
19
20
21

7. On that particular day, December 13, 2003, I personally bought Isidro a pair
of Jordan tennis shoes as a Christmas present. The shoes were all black with
black shoelaces.
8. I personally tied Isidro’s new shows [sic] right before Isidro left for the
party on December 13, 2003.
9. I personally remember that Isidro was not wearing any garment that night
which was red in color.
10. I remember that Isidro was dressed in jeans and a dark colored sweatshirt
on the night in question.
Id. Furthermore, Ms. Ulibarri after stating that she had known Mr. Sauceda for
over a year during the relevant time in question declared:
12. To my personal knowledge, Isidro Sauceda was never in a gang, and I
never saw any indication of gang related activity or affiliation on his part.
13. Also, I did not see any gun on Isidro Sauceda ever, including December
13, 2003, and to my personal knowledge he did not own a weapon or [sic] any
type.

22
Id. at 2. The jury never heard any of this crucial information.
23
24
25

7

190

Case 2:19-cv-01132-NVW Document 1-10 Filed 02/19/19 Page 8 of 26

1

The State’s case was based upon circumstantial evidence including red clothing and

2

gang affiliation. Detective Lowe specifically attested that the Glendale police department

3

never had any information that Mr. Sauceda was “claiming” any gang. Virtually the State’s

4

entire case was predicated on tying Mr. Sauceda to a gang through the color of his clothing.

5

The State’s use of the color “red” and “red rag” throughout the trial was illustrative of

6

the circumstantial evidence used to connect Mr. Sauceda as the shooter. The State argued in

7

closing to the jury:

10

There’s also clothing or color. We already heard from more than one person
he was wearing red clothing. He had some kind of red shoelaces, red bandana.
It’s the night of the party, okay. As we heard from person after person, lay
witnesses, we know about gangs – as well as detectives, okay. The red color
associated is associated with the Phoeniquera gang, all right.

11

The State continued in its closing argument: “[e]ven people who did not point him out they

12

described the person who was doing the apologizing with the gun and the red bandanas, okay.

13

(emphasis added). The State argued: “[t]here was one person wearing red bandana okay.”

14

(emphasis added).

9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

15

The State further argued that the description of Mr. Sauceda given by Marcus

16

Dominguez was: “[h]e said he was, the defendant, wearing gray shoes with red stripes or

17

laces …And then Marcus also said he was wearing a gray cap with red trim and a red bandana

18

underneath that cap.” (emphasis added). The State’s argument focused on one thing, one color:

19

“It was the red.” (emphasis added).

20

II.

ARGUMENT

21

The Arizona Courts have dismissed Mr. Sauceda’s claims of (1) ineffective assistance

22

of post-conviction counsel; (2) newly discovered evidence; and (3) actual innocence as not

23
24
25

8

191

Case 2:19-cv-01132-NVW Document 1-10 Filed 02/19/19 Page 9 of 26

1

colorable.1 However, Mr. Sauceda’s procedural default was due to ineffective counsel during

2

initial-review collateral proceedings, and therefore his claims establishing cause and actual

3

prejudice should be considered on federal habeas. Martinez v. Ryan, 566 U.S. 1, 17 (2012).

5

A. Mr. Sauceda Did Not Receive Effective Assistance Of Counsel During His Trial
And Appeal, Nor During His Initial Rule 32 Proceeding, And Is, Therefore, Not
Barred From Federal Habeas Relief.

6

The Arizona Courts dismissed Mr. Sauceda’s Petitions for Review, thus procedurally

7

defaulting his federal claim of ineffective assistance. “[I]f the procedural default is the result

8

of ineffective assistance of counsel, the Sixth Amendment itself requires that responsibility for

9

the default be imputed to the State.” Murray v. Carrier, 477 U.S. 478, 488 (1986). The State

10

of Arizona does not permit a convicted person alleging ineffective assistance of trial counsel

11

to raise that claim on direct review. See Ariz. Rule Crim. Proc. 32.2(a). However, in Martinez

12

v. Ryan, the United States Supreme Court carved out an equitable remedy for preventing

13

procedural default for precisely the occasion presented here. Martinez v. Ryan, 566 U.S. at 17.

14

The Court opined in pertinent part:

6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

4

15

[w]here, as here, the initial-review collateral proceeding is the first designated
proceeding for a prisoner to raise a claim of ineffective assistance at trial, the
collateral proceeding is in many ways the equivalent of a prisoner's direct
appeal as to the ineffective-assistance claim. This is because the state habeas
court “looks to the merits of the clai[m]” of ineffective assistance, no other
court has addressed the claim, and “defendants pursuing first-tier review ... are
generally ill equipped to represent themselves” because they do not have a
brief from counsel or an opinion of the court addressing their claim of error.

16
17
18
19

Id., 132 S.Ct. at 1317. The Supreme Court stated: “By deliberately choosing to move trial20
ineffectiveness claims outside of the direct-appeal process, where counsel is constitutionally
21
22
23

1

Mr. Sauceda incorporates by reference all issues and claims raised in his Petitions for Post-Conviction Relief
and the Replies in support of the same as if set forth in full herein.

24
25

9

192

6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

Case 2:19-cv-01132-NVW Document 1-10 Filed 02/19/19 Page 10 of 26

1

guaranteed, the State significantly diminishes prisoners' ability to file such claims.” Id. at

2

1318.

3

To state a colorable claim of ineffective assistance of counsel the defendant must

4

“show both that counsel’s performance fell below objectively reasonable standards and that

5

this deficiency prejudiced [him].” State v. Bennett, 213 Ariz. 562, ¶ 21, 146 P.3d 63, 68 (Ariz.

6

2006), citing Strickland v. Washington, 466 U.S. 668, 687 (1984); See generally May v. Ryan,

7

245 F. Supp. 3d 1145, 1153 (D. Ariz. 2017). Here, Mr. Sauceda has received ineffective

8

assistance of trial and post-conviction counsel and requests precisely the equitable remedy

9

observed by Martinez.

10
11

1. Mr. Sauceda was entitled to jury instructions for attempted second-degree
murder, and Defense Trial Counsel’s failure to object and make a record fell
below the standard of care required for representation, amounting to ineffective
assistance of counsel which prejudiced Mr. Sauceda.

12
Lesser-included offense instructions are required if the jury could find: (a) the State
13
failed to prove an element of the greater offense, and (b) the evidence is sufficient to support a
14
conviction on the lesser offense. State v. Wall, 212 Ariz. 1, ¶ 4, 126 P.3d 148, 151 (2006); see
15
also Dahnad v. Ryan, CV1401294PHXDJHDMF, at *12 (D. Ariz. July 28, 2016) (quoting
16
State v. Speers, 238 Ariz. 423, 429, 361 P.3d 952, 958 (Ariz. App. 2015)).
17
“Where one of the elements of the offense charged remains in doubt, but the defendant
18
is plainly guilty of some offense, the jury is likely to resolve its doubts in favor of conviction.”
19
Beck v. Alabama, 447 U.S. 625, 634 (1980). Defense counsel must seek a lesser-included
20
offense instruction to avoid the risk of “unwarranted conviction.” Id. at 638. Even though Mr.
21
Sauceda’s defense at trial was one of mistaken identity, the State was required to prove every
22
element of the charged crimes beyond a reasonable doubt. See Apprendi v. New Jersey, 530
23
U.S. 466, 477 (2000); see also State v. McPhaul, 174 Ariz. 561, 851 P.2d 860 (Ariz. Ct. App.
24
25

10

193

6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

Case 2:19-cv-01132-NVW Document 1-10 Filed 02/19/19 Page 11 of 26

1

1992) (holding failure to include lesser-included offense instruction was reversible error

2

because an element was in doubt).

3

A defendant is not precluded from receiving a lesser-included offense instruction even

4

where he asserts an all-or-nothing defense. Wall, 212 Ariz. at ¶¶ 25-31; see also United States

5

v. Crutchfield, 547 F.2d 496, 501 n. 4 (9th Cir. 1977) (holding that reliance on a defense for a

6

greater offense did not require concession of all the elements of the offense charged, nor did

7

the defendant do so). For instance, the jury determines if an element was credibly established.

8

See State v. Dugan, 125 Ariz. 194, 195 608 P.2d 771, 773 (1980) (holding conflicting

9

evidence in the record warranted a lesser-included offense instruction).

10

In the instant case, there is no question second-degree murder is a lesser-included

11

offense to first-degree murder. A charge of attempt in either case requires that the defendant

12

acted with the type of culpability to complete the offense attempted. See A.R.S. § 13-1001.

13

The only difference between the elements of first-degree murder and those of second-degree

14

murder is the latter lacks premeditation. See A.R.S. § 13-1104; A.R.S. § 13-1105.

15

The record at Mr. Sauceda’s trial contains evidence putting the element of

16

premeditation in doubt. Borja testified there was a struggle for the gun. During the struggle

17

the gun fired and that is how two of the victims were shot. The trial court and prosecutor both

18

agreed to the lesser-included offense instruction of second-degree murder, which lacks the

19

element of premeditation. However, in successfully convicting Mr. Sauceda of first-degree

20

murder, such conviction was based on transferred intent as a means of proving the existence

21

of premeditation which was otherwise absent. In other words, the State’s own reliance on

22

transferred intent in order to show premeditation—based on conjecture and nothing more—de

23

facto illustrates that there was conflicting circumstantial evidence regarding premeditation.

24
25

11

194

6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

Case 2:19-cv-01132-NVW Document 1-10 Filed 02/19/19 Page 12 of 26

1

The trial court should have followed the reasoning in Wall, given this conflicting

2

circumstantial evidence, and there should have been a lesser-included offense instruction for

3

attempted first-degree murder given to the jury.

4

Trial counsel’s failure to object to the lack of lesser-included offense instructions

5

forced the appellate court on direct review to determine if the lack of jury instruction rose to

6

the level of “fundamental error.” State v. Lucas, 146 Ariz. 597, 604, 708 P.2d 81, 88 (Ariz.

7

1985). An objection at trial would have allowed the appellate court to review under an abuse

8

of discretion standard. Wall, 212 Ariz. at ¶ 12. An abuse of discretion can be found in an error

9

of law committed in reaching a discretionary conclusion. Id.

10

The trial record is devoid of any denial of the request for lesser-included offense

11

instruction for attempted first-degree murder. Counsel requested that the lesser-included

12

offenses for charge one, first-degree murder, and charges two and three, attempted first-degree

13

murder, must be included in the jury instructions. The trial court stated the instructions would

14

be given for second-degree murder and manslaughter because “there were enough theories to

15

support the instruction” and the question was one for the jury. Furthermore, the State made no

16

objection to including the instruction for the lesser-included offenses of attempt. The record is

17

silent as to why the judge omitted the lesser-included offense instructions as applying to

18

attempted first-degree murder. Counsel failed to object to the lack of instruction on counts two

19

and three. Furthermore, defense counsel made no record of this omission or judicial denial – if

20

there was one.

21

A necessary instruction was omitted from the minds of the jury allowing an innocent

22

man to be convicted without a full complement of instruction on how to apply the facts

23

presented at trial. This is exactly the danger the Supreme Court warned about in Beck. The

24
25

12

195

Case 2:19-cv-01132-NVW Document 1-10 Filed 02/19/19 Page 13 of 26

1

jury only had one option for attempted murder – first-degree. Therefore, counsel’s errors

2

prejudiced Mr. Sauceda by allowing a jury to convict him without full instruction and being

3

denied relief on direct appeal because defense counsel–by his own admission—failed to do his

4

job and make an objection to ensure Mr. Sauceda a just result.

5

2. Defense Counsel’s failure to timely file a special action to challenge the motion to
dismiss constructively denied Mr. Sauceda of counsel.

6
The constitutional guarantee of assistance of counsel cannot be satisfied by “mere
7
formal appointment.” Avery v. Alabama, 309 U.S. 444, 446 (1940). Lawyers in criminal cases
8
9
counsel to protect the other rights of the accused the right to a trial is meaningless. Id. at 654.
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

“are necessities, not luxuries.” United States v. Chronic, 466 U.S. 648, 653 (1984). Without

10
Counsel must be reasonably competent, and their advice must be “within the range of
11
competence” demanded of attorneys in criminal cases. Id. at 655 (quoting McCann v.
12
Richardson, 397 U.S. 759, 770 (1970). The trial is unfair if the accused is denied counsel at a
13
critical stage. Id.
14
Here, counsel was not competent, leaving Mr. Sauceda without an advocate at a
15
critical stage of the proceeding: specifically, competent counsel knows that challenge to an
16
indictment must be filed within twenty-five days of the arraignment. See Ariz. R. Crim. P.
17
12.9(b). Furthermore, competent counsel knows that the proper procedure after the trial court
18
denies a Rule 12.9 Motion to dismiss the indictment for denying a substantial procedural right
19
is to file a special action. See State v. Moody, 208 Ariz. 424, 439-40, ¶ 31, 94 P.3d 1119,
20
1134-35 (Ariz. 2004).
21
In the instant case, counsel failed to timely file the Rule 12.9 motion timely; instead
22
counsel waited a full two years after the extension to the deadline to file had passed. The State
23
responded alleging the challenge was untimely. Counsel replied with a two-paragraph answer
24
25

13

196

6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

Case 2:19-cv-01132-NVW Document 1-10 Filed 02/19/19 Page 14 of 26

1

addressing neither the timeliness error nor any extenuating circumstances for the late filing.

2

Moreover, after the denial of the motion, counsel advised Mr. Sauceda that a special action

3

was not available to him. While counsel was correct that the denial of the motion could be

4

reviewed on direct appeal, counsel still should have filed the special action. See Moody, 208

5

Ariz. at 439-40, ¶ n31, 94 P.3d at 1134-35 (one exception is when an indictment is based on

6

perjured material testimony to the grand jury). The special action would have allowed the

7

appellate court to review the motion based on pre-trial investigation instead of relying on the

8

trial testimony to find no perjured testimony at the Grand Jury.

9

Mr. Sauceda asserts Detective Lowe’s Grand Jury testimony was fraught with perjured

10

material testimony. For instance, the Detective testified at the Grand Jury, “Villagrana said,

11

‘All of the sudden Isidro Sauceda pulls out a gun and starts shooting.’” When in fact

12

Villagrana said in his interview with the Detective he “never saw” anybody pull out a gun.

13

Additionally, the Detective testified, “Razo was shown a photo lineup … and identified Isidro

14

Sauceda … had the gun and shot him.” Razo was merely asked to “point to somebody he

15

recognized.”

16

Criminal defendants have a Constitutional right not to stand trial on an indictment the

17

government knows is based on perjured testimony. United States v. Basurto, 497, F.2d 781,

18

785 (9th Cir. 1974). Mr. Sauceda asserts there was perjured material testimony presented to

19

the Grand Jury. It is plain to see the testimony given by the Detective is not what the

20

witnesses actually said. Moreover, the prosecutor failed to correct any misleading testimony.

21

See generally Crimmins v. Superior Court, 137 Ariz. 39, 668 P.2d 882 (Ariz. 1983).

22

Counsel failed to test the indictment in an adversarial setting before the trial began

23

allowing the State to try Mr. Sauceda on a defective indictment based on perjured testimony,

24
25

14

197

6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

Case 2:19-cv-01132-NVW Document 1-10 Filed 02/19/19 Page 15 of 26

1

which the prosecutor failed to correct. See Crimmins, supra. Where there is a lack of

2

adversarial testing of the State’s case, there is a breakdown in the system and the Constitution

3

demands remedy. No prejudice need be shown. Strickland, 466 U.S. at 691; See also Chronic,

4

466 U.S. at 653-55. Therefore, counsel’s actions are tantamount to the complete denial of

5

counsel.

6

The Constitution requires counsel to act as an advocate. Chronic, 466 U.S. at 655.

7

Where no assistance is provided for the defendant the guarantee of the right to counsel is

8

violated and the trial is unfair. Id. Here, the advice given by counsel was not competent and

9

diametrically opposed to the advice that should have been given.

10

3. Mr. Sauceda did not receive effective assistance of counsel at trial, nor during
initial-review.

11
Mr. Sauceda did not receive effective assistance of trial counsel pursuant to the Sixth
12
Amendment of the federal Constitution. See U.S. Const. amend. VI. At trial, Mr. Sauceda
13
was appointed Rule 32 (post-conviction) counsel pursuant to A.R.S. §13-4031. Trial counsel
14
requested a Willits instruction but failed to argue the court’s denial. Trial counsel did not offer
15
the medical records of Carlos Sanchez and bring Dr. Zacher’s report to the attention of the
16
court and jury, evidence which would have necessitated a Willits instruction. A Willits
17
instruction would have allowed the jury to make a negative inference against the state. This
18
was surely below the objective level of reasonableness given the materiality of ballistic
19
evidence in this shooting crime. Moreover, failing to object to the lack of a Willits instruction
20
only allowed Mr. Sauceda to challenge the judgment on a showing of fundamental error,
21
which is a much higher standard to meet than abuse of discretion. Furthermore, trial counsel
22
provided an affidavit swearing that his performance fell below the reasonableness standards
23
24
25

15

198

6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

Case 2:19-cv-01132-NVW Document 1-10 Filed 02/19/19 Page 16 of 26

1

for effective assistance of counsel in failing to object to no lesser-included offense instructions.

2

These deficiencies in trial counsel’s performance undeniably prejudiced Mr. Sauceda.

3

Additionally, Mr. Sauceda did not receive effective assistance of post-conviction

4

counsel. Post-conviction counsel filed a no-issue claim. She, too, completely missed Dr.

5

Zacher’s report and its exculpatory importance. The filing of an Anders2 brief occurs where

6

actual trial counsel admitted that his representation falls well below any objective standard of

7

reasonableness.3 Any of the aforementioned claims of ineffectiveness of trial counsel could

8

(and should) have been claimed by post-conviction counsel. Because the initial-review

9

collateral proceeding is a prisoner’s “one and only appeal” as to an ineffective-assistance

10

claim, Martinez v. Ryan, 566 U.S. at 8 (quoting Coleman v. Thompson, 501 U.S. 722, 756

11

(1991)), post-conviction-counsel’s performance harmfully prejudiced Mr. Sauceda.

12

Mr. Sauceda, a prisoner untrained in the law, was forced to appeal a procedurally

13

defaulted case while simultaneously challenging both his trial and appellate counsel. Being

14

forced to challenge his constitutional right to effective assistance of counsel without aid of an

15

attorney prejudiced Mr. Sauceda. As Justice Kennedy stated:
[t]o present a claim of ineffective assistance at trial in accordance with the
State’s procedures, then, a prisoner likely needs an effective attorney.

16
17

The same would be true if the State did not appoint an attorney to assist the
prisoner in the initial-review collateral proceeding. The prisoner, unlearned in
the law, may not comply with the State’s procedural rules or may
misapprehend the substantive details of federal constitutional law. [citation
omitted] While confined to prison, the prisoner is in no position to develop the
evidentiary basis for a claim of ineffective assistance, which often turns on
evidence outside the trial record.

18
19
20
21
2

22

An Anders brief is filed to seek permission to withdraw when counsel appointed for state appeal, after
conscientious examination, finds his case to be wholly frivolous. Anders v. State of Cal., 386 U.S. 738, 744
(1967).

23

3

Mr. Sauceda challenged trial counsel’s effectiveness on initial post-conviction relief, which was denied without
the help of counsel.

24
25

16

199

Case 2:19-cv-01132-NVW Document 1-10 Filed 02/19/19 Page 17 of 26

1
Martinez, 566 U.S. at 12 (emphasis added). The black letter law established by Martinez holds
2
that:
3
4
5

[w]here, under state law, claims of ineffective assistance of trial counsel must
be raised in an initial-review collateral proceeding, a procedural default will
not bar a federal habeas court from hearing a substantial claim of ineffective
assistance at trial if, in the initial-review collateral proceeding, there was no
counsel or counsel in that proceeding was ineffective.

6
Id., 566 U.S. at 17. Here, Mr. Sauceda is in the exact situation protected by this narrowly
7
defined remedy. Mr. Sauceda urges this Court to honor the Supreme Court’s ruling in
8
9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

Martinez and allow a defendant to challenge the effectiveness of post-conviction counsel.

11

B. Colorable Claims Based On Newly Discovered Material Evidence Of Actual
Innocence Demonstrates Cause and Prejudice Resulting From The State’s
Procedural Default, and Necessitates Federal Habeas To Prevent A
“Fundamental Miscarriage of Justice.”

12

Generally, a state procedural default of any federal claim does not bar federal habeas

13

where the petitioner demonstrates cause and actual prejudice, or where default would result in

14

a “fundamental miscarriage of justice.” See Weddington v. Zatecky, 72 F.3d 456, 465 (7th Cir.

15

2013); Henderson v. Palmer, 730 F.3d 554, 559 (6th Cir. 2013). A petitioner is able to

16

overcome a procedural default by demonstrating actual innocence of the crime underlying his

17

conviction. Vosgien v. Persson, 742 F.3d 1131, 1134 (9th Cir. 2014). One way a petitioner

18

can demonstrate actual innocence is to show in light of subsequent case law that he cannot, as

19

a legal matter, have committed the alleged crime. Id.

10

20

Here, newly discovered material evidence demands federal habeas review. Based on

21

the below newly discovered evidence, Mr. Sauceda presented colorable claims in his Petition

22

for Post-Conviction Relief. A colorable claim is one where if all facts are taken as true it

23

might have changed the outcome. State v. Watton, 164 Ariz. 323, 328, 793 P.2d 80, 85 (Ariz.

24
25

17

200

Case 2:19-cv-01132-NVW Document 1-10 Filed 02/19/19 Page 18 of 26

1

1990); see also Earp v. Ornoski, 431 F.3d 1158, 1167 (9th Cir. 2005). “When doubts exist, ‘a

2

hearing should be held to allow the defendant to raise the relevant issues, to resolve the matter,

3

and to make a record for review.’” State v. Watton, 793 P.2d at 85. So too, here, the trial court

4

should have at the very least ordered an evidentiary hearing to allow Mr. Sauceda to raise

5

these issues. Here, as in Vosgien, where the evidence demonstrates actual innocence, the

6

Arizona Courts’ denial of Mr. Sauceda’s Rule 32 Petitions has resulted in a “fundamental

7

miscarriage of justice.”
1. Newly discovered material evidence exists that would probably have changed the
verdict or sentence.

9
Newly discovered material facts exist where:
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

10
11
12
13

(1) The newly discovered material facts were discovered after the trial.
(2) The defendant exercised due diligence in securing the newly discovered
material facts.
(3) The newly discovered material facts are not merely cumulative or used
solely for impeachment, unless the impeachment evidence substantially
undermines testimony, which was of critical significance at trial such that
the evidence probably would have changed the verdict or sentence.

14
Ariz. R. Crim. Pro., Rule 32.1(e). A defendant must demonstrate that the evidence was
15
discovered following the trial and that the evidence was discovered with due diligence. State v.
16
Orantez, 183 Ariz. 218, 221, 902 P.2d 824, 827 (Ariz. 1995); see also Vega v. Ryan, 757 F.3d
17
960, 968 (9th Cir. 2014). Due diligence is illustrated by the defendant actively seeking a
18
remedy under Rule 32. State v. Bilke, 162 Ariz. 51, 53, 781 P.2d 28, 30 (Ariz. 2016).
19
Mr. Sauceda presented three pieces of evidence attached to his Rule 32 Petitions: (A)
20
Dr. Zacher’s Medical Report, (B) the declaration of Steven Deleon, and (C) the declaration of
21
Sherise Ulibarri. Appendix Tabs B, C, and D, respectively. As in Bilke, Mr. Sauceda
22
diligently challenged his conviction on appeal, followed by his initial post-conviction relief
23
petition. The latter challenge, including the effectiveness of trial and appellate counsel, was
24
25

18

201

6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

Case 2:19-cv-01132-NVW Document 1-10 Filed 02/19/19 Page 19 of 26

1

without the help of an attorney. While appealing the dismissal of his first post-conviction

2

petition, Mr. Sauceda discovered new evidence in the report of Dr. Zacher (never entered into

3

evidence by his trial counsel) and the affidavits of Mr. Deleon and Ms. Ulibarri. All of this

4

evidence was crucial on the merits to the State’s proof against Sauceda, was discovered after

5

trial with due diligence, and would probably have changed the outcome.

6

The court relied on State v. Saenz, 197 Ariz. 487, 4 P3d 1030 (Ariz. Ct. App. 2000), in

7

determining that no colorable claim was presented. However, Saenz is distinguishable from

8

the present matter. In Saenz, the defendant was aware during his trial of another individual’s

9

confession to the crime he was being tried for. Id. at ¶ 14. The defendant did nothing to bring

10

this other individual’s confession forward. Id. Therefore, the Arizona appellate court

11

determined that where the defendant did nothing to alert the court, the prosecutor, or his

12

attorney of the confession, it was not newly discovered evidence. Such is not the case here.

13

Mr. Sauceda was not aware of Dr. Zacher’s report until he discovered the page while

14

he was challenging the dismissal of his initial post-conviction petition. Mr. Sauceda was not

15

informed that defense counsel did not subpoena Mr. DeLeon and Ms. Ulibarri at the trial.

16

Unlike the defendant in State v. Saenz, Mr. Sauceda was not aware of this crucial evidence at

17

trial and he was not actively keeping it from the trial court or his attorney. 197 Ariz. at 490, 4

18

P.3d at 1033. Therefore, Mr. Sauceda has presented newly discovered evidence, which

19

justifies the re-opening of his case and a new trial.

20

a. The medical report of Dr. Zacher would probably have changed the outcome.

21

Evidence discovered only after the trial in Dr. Zacher’s medical report of the surgery

22

of Carlos Sanchez would probably have changed the outcome. The Glendale police

23
24
25

19

202

6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

Case 2:19-cv-01132-NVW Document 1-10 Filed 02/19/19 Page 20 of 26

1

department did not have the bullet fragments. The loss or destruction of evidence warrants a

2

Willits instruction for the defendant.

3

Mr. Sauceda’s ineffective trial counsel failed to even offer the medical record, which

4

was the best evidence for the jury to see that the hospital had turned the bullet fragments over

5

to the authorities.4 The court and jury were never made aware of definitive proof that the

6

undisclosed bullet fragments had been turned over to the police. Appellate counsel also failed

7

to raise this issue.

8

The trial court denied Mr. Sauceda’s request for a Willits instruction and the appellate

9

court denied any abuse of discretion because counsel had not produced any evidence that the

10

police department ever had the bullet. The appellate court and trial court made their decisions

11

despite the fact that Detective Lowe testified that the Glendale Police Department did not have

12

the bullet fragments from Sanchez’s skull, and Dr. Zacher testified that protocol was to

13

deliver them to the authorities.

14

Evidence is material if it concerns the crime charged or the defense presented. See

15

State v. Romero, 77 Ariz. 229, 234-35, 269 P.2d 724, 728 (Ariz. 1954). In Romero, the

16

Arizona high court upheld the granting of a new trial on the fact that a person who was

17

allegedly being protected was not actually at the scene. Id. The affidavits containing new

18

evidence were material because they called into question which person, the defendant or the

19

victim, was actually the aggressor of the fight. Id. Here, the bullet fragments from a shooting

20

are certainly material as they lead back to the gun that fired them.

21
22
23
4

Cf. No. 1 CA-CR 08-1036 No. 1 CA-CR 10-001, p. 10-11.

24
25

20

203

Case 2:19-cv-01132-NVW Document 1-10 Filed 02/19/19 Page 21 of 26

1

Furthermore, these bullet fragments have exculpatory value. The State’s theory was

2

predicated on only one gun being present. However, John Tew, the State’s ballistics expert

3

stated in pertinent part:

8

However, my notes I have a little bit additional information about some marks
that I did find on some of my projectiles, but I cannot explain where that mark
came from. It’s not a mark that I normally expect to see. I’ve seen it in some
types of things, but it’s – but it’s normally some form of an attached or part of
loading process to indicate I have some nice marks and some nice
photographs of a comparison, but my – my notes are is I don’t know where
this mark came from. It’s not – I would never expect to see this mark on a
standard Glock that I would either go buy in the store or whatever so I don’t
know what it is. So – but my results are still inconclusive. (emphasis added).

9

The State’s own expert testified that some of the projectiles had markings he would “never

4
5
6

6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

7

10

expect to see” from the only type of gun the State claims was used, a “Glock.”

11

The testimony regarding ballistics evidence does not support the one-gun theory.

12

There were seven bullet wounds. Kristopher Dominguez was shot once. Sanchez was shot

13

twice. Borja testified two bullets grazed his head, one graze his arm, and one entered his wrist.

14

The wounds on Dominguez and Borja were through-and-throughs; no bullets were recovered

15

on their person. There were six bullets found in the den. Two of the bullets fired in the den

16

were inside the skull of Sanchez. Dr. Zacher testified that there were no exit wounds.

17

Regarding three other bullets, Detective Lowe stated:

18
19

Yes, just to clear up the matter, A went through the wall, struck the bathroom
vanity. B was found inside of the wall of the cupboard. As I said, C went
through the wall and divided. A piece was found in the bathtub and a piece was
found in the wall underneath the toilet.

20
One bullet was found under the pant leg of Kristopher Dominguez. There were only five shell
21
casings found inside the small den.
22
23
24
25

21

204

Case 2:19-cv-01132-NVW Document 1-10 Filed 02/19/19 Page 22 of 26

Two more casings were found outside the house. Two bullets were recovered from

2

Razo’s body outside. Another bullet was recovered from outside of the house, embedded in an

3

exterior wall.

4

The appellate court’s reasoning hinged on, in addition to Dr. Zacher’s report, a theory

5

that five bullets and seven casings were recovered. Adding the two bullets recovered from Dr.

6

Zacher’s report, this created a clean, even “seven bullets, seven casings, seven wounds.” This

7

reasoning is contradicted by the facts, given that neither seven bullets nor seven casings were

8

discovered in the den where all seven wounds occurred.

9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

1

Only four bullets were found in the den: the three mentioned by Detective Lowe and

10

the one found under Kristopher Dominguez. In counting five bullets, the appellate court

11

included the bullet which was recovered from outside of the house. There was no evidence in

12

the record indicating that this was one of the bullets fired in the den.

13

The State’s main claim was one shooter, one gun. The jury did not have before it the

14

fact that Dr. Zacher’s report actually confirmed that the bullet fragments recovered from the

15

head of one of the victims were given to the police. Without the bullet fragments, together

16

with the lack of any gun being recovered, and the inability of Mr. Sauceda to test the bullet

17

fragments lost, or destroyed, by the State, it is clear that his conviction was secured on a house

18

of cards built on gang affiliation and “red” clothing without more. Mr. Sauceda should have

19

received a Willits instruction based on the fact that the fragments were not available. The

20

Willits instruction permits the jury to take missing or tampered evidence as a negative

21

inference and the State’s theory of a single gun would have been placed in reasonable doubt

22

by the jury.

23

b. The affidavits of Steven Deleon and Cherise Ulibarri would probably have
changed the outcome.

24
25

22

205

Case 2:19-cv-01132-NVW Document 1-10 Filed 02/19/19 Page 23 of 26

1
The affidavits of Mr. Deleon and Ms. Ulibarri regarding the night in question would
2
also probably have changed the outcome. Both declarations were discovered after trial and
3
after defense counsel failed to subpoena or call them as witnesses at trial. Neither Mr. Deleon
4
nor Ms. Ulibarri testified prior to the jury finding Mr. Sauceda guilty. Ms. Ulibarri only
5
testified during the guilt phase. As in Romero, the testimony of these two witnesses is material.
6
Their testimony involved Mr. Sauceda on the day and night in question.
7
The State directly relied on witnesses who had given multiple inconsistent statements
8
9
inconsistent testimony and prior statements.
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

prior to trial. Marcus Dominguez, Ivan Villagrana, Jose Peter Razo, and German Borja all had

10
Mr. Dominguez initially testified: “They [the shots] were coming from Isidro from up
11
here, from on top” On cross-examination Mr. Dominguez testified that he never saw Mr.
12
Sauceda shoot. Mr. Dominguez again switched his testimony back to Mr. Sauceda being the
13
shooter.
14
Furthermore, Mr. Dominguez testified that Mr. Sauceda was wearing a lot of grey on
15
the night in question. This is in direct contradiction to the State’s description of the shooter
16
and a “lot of red.”
17
Mr. Villagrana admitted on cross-examination that when police interviewed him, he
18
could not identify the shooter. On cross-examination, Mr. Villagrana was asked; “You don’t
19
know who the shooter was, correct?” To which he responded, “Correct.” (emphasis added).
20
Mr. Razo did not make an in-court identification, and only described what the shooter
21
was wearing: “Looked like a lot of red.” (emphasis added).
22
Mr. Razo was asked if the person who shot him was in the courtroom and he said:
23
“No.” (emphasis added).
24
25

23

206

Case 2:19-cv-01132-NVW Document 1-10 Filed 02/19/19 Page 24 of 26

1

Mr. Borja actually told police officers that he did not even know that Mr. Sauceda was

2

at the party. Again, during a later police interview, Mr. Borja still did not remember Mr.

3

Sauceda even being at the party. Mr. Borja was asked at trial: “No isn’t it true you didn’t

4

know it was Cheeto at the time? He responded, “I still don’t know.” (emphasis added).

5

Furthermore, the declarations of Sherise Ulibarri and Steven Deleon were newly

6

discovered. Neither defense counsel nor the State called either witness at trial. Moreover,

7

Steven Deleon’s declaration states:
Other than the brief interview that the defense investigator had with me in
2006, as mentioned above, I was never contacted again by any representative
for either the defense or State until approximately early October 2015, when I
was contacted by the defense5 on behalf of Isidro.

9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

10
Deleon Affidavit at 3. Mr. Deleon was not contacted for over nine years. Although he was
11
with Mr. Sauceda on the night in question, trial counsel did not subpoena him or call him as
12
witness in the trial. The jury never heard any testimony that he would give. Similarly, Ms.
13
Ulibarri was never called as a witness during the guilt phase of the trial. Her testimony was
14
never heard.
15
Had the jury received the material testimony, described above from Mr. Deleon and
16
Ms. Ulibarri (and fully stated in their respective affidavits incorporated herein), the outcome
17
would have surely been different. Contrary to the State’s witnesses, these two witnesses did
18
not have multiple inconsistent statements. A colorable claim is one where if all facts were
19
taken as true it might have changed the outcome. Wotton, 164 Ariz. at 328; see also Earp v.
20
Ornoski, 431 F.3d 1158, 1167 (9th Cir. 2005). Here, the Arizona courts violated Mr.
21
Sauceda’s constitutional rights in dismissing the credibility of the newly discovered evidence.
22
23
5

That defense would have been through counsel undersigned.

24
25

24

207

Case 2:19-cv-01132-NVW Document 1-10 Filed 02/19/19 Page 25 of 26

2

2. Mr. Sauceda has demonstrated by clear and convincing new evidence that the
facts underlying the claim would be sufficient to establish that no reasonable fact
finder would have found him guilty.

3

Mr. Sauceda has always asserted his actual innocence and that he was not the shooter.

4

As fully illustrated above, Mr. Sauceda has demonstrated his actual innocence by clear and

5

convincing evidence. Mr. Sauceda has not only presented colorable claims, but evidence

6

which actually illustrates that he was not the shooter on the night in question.

6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

1

7

Mr. Deleon was indeed present with Mr. Sauceda at the party during the shooting. Mr.

8

Deleon directly states, under penalty of perjury, that he informed the defense investigator in

9

2006, that: “Isidro did not commit any crime.” Furthermore, both Mr. Deleon and Ms. Ulibarri

10

corroborated what Detective Lowe testified to: Mr. Sauceda was not a member of a gang.

11

The affidavits of Ms. Ulibarri and Mr. Deleon also demonstrate that Mr. Sauceda was

12

not wearing any red colored clothing on the night in question. Virtually all of the State’s case

13

was predicated on “red” clothing and a “red rag.” Contrary to the trial court’s statements, the

14

testimony of Mr. Dominguez, Mr. Villagrana, and Mr. Borja were inconsistent with prior

15

statements. The only testimony that could have been presented without impeachment is the

16

testimony by Mr. Deleon and Ms. Ulibarri. Both of their declarations corroborate each other.

17

Finally, Dr. Zacher’s report illustrates that there is lost or destroyed evidence in this

18

matter. The State’s theory of one gun is severely hampered by the State’s own expert witness,

19

James Tew’s testimony of the bullet casings with marks he would never expect to see on a

20

bullet fired from a Glock. As discussed above there are two bullets and two casings missing

21

from the crime scene. The above demonstrates Mr. Sauceda’s innocence to his convictions.

22

III.

CONCLUSION

23
24
25

25

208

Case 2:19-cv-01132-NVW Document 1-10 Filed 02/19/19 Page 26 of 26

1

Absent this Court’s intervention, Mr. Sauceda will have been denied his constitutional

2

right to counsel and, far worse, been held guilty for crimes to which he can claim actual

3

innocence. Mr. Sauceda asks that this Court grant him habeas corpus relief, in accordance

4

with the precedent set by Martinez v. Ryan granting an exception to the procedural bar where

5

trial and post-conviction counsel were ineffective, and where newly discovered evidence

6

would have probably changed the outcome of the trial.

7

Respectfully submitted this 19th day of February,
HORNE SLATON, PLLC
By: /s/ Sandra Slaton
Sandra Slaton
Attorney for Petitioner Isidro Sauceda

9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

8

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

26

209

Case 2:19-cv-01132-NVW Document 1-11 Filed 02/19/19 Page 1 of 15

1
2
3
4

Sandra L. Slaton, Bar No. 006454
HORNE SLATON, PLLC
6720 N. Scottsdale Rd., Suite 285
Scottsdale, Arizona 85253
Tel. 480-483-2178
Fax. 480-367-0691 fax
slaton@horneslaton.com
Attorney for Petitioner Isidro Sauceda

5
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA

6
7

Isidro Sauceda,
Petitioner,

8

Case No.

9
6720 N. Scottsdale Rd.
Suite 285
Scottsdale, AZ 85253

HORNE SLATON, P.L.L.C.

V.

10
11
12

APPENDIX TO PETITIONER’S
MEMORANDUM IN SUPPORT OF
PETITION UNDER 28 U.S.C. § 2254
FOR A WRIT OF HABEAS CORPUS
BY A PERSON IN STATE CUSTODY
(NON-DEATH PENALTY)

Charles L. Ryan, Director of the Arizona
Department of Corrections,
Respondent,
And
The Attorney General of the State of
Arizona,

13
Additional Respondent.
14
15
TABLE OF CONTENTS
16

18

B.

19

C.

05/08/2012 Affidavit of Lawrence Matthew in Support of PostConviction Petition
12/14/2003 Document #: 1210989, Dr. Zacher Report on Carlos
Sanchez, p. 2
10/06/2015 Affidavit of Steven DeLeon

20

D.

05/28/2015 Affidavit of Sherise Ulibarri

17

A.

21
22
23
24
25

1

210

Case 2:19-cv-01132-NVW Document 1-11 Filed 02/19/19 Page 2 of 15

TAB A

211

Case 2:19-cv-01132-NVW Document 1-11 Filed 02/19/19 Page 3 of 15

212

Case 2:19-cv-01132-NVW Document 1-11 Filed 02/19/19 Page 4 of 15

213

Case 2:19-cv-01132-NVW Document 1-11 Filed 02/19/19 Page 5 of 15

TAB B

214

Case 2:19-cv-01132-NVW Document 1-11 Filed 02/19/19 Page 6 of 15

215

Case 2:19-cv-01132-NVW Document 1-11 Filed 02/19/19 Page 7 of 15

TAB C

216

Case 2:19-cv-01132-NVW Document 1-11 Filed 02/19/19 Page 8 of 15

217

Case 2:19-cv-01132-NVW Document 1-11 Filed 02/19/19 Page 9 of 15

218

Case 2:19-cv-01132-NVW Document 1-11 Filed 02/19/19 Page 10 of 15

219

Case 2:19-cv-01132-NVW Document 1-11 Filed 02/19/19 Page 11 of 15

220

Case 2:19-cv-01132-NVW Document 1-11 Filed 02/19/19 Page 12 of 15

TAB D

221

Case 2:19-cv-01132-NVW Document 1-11 Filed 02/19/19 Page 13 of 15

222

Case 2:19-cv-01132-NVW Document 1-11 Filed 02/19/19 Page 14 of 15

223

Case 2:19-cv-01132-NVW Document 1-11 Filed 02/19/19 Page 15 of 15

224

